        OFFICE OF INSPECTOR GENERAL

                               Catalyst for Improving the Environment



Special Report




         Congressional Request on
         Funding Needs for
         Non-Federal Superfund Sites

         Report 2004-P-00001


         January 7, 2004
Abbreviations

AOA             Advice of Allowance

CERCLIS         Comprehensive Environmental Response, Compensation, and
                Liability Information System

EPA             U.S. Environmental Protection Agency

FY              Fiscal Year

LTRA            Long-Term Response Action

NPL             National Priorities List

NTCRA           Non-time Critical Removal Action

OIG             Office of Inspector General

OU              Operable Unit

OSRTI           Office of Site Remediation and Technology Innovation

PRP             Potentially Responsible Party

RA              Remedial Action

RPM             Remedial Project Manager
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                  INSPECTOR GENERAL




The Honorable Barbara Boxer
Ranking Member
Subcommittee on Superfund and Waste Management
U.S. Senate
Washington, D.C. 20510

Dear Senator Boxer:

This report responds to your May 23, 2003, request of the Environmental Protection Agency
(EPA) Office of Inspector General (OIG) to provide information concerning funding needs for
non-Federal Superfund sites. We are sending identical reports to the cosigners of the letter:
Senator Jeffords, Representative Dingell, and Representative Solis. Your letter requested that we
address the sufficiency of funding for non-Federal sites at all stages of the site cleanup process,
including a more detailed review of a limited number of sites to determine if cleanup actions are
being stretched out over a greater number of years because of inadequate funding.

The body of this report and enclosures 1 through 5 address funding for Fiscal Year (FY) 2003.
The attachment to your letter posed a series of questions relating to our October 25, 2002, letter
on FY 2002 funding needs for non-Federal Superfund sites. Our responses to those questions are
in enclosures 6 through 11. Please note that given the volume of data requested, we are
providing certain requested financial information via the enclosed disk.

In summary, during FY 2003, limited funding prevented EPA from beginning construction at all
sites or providing additional funds needed to address sites in a manner believed necessary by
regional officials, and caused projects to be segmented into phases and/or scaled back to
accommodate available funding. Within this context, regional officials told us that they
considered FY 2003 funding sufficient to address most sites. However, as discussed in the body
of this report and in the enclosures, sufficient funds were not available to address a limited
number of removal, pipeline, and remedial action sites. We estimate that the FY 2003 site-
specific funding shortfall was $174.9 million. Our estimate of shortfall only considers the
regions’ use of extramural resources (those resources that are used to fund work by the Army
Corps of Engineers or contractors) applied to site-specific work. This report does not address
intramural resources, or those obligations involving the labor and travel of EPA personnel that
are obligated to specific Superfund sites.

Our October 25, 2002, letter on FY 2002 funding needs was limited to two phases of the cleanup
process for Superfund sites - those sites requiring remedial action and those requiring long-term


                                                1
response actions (LTRA). Your May 23, 2003, request letter asked us to inquire about all stages
of the process. Accordingly, in addition to discussing funding for remedial action and LTRA
sites, the enclosed information for FY 2003 addresses sites requiring (1) time critical removal
actions, and (2) preconstruction activities (referred to as pipeline activities), such as remedial
investigation/feasibility studies and remedial design work.

The Superfund Funding Process for FY 2003

The Office of Site Remediation and Technology Innovation (OSRTI) within the Office of Solid
Waste and Emergency Response provides funds for EPA regions to conduct site cleanup
activities using three Advices of Allowance (AOA):

Removal Funding

The Removal AOA funds emergency and time-critical removal actions at those sites where it is
determined that the contaminants present an immediate threat to human health and the
environment. The regions do not request funds from Headquarters on a site-by-site basis prior to
the start of a fiscal year because the nature of this work requires an immediate response to
unanticipated conditions. Instead, OSRTI provides funds to the regions based on historical
allocations for the emergency removal program.

Pipeline Funding

The Pipeline AOA provides the regions funds for pre-construction activities, such as conducting
remedial investigation/feasibility studies that characterize the nature of the contaminants at a site;
selection of the remedy, which is documented in the Record of Decision; the design of the
construction work to address the contaminants; and non-site-specific work, such as community
involvement activities, records management, and State program development. The regions do
not request funds on a site-specific basis from Headquarters for pipeline activities.

Prior to receiving funds, the regions input information on pipeline activities accomplished in the
prior year and those planned for the current year into the Comprehensive Environmental
Response, Compensation, and Liability Information System CERCLIS), the Superfund
information system. During this process, the regions identify or “target” activities in certain
categories they believe can be initiated with funding amounts from OSRTI. OSRTI then
allocates funds to each region using a formula that considers historical allocations and pipeline
activities accomplished in the prior year and work planned for the current year (i.e., the targeted
activities). The regions then apply pipeline funds to targeted activities for sites or allocate an
amount of money to contracts that will later be used to conduct pipeline activities. The latter
process is known as “bulk funding.” Under bulk funding, site-specific obligations are not
recorded in the Agency’s financial management system until the contractor is instructed to
perform a pipeline activity for a particular site.




                                                  2
Remedial Funding

The Remedial AOA funds remedial construction, LTRA activities, non-time critical removals,
and five-year reviews. LTRAs involve continuing treatment activities after construction is
complete. Groundwater monitoring is an example of an LTRA. The regions annually request
funds from Headquarters for remedial, non-time critical removal, and LTRAs on a site-specific
basis. Regions input cost estimates into CERCLIS, and complete Project Evaluation forms for
ongoing and new start projects with estimated costs of $600,000 or more. The Project
Evaluation forms enable the regions to provide a desired amount of funding, a minimum amount,
and a description of the known hazards present at the site and the impacts of not providing
funding. New construction starts are evaluated by the National Risk Based Priority Panel, a
group of senior Headquarters and regional officials whose analysis is used by management to
make funding decisions

Once the regional information is available, OSRTI and the regions begin discussions about
regional requests and eventually arrive at an initial allocation of funds for each site. Following a
methodology from FY 2002, projects with estimated costs of less than $5 million were generally
funded at the amount requested by the regions, while the amounts allocated for higher cost sites
represent the amounts mutually agreed to by Headquarters and the region. OSRTI issued its
initial funding memorandum for FY 2003 on October 30, 2002. OSRTI officials indicated to us
that the allocation of funds is a dynamic process that continues throughout the year. (We found
this to be the case. For example, as shown on enclosures 3 and 4, regions reported not needing
funds they initially requested from OSRTI based on various factors such as delays and being able
to use funds from prior year appropriations. On the other hand, some sites required and received
additional funds beyond the amounts estimated for FY 2003.)

In addition to funds provided by OSRTI, the regions obligate funds from two other sources.
Funds are obligated from monies provided by States as matching funds for construction activities
and from “Special Account” monies provided by Potentially Responsible Parties (PRPs) in
accordance with Consent Decrees.

FY 2003 Emphasis on Ongoing Remedial Actions

For FY 2003, OSRTI transferred $10 million of pipeline funds to remedial construction. In its
October 30, 2002, memorandum discussing initial FY 2003 funding decisions, OSRTI stated that
“Because of the limited resources available for construction, regions have the discretion to
minimize new Fund-financed remedial investigation/feasibility study (RI/FS) and remedial
design (RD) work.” OSRTI also revised its deobligation policy to direct that 75 percent of
deobligations become part of the national pool for reobligation.

As with FY 2002, OSRTI emphasized funding ongoing construction over new construction
starts. For FY 2003, the National Risk Based Priority Panel considered 35 new start projects and
determined that 9 should receive remedial funds. Of the remaining 26, 15 did not receive
remedial funds, and 11 were, according to an OSRTI official, determined not ready for various
reasons, including enforcement issues, changed site conditions, or design complications. Two of

                                                 3
the sites not receiving remedial funds - Elizabeth Mine in Region 1 and the Washington
Recreation portion of Operable Unit #3 of the Bunker Hill site in Region 10 - did receive
removal and pipeline funds, respectively.

Results of OIG Review

Regional officials told us that they had sufficient funding for the majority of sites for FY 2003.
However, a limited number of removal, pipeline, and remedial action sites did not. When
funding is not sufficient, construction at National Priority List (NPL) sites cannot begin; cleanups
are performed in less than an optimal manner; and/or activities are stretched over longer periods
of time. As a result, total project costs may increase and actions needed to fully address the
human health and environmental risk posed by the contaminants are delayed. We estimate that
the FY 2003 funding shortfall was $174.9 million as summarized in the following table.

                                                             Estimated FY 2003
                       Category                           Funding Shortfall (millions)   Enclosure

 FY 2003 new start construction projects not funded                $118.5                   3

 FY 2003 remedial projects not sufficiently funded                  $40.8                   3

 FY 2003 removal projects not sufficiently funded                    $9.4                   1

 FY 2003 pipeline projects not sufficiently funded                   $6.1                   2

    Total (difference due to rounding)                             $174.9


In analyzing whether funding was sufficient for a given site, we began by asking regional
Superfund officials/Remedial Project Managers (RPMs) whether they developed their estimate
for FY 2003 without consideration of budget limitations (i.e., whether their estimate was based
on the work that needed to be done from an engineering standpoint to address the site in an
optimal way in FY 2003). In response to our questions about how site cleanup estimates are
developed, some regional officials told us that expected budget limitations were a factor in
developing their estimates for FY 2003. Some regional officials informed us that cleanup work
is conducted differently than it was conducted when full funding was available. Limited funding
forces work at certain sites to be phased and/or scaled back to accommodate available funding.
We then asked regional officials whether the amount obligated was sufficient to proceed in an
optimal way. Their responses are noted in enclosures 1 through 4 under the Sufficient Funding
column.

We also inquired about 15 sites in greater detail. These sites are summarized in enclosure 5.
For these sites, in addition to discussing them with regional Superfund officials, we obtained
information such as the nature and extent of contamination and the status of cleanup from
CERCLIS. OIG engineers assisted in our review of these sites and provided their opinion of
whether EPA’s funding decisions were appropriate given the unique nature of each site. We
considered four of the 15 sites to be insufficiently funded for FY 2003.



                                                      4
Removal Funding

Financial information provided by OSRTI indicated that the regions obligated $128.1million
from the FY 2003 and prior-year appropriations and an additional $32.2 million from State
Superfund contracts and amounts provided by PRPs in response to Consent Decrees for a total of
$160.3 million. Enclosure 1 lists those removal actions that were not fully funded in FY 2003.

Regions generally reported having sufficient funds to address emergency removals. However,
several regions said that because of the amount of removal funds available to them, they made
decisions to modify the type and extent of the removal, or partially fund sites. Examples follow:

       •   Region 1 officials said that friable asbestos in buildings on the Inter Royal site was
           not completely dismantled. Further work may be needed in the future as the
           buildings degenerate.

       •   Region 3 reported having sufficient funds for removal actions but stated that it had
           changed its approach for the removal program because of limited funding over time.
           Region 3 now focuses on stabilization of sites (for example, erecting a fence and/or
           enclosing leaking drums to control spread of the contaminant) rather than on complete
           cleanups.

       •   Region 5 officials reported that three sites requiring removal actions were not
           sufficiently funded - Kip Nelson Properties, Hog Hollow, and the Circle Smelting
           Site. The Circle Smelting site needs a time critical removal action to mitigate the
           threat to public health and the environment from lead contamination at an estimated
           cost of $8.3 million. However, the Region was only able to obligate a total of
           $1.6 million from appropriated funds and Special Accounts during FY 2003.
           Regional officials also told us that they reduced the extent of cleanup in some time-
           critical removal cases. For example, a site might be fenced and leaking drums placed
           in sealed containers instead of removing the contaminated soil.

       •   Regions 6 and Region 7 reported that they were involved with the Columbia Shuttle
           disaster for approximately three months during FY 2003. Interviews with Regions 6
           and 7 Removal Team staff indicated that if this had not been the case, they would
           have investigated other sites that probably would have needed removal actions.
           Region 6 officials told us that addressing other removal actions “ . . . would have
           overwhelmed our removal Advice of Allowance.”

Pipeline Funding

Financial information provided by OSRTI indicated that the regions obligated a total of $107.6
million from current year appropriations, prior-year appropriations, State Superfund contracts,
and amounts provided by PRPs in response to Consent Decrees to site-specific pipeline activities
in FY 2003. As discussed below, the amounts obligated for a limited number of sites were not
sufficient to conduct pipeline activities in the manner considered necessary by regional officials.


                                                 5
When Regions responded to our questions about the sufficiency of pipeline funding, they
generally said the amounts obligated to specific sites were sufficient for targeted sites for
FY 2003. However, some appeared to base their answers on whether they were able to make
some progress with the funding received. For example, Region 2 considered funding sufficient if
the funding allowed the Region to address the site in a manner the Region described as
“minimally sufficient.” Region 4 officials considered funding sufficient because the work can be
phased (divided into segments) to accommodate available funds spread over as many projects as
possible. Region 7 officials told us that they instructed their RPMs to reduce the scope, phase, or
delay planned activities where possible. As a result, for some sites the Region reduced the
number of samples collected, limited the number of contaminants analyzed, and reduced the
number of monitoring wells installed. Region 8 officials indicated that the Region cut all
pipeline activities by 10 percent and incrementally funded cooperative agreements at 50 percent
to free up funds for remedial investigation/feasibility studies and remedial design work for NPL
sites. Thus, some regional officials considered funding sufficient within the constraints imposed
by limited funding.

However, some pipeline activities were not sufficiently funded. Enclosure 2 is a list of non-
Federal Superfund sites with funding shortfalls for pipeline activities during FY 2003 totaling
$6.1 million. Examples of funding concerns for pipeline sites follow:

       •   Region 7 estimated $2.5 million for the Omaha Mining site for FY 2003 but only
           obligated $1 million. As a result, fewer residences were sampled for lead
           contamination.

       •   The remedial investigation/feasibility study for the Annapolis Mine site in Region 7,
           estimated to cost $400,000, was not started.

       •   The RPM for the Libby, Montana site in Region 8 indicated that an additional
           $740,000 was needed to take additional samples, analyze the samples taken, and
           conduct a study to determine a cost-effective method for quantifying the amount of
           asbestos in the soil.

       •   Region 10 officials told us that pipeline operations were significantly cut for the
           remedial design for the Bunker Hill site and for various community involvement
           projects. For the Bunker Hill site, the Region obligated $3.9 million versus its
           estimate of $7.05 million for pipeline activities.

Remedial Funding

Enclosures 3 and 4 list non-Federal Superfund NPL sites for which FY 2003 remedial funding
was requested or obligated. For FY 2003, OSRTI allocated $224.4 million for site-specific
remedial work. Considering amounts obligated from the FY 2003 appropriation, prior-years
appropriations, State Superfund contracts, and amounts provided by PRPs in response to Consent
Decrees. Financial information supplied by OSRTI indicated that the regions obligated a total of
$369.3 million during FY 2003.


                                                6
To obtain the views of regional officials on the sufficiency of FY 2003 funding, we asked
regional Superfund officials, including RPMs, whether the amount allocated to a site was
sufficient to address that site in an optimal way without consideration of budget limitations.
Generally speaking, the regions reported that there was sufficient funding in FY 2003 for
ongoing remedial construction and LTRA projects. However, some Regions reported their
decision about sufficiency of funds rested on whether funding was sufficient for site work to
continue as planned, even if phased, without additional delays or work stoppage. Regional
officials consider every LTRA site listed in enclosure 4 to be sufficiently funded for FY 2003.

Specific planned site work and funding was the result of a series of discussions between
Headquarters and the regions. During these work planning discussions, a number of factors are
considered, such as what sites are the highest priority for funding, what specific site work could
be achieved with available funds in the fiscal year, and when the funding is needed. Regions
also told us that because of limited funding, they sometimes “phase” and “scale back” work, do
not start new remedial actions, and experience delays. Phasing is the division of a project into
smaller work elements, which, according to OSRTI, allows more projects to get funded.
However, several RPMs told us that phasing work is not as efficient as up-front funding for
remedial actions. For example, as discussed below, at Region 1's Atlas Tack site, remedial
action work was partitioned into three phases because there was not enough money to fully fund
the site:

       •   Phase I was the planned work for FY 2002 – if funding was available, the building on
           the site would have been demolished. The cost estimate was $1.8 million, but
           funding was not available.

       •   Phase II would have occurred during FY 2003, if Phase I was completed in FY 2002.
           Phase II involves cleaning up the site and preparing it for future use. The estimated
           cost for this phase is $11.3 million (Region 1’s estimate for FY 2003 was $13.1
           million for Phases I and II). However, the site received no funding in FY 2003.

       •   Phase III is being designed at this time and will not be ready for funding until
           FY 2005. The current cost estimate is $4.3 million.

A Region 1 official indicated that had sufficient funds been available in FY 2002 the work for
Phases I and II could have been completed in 6 to 9 months.

Scaling back site work is the reduction of the amount and extent of the work. For example, the
RPM for Region 2's Welsbach site stated that this site received the requested funding to excavate
three study areas during FY 2003. However, when digging began at the primary study area, the
contamination was determined to be substantially greater than anticipated. Since additional
funding could not be obtained, work was scaled back at the primary work site and postponed at
the two other areas. The RPM said that construction delays at this site could increase
construction costs, increase the number of days required for road closures, lengthen the time
required before eight displaced families can move back into their homes, and negatively affect
the ability of a private swim club to stay in business. The Region reported that the delayed
cleanup cannot be associated with an increased health risk at this time.

                                                 7
We asked regional officials how site estimates were developed. We were told that RPMs’
requests are generally based on Independent Government Cost Estimates for contractor services
and developed in collaboration with supervisors. Some regional officials told us that they did
consider the limited budget when preparing site estimates. Region 10 told us that estimates were
based on the Headquarters’ predicted allocation of the money that would be available during FY
2003. Region 10 officials said that OSRTI informed them in advance that OSRTI would cut
back any requested amounts over $5 million for a particular site due to limited funds. Without
that direction, Region 10 staff we interviewed stated that they would have requested more funds
for the Bunker Hill site.

Our estimate of the remedial funding shortfall for FY 2003 is comprised of sites where
construction could not begin and sites with ongoing construction where the need exceeded
available funds. Following are the sites where construction activities were ready to begin but no
funding was available because the sites were not ranked high enough by the National Priority
Panel:


                                                                                 FY 2003 Site
  Region              State               Sites Not Funded in FY 2003         estimate (millions)
   1*          Massachusetts       Atlas Tack                                        $13.1
   1           New Hampshire       Mohawk Tannery                                        6
   1*          Vermont             Elizabeth Mine                                        8
   1           New Hampshire       New Hampshire Plating                                3.5
   5*          Indiana             Continental Steel                                  39.1
   5           Illinois            Jennison Wright                                    12.5
   6           Louisiana           Marion Pressure Treating                              9
   6           New Mexico          North Railroad Ave. Plume                            6.5
   6           Texas               Hart Creosoting                                      9.9
   6           Texas               Jasper Creosoting                                    6.2
  10           Oregon              McCormick and Baxter                                 4.7
                Total                                                               $118.5

*NOTE: site involves multiple operating units

In addition, some sites received less funding than the region requested or, in the view of regional
officials, were not sufficiently funded. Some examples of sites not sufficiently funded are:

        •   The Bunker Hill site in Region 10 – The Region estimated $37.8 million and
            obligated $15.0 million. The entire shortfall involves Operable Unit #3. The impact
            of reduced funds for the Bunker Hill site is associated with risk to human health,
            particularly for young children and pregnant women, from lead contamination in a
            residential area. The future costs are expected to increase as work is delayed.

                                                     8
       •   The Roebling Steel site in Region 2 – The Region requested $5 million from OSRTI
           to demolish a building with asbestos during FY 2003. When OSRTI did not provide
           the funds, the Region looked to other sources and obligated a total of $4.3 million
           from prior year deobligations and State Superfund contracts in September 2003.
           However, because funding was not available earlier, demolition could not begin in
           FY 2003.

       •   The Welsbach site in Region 2 – Region 2 obligated a total of $20.5 million but the
           RPM told us that the extent of contamination was greater than expected and work was
           scaled back at the primary work site and postponed at other areas. The RPM
           estimated an additional $7 million were needed for FY 2003.

       •   The Libby Mine site in Region 8 – Region 8 officials discussed the Libby, Montana
           site, a non-time critical removal, that poses a cancer health threat to residents in the
           towns of Libby and Troy. The region requested funds for operable units involving the
           town of Libby, the town of Troy, and the mine itself (Libby Mine). Funding was
           obtained for the Libby operable unit, but not for Troy or for the Libby Mine. Region
           8 officials indicated that the Region could have used another $3.7 million. The
           additional funds would have enabled the Region to analyze more samples to help
           characterize the site and to conduct a study to determine how clean the site should be.

       •   The Upper Tenmile Creek site in Region 8 – Region 8 obligated $3.8 million but the
           RPM indicated that an additional $1.3 million was needed to clean up two additional
           areas and begin installation of an alternate water supply and treatment system.

The request letter also asked that we provide expenditure data by date and the unobligated site
balances at the end of FY 2003. Enclosure 3 contains this information for the two sites in each
region with the highest total obligations in FY 2003. Because of the volume of data involved, we
are providing this information for other sites on the enclosed disk.

High Cost Sites

Enclosure 5 summarizes the work conducted for a limited number of sites with large estimates of
overall costs. We judgmentally selected these sites based on information included in our
October 25, 2002, letter on FY 2002 funding. Our selection was primarily based on sites with
high overall project costs with comparatively low total obligations at the end of FY 2002. We
focused on these sites to inquire in greater depth about how the region arrived at its estimate for
FY 2003 and whether, in our opinion, the amount requested appeared appropriate to address
these site in an optimal way in FY 2003. For these sites, in addition to discussing them with
regional Superfund officials, we obtained information such as the nature and extent of
contamination and the status of cleanup from EPA’s Superfund information system, CERCLIS.
OIG engineers assisted in our review of these sites and provided their opinions of whether EPA’s
funding decisions were appropriate given the unique nature of each site. In summary, we



                                                9
identified funding concerns for 4 of the 15 sites reviewed – the Welsbach site in Region 2, the
Upper Tenmile Creek and Libby sites in Region 8, and the Bunker Hill site in Region 10. These
sites are discussed above and in enclosure 5.

In analyzing funding for remedial action sites, we noted that the demands of a limited number of
high-cost, complex sites limit OSRTI’s ability to fully fund all ongoing sites and new starts. For
example, approximately half of the FY 2003 Remedial AOA funding for remedial action, non-
time critical removals, and LTRAs went to 8 sites out of a total of 94 sites receiving funding. In
addition, the funding demands for some sites will grow. For example, the RPM for the New
Bedford site in Region 1 indicated that the site will require at least $15 million per year
beginning in FY 2004 but could need as much as $80 million per year for optimal cleanup. The
RPM for the Woolfolk Chemical site in Region 4 indicated that if funding of an estimated
$25 million is not available over the next 2 to 3 years there could be increased risk to human
health and the environment from the continued migration of contaminants to the groundwater.
Such high-cost sites, in addition to sites discussed above such as Continental Steel that did not
receive any funding in FY 2003, will continue to pose significant funding challenges for EPA.

Scope and Methodology

We interviewed OSRTI and regional officials, including RPMs, about the FY 2003 process for
funding Superfund sites and reviewed documentation relating to FY 2003 funding. During the
interviews, we asked regional officials if they prepared cost estimates for sites without
considering budget limitations and whether the funding available to them was sufficient to
address sites in an optimal way for FY 2003. To calculate funding shortfalls, we verified with
regional officials and RPMs those sites they had designated as insufficiently funded and
confirmed with them our estimate of shortfall. We also asked regional officials whether not
obligating funds until late in the fiscal year limited the amount of site cleanup activity.

For the financial information in enclosures 1 through 4, we relied on information supplied by
OSRTI and regional Superfund officials. To obtain the desired financial information by site,
special queries of EPA’s Integrated Financial Management System were developed for us by
OSRTI and financial management officials. Prior to giving the information to us, OSRTI
corrected errors and modified certain data to meet our reporting needs. Given time constraints,
we were not able to test whether the queries extracted the data in the manner desired. Further,
because unique queries were developed, we were not able to rely on the transaction testing
conducted during our audit of EPA’s financial statements. However, prior to finalizing this
letter, we asked regional officials to confirm the accuracy and completeness of the data provided
for the information appearing in enclosures 1 through 4 which they did.

In addition to the above limitation, we did not test the controls governing certain activities, such
as the work of the National Risk Based Priority Panel, or the process used to deobligate and
reobligate funds. For theses reasons, our work does not represent an audit conducted in
accordance with Government Auditing Standards.




                                                 10
Because of OSRTI’s emphasis on remedial action funding during FY 2003, enclosures 3 and 4
contain obligation information for all sites with FY 2003 extramural obligations. However,
given the volume of data involved, enclosures 1 (removal) and 2 (pipeline) only list those sites
with an identified funding shortfall for FY 2003. Information on other sites is included on the
enclosed disk.

To answer the questions in the attachment to your request letter, we obtained information from
OSRTI and regional officials in writing and through interviews. This information is provided in
enclosures 6 through 11.

As I’m sure you are aware, the Conference Committee on the FY 2004 Omnibus Appropriations
Act directed the OIG to conduct an evaluation of how to increase cleanups and reduce
administrative costs within the Superfund program. This will provide yet another opportunity for
the OIG to provide the Congress with additional information on the Superfund program. We
plan to begin this work early in 2004.

If you or your staff have any questions, feel free to call me on (202) 566-0847, or Eileen
McMahon, Assistant Inspector General for Congressional and Public Liaison, on
(202) 566-2546.

                                                     Sincerely,



                                                     Nikki L. Tinsley

Enclosures




                                                11
                   Listing of Enclosures

1    Non-Federal Facility Sites with Removal Funding Shortfalls for FY 2003

2    Non-Federal Facility Sites with Pipeline Funding Shortfalls for FY 2003

3    Non-Federal Facility Fund-financed Remedial Actions - FY 2003

4    Non-Federal Facility Fund-financed Long-term Response Actions - FY 2003

5    Summary of Sites Selected for Focused Review by OIG

6    OIG Response to Attachment Question 1

7    OIG Response to Attachment Question 2

8    OIG Response to Attachment Question 3

9    OIG Response to Attachment Question 4

10   OIG Response to Attachment Question 5

11   OIG Response to Attachment Question 6
ENCLOSURE 1 - NON-FEDERAL FACILITY SITES WITH
  REMOVAL FUNDING SHORTFALLS FOR FY 2003
                                                                                Non-Federal Facility Fund-Financed Removal Actions - FY03                                                                          Enclosure 1
                                                                                                                                                                                                                   Page 1 of 1



                                                       National                                                                                                  Total FY03 Amount
                                                     Priorities List   FY03 Regional    FY03 Obligated Amount    Date of                           Date of     Obligated (sum of prior 3     Sufficient
Region     State                  Site Name           Site (Y/N)         Estimate        From Removal AOA*      Obligation    Special Accounts    Obligation           columns)            Funding (Y/N)   Notes
  1         CT       Inter Royal Corp                      N                                         150,000     1/14/2003                                                    150,000           N           1

  5         IL       Circle Smelting                       N                8,298,423                500,000       04/09/03             550,000     09/05/03                                    N           2
                                                                                                     500,000       07/10/03
                                                                                                   1,000,000                            550,000                              1,550,000

  5         IN       Hog Hollow                            N                 243,000                100,000        06/05/03                                                   100,000           N           3

  5         WI       Kip Nelson Properties                 N                1,172,384                168,000       09/30/03                                                   168,000           N           4



  4                  TOTAL                                                  9,713,807              1,418,000                            550,000                             1,968,000           N

         * - includes prior year fund appropriation obligations
         Note: PRP oversight costs are not included above.

                     Notes:
                   1 Due to limited funds the scope was limited to fencing the property and removing the bulk of friable
                     asbestos that could blow out of the building. With more funds the Region would consider removal
                     of entire structure as a permanent solution. The impact now is the abandoned building remains a
                     potential fire threat that could release asbestos to the surrounding area. FY2003 funding shortfall
                     amount is estimated at: $1,500,000.
                   2 This site is in need of additional funding to continue to mitigate the threat to public health and the environment from lead contamination. FY2003 funding shortfall amount: $6,748,423.
                   3 This site needs a time critical removal to mitigate the threat to public health and the environment from contamination. FY2003 funding shortfall amount: $143,000
                   4 Work at this site has been started. However, insufficient funding is available to complete the clean up action in a timely fashion. FY2003 funding shortfall amount: $1,004,384.
ENCLOSURE 2 - NON-FEDERAL FACILITY SITES WITH
  PIPELINE FUNDING SHORTFALLS FOR FY 2003
                                                    Non-Federal Facility Fund-Financed Pipeline Operations - FY03                                                 Enclosure 2
                                                                                                                                                                  Page 1 of 3
                                                            National
                                                            Priorities                    FY03 Obligated                   Total FY03 Amount Sufficient
                                                            List Site    FY03 Regional     Amount From       Date of        Obligated (sum of Funding
Region    State                        Site Name             (Y/N)         Estimate        Pipeline AOA*    Obligation      prior 3 columns)   (Y/N)      Notes
   7      MO          Annapolis Lead                            N               400,000                                                           N        1


   7      MO          Union Electric - Campbell                 N                50,000                                                           N        2


   7       NE         Omaha Lead                                Y             2,500,000            14,000       12/19/02                          N        3
                                                                                                    1,068       07/09/03
                                                                                                1,000,000       07/30/03
                                                                                                1,015,068                          1,015,068


   3                  TOTALS                                                  2,950,000         1,015,068                          1,015,068      N


Note: Potentially Responsible Party oversight costs are not included above.
Pipeline Operations include site assessments, remedial investigations/feasibility studies, remedial design, and community involvement.
* includes prior year fund appropriation obligations

                      Notes:
                  1   Unable to fund Remedial Investigation due to Pipeline AOA shortfall for FY 2003. FY2003 funding shortfall amount: $400,000.
                  2   Completed work using Regional Employee. FY2003 funding shortfall amount: $50,000.
                  3   Sampling could have started earlier and been more extensive if the full request was received.
                      This resulted in 5,000-7,000 residential yards not being sampled for lead contamination. FY2003 funding shortfall amount: $ 1,500,000.
                                                              Non-Federal Facility Fund-Financed Pipeline Operations - FY03                                                Enclosure 2
                                                                                                                                                                           Page 2 of 3
                                                                       National
                                                                       Priorities                   FY03 Obligated                        Total FY03 Amount Sufficient
                                                                       List Site    FY03 Regional    Amount From           Date of         Obligated (sum of Funding
 Region      State                       Site Name                      (Y/N)         Estimate      Pipeline AOA*         Obligation       prior 3 columns)   (Y/N)      Notes
    8         MT         Barker Hughesville Mining District                Y              150,000            150,000           09/10/03              150,000       N       1


    8         MT         Libby Asbestos Site                               Y            4,050,000            250,000           01/09/03                            N      2
                                                                                                               50,000          03/04/03
                                                                                                             750,000           03/12/03
                                                                                                               30,000          04/02/03
                                                                                                                8,000          04/07/03
                                                                                                             100,000           05/01/03
                                                                                                               (8,000)         05/27/03
                                                                                                                8,000          05/29/03
                                                                                                             500,000           06/03/03
                                                                                                             200,000           07/14/03
                                                                                                               19,274          07/28/03
                                                                                                           1,200,000           08/25/03
                                                                                                             200,000           09/29/03
                                                                                                           3,307,274                               3,307,274



    2                    Total                                                          4,200,000           3,457,274                             3,457,274        N


Potentially Responsible Party oversight costs are not included above. Pipeline operations include site assessments, Remedial investigations/Feasibility studies,
remedial design, and community involverment activities.
* - inludes prior year fund appropriation obligations


                         NOTES:
                     1 Pipeline work on this site was scaled back or completion timeframes extended due to the overall pipeline funding shortfall.
                       FY2003 funding shortfall amount: $200,000.
                     2 Pipeline work on this site was scaled back or completion timeframes extended due to the overall pipeline funding shortfall.
                       FY2003 funding shortfall amount: $740,000.
                                                                    Non-Federal Facility Fund-Financed Pipeline Operations - FY03                                                                  Enclosure 2
                                                                                                                                                                                                   Page 3 of 3
                                                                National                              FY03 Obligated                          Total FY03 Amount
                                                              Priorities List    FY03 Regional         Amount From           Date of        Obligated (sum of prior 3   Sufficient
 Region       State                  Site Name                 Site (Y/N)          Estimate           Pipeline AOA*         Obligation              columns)          Funding (Y/N)     Notes

   10          ID       Bunker Hill Mining & Metallurgical          Y                  7,050,000                   188         09-Oct-02                                   N              1
                                                                                                                   104         29-Oct-02
                                                                                                                     99        01-Nov-02
                                                                                                                   125         20-Nov-02
                                                                                                                       3       09-Dec-02
                                                                                                                   156         10-Dec-02
                                                                                                                79,635         23-Dec-02
                                                                                                                 1,351         13-Jan-03
                                                                                                                   215         21-Jan-03
                                                                                                                   234         05-Feb-03
                                                                                                                29,948         20-Mar-03
                                                                                                               631,228         31-Mar-03
                                                                                                               400,000         14-Apr-03
                                                                                                                25,000         07-May-03
                                                                                                                   960         08-May-03
                                                                                                               149,854         13-May-03
                                                                                                               200,000         15-May-03
                                                                                                               125,000         19-May-03
                                                                                                             1,447,448         29-May-03
                                                                                                                33,000         19-Jun-03
                                                                                                               175,000         20-Jun-03
                                                                                                                80,000          02-Jul-03
                                                                                                                19,795          24-Jul-03
                                                                                                                   518         19-Aug-03
                                                                                                                   440         20-Aug-03
                                                                                                              460,000          17-Sep-03
                                                                                                            3,860,301                                    3,860,301


    1                   TOTAL                                                          7,050,000             3,860,301                                   3,860,301         N


Note: Potentially Responsible Party oversight costs are not included above.
Pipeline operations include site assessments, Remedial investigations/Feasibility studies, remedial design, and community involverment activities.
* - inludes prior year fund appropriation obligations


                        Notes:
                      1 The Region cut its planned FY03 obligations for this site in half because of insufficient funding. Consequently, it reduced management and technical assistance funding;
                        reduced the Minewater remedial design because the state was not going to sign a State Superfund contract to cover the remedial action work; postponed starts of some
                        remedial designs (ecological designs) because it was hearing that the ecological remedial action funding would not be available. FY2003 funding shortfall amount:
                        $3,189,699.
ENCLOSURE 3 - NON-FEDERAL FACILITY FUND-
   FINANCED REMEDIAL ACTIONS - FY 2003
(INCLUDES NON-TIME CRITICAL REMOVAL ACTIONS)
                                                                                                                                      Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                                                      Enclosure 3
                                                                                                                                                                                                                                                                                                                                                     Page 1 of 24

                                                                                                                                                                                                                Total FY03
                                                                          FY03 Initial Funding Plan                                                                                                          Amount Obligated    Total FY03                                                                        Total Funds                          Sufficient
                                                  FY03 Amount Initially   Amount from HQ October      FY03 Obligated Amount    Date of                         Date of                           Date of      (sum of prior 3  Expenditures for     Date of     Estimated Total Costs    Total Funds Obligated   Expended through Unexpended Balance at Funding
Region    State              Site Name            Requested by Region      2002 Funding Decision       From HQ RA AOA*        Obligation   Special Accounts   Obligation   State SF Contracts   Obligation       columns)     Remedial Action**   Expenditure   for Remedial Action***      through 9/30/03          9/30/03            9/30/03          (Y/N)       Notes
   1      MA      Atlas Tack Co.                          13,100,000                                                                                                                                                                                                    18,600,000                                                                           N        1

   1      ME      Eastland Woolen Mill                     5,000,000                   5,000,000                       132      01/08/03                                                                                                                                                                                                                     Y
                                                                                                                 5,000,000      03/10/03
                                                                                                                         7      09/26/03
                                                                                                                 5,000,139                                                                                       5,000,139

   1      VT      Elizabeth Mine                           8,000,000                                                                                                                                                                                                                                                                                         N        2

   1      NH      Mohawk Tannery                           6,000,000                                                                                                                                                                                                                                                                                         N        3

   1      MA      New Bedford                             13,500,000                  10,000,000               10,000,000       05/06/03         675,000       05/06/03          1,400,000        05/06/03                            18,331         10/28/02          130,000,000             106,499,530           79,649,785            26,849,745        Y        4
                                                                                                                                                 520,700       08/04/03                                                               74,232         10/30/02
                                                                                                                                                 325,000       09/26/03                                                            1,433,741         11/13/02
                                                                                                                                                                                                                                       9,511         11/18/02
                                                                                                                                                                                                                                      76,077         11/22/02
                                                                                                                                                                                                                                      10,852         12/10/02
                                                                                                                                                                                                                                   2,504,167         12/17/02
                                                                                                                                                                                                                                     327,935         12/24/02
                                                                                                                                                                                                                                     206,634         12/30/02
                                                                                                                                                                                                                                   1,671,244         01/14/03
                                                                                                                                                                                                                                     177,668         01/28/03
                                                                                                                                                                                                                                   1,970,733         02/11/03
                                                                                                                                                                                                                                       3,193         02/14/03
                                                                                                                                                                                                                                     205,823         03/07/03
                                                                                                                                                                                                                                   1,399,011         03/13/03
                                                                                                                                                                                                                                      26,494         03/21/03
                                                                                                                                                                                                                                     135,657         04/04/03
                                                                                                                                                                                                                                   2,020,213         04/17/03
                                                                                                                                                                                                                                     184,958         05/02/03
                                                                                                                                                                                                                                   2,665,464         05/09/03
                                                                                                                                                                                                                                     146,536         05/23/03
                                                                                                                                                                                                                                       3,061         06/03/03
                                                                                                                                                                                                                                   1,989,847         06/05/03
                                                                                                                                                                                                                                     149,215         06/19/03
                                                                                                                                                                                                                                       4,790         07/08/03
                                                                                                                                                                                                                                   1,375,634         07/09/03
                                                                                                                                                                                                                                     177,379         07/11/03
                                                                                                                                                                                                                                       3,342         07/31/03
                                                                                                                                                                                                                                   1,495,022         08/06/03
                                                                                                                                                                                                                                     188,223         08/22/03
                                                                                                                                                                                                                                       1,585         08/26/03
                                                                                                                                                                                                                                   1,246,067         09/03/03
                                                                                                                                                                                                                                      23,099         09/04/03
                                                                                                                                                                                                                                     875,578         09/18/03
                                                                                                                                                                                                                                     227,905         09/22/03
                                                                                                                                                                                                                                       1,585         09/30/03
                                                                                                                10,000,000                     1,520,700                         1,400,000                      12,920,700        23,030,806

   1      NH      New Hampshire Plating Co.                3,500,000                                                                                                                                                                                                    15,400,000                                                                           N        5

   1      VT      Pownal Tannery                                     x                                           2,400,000      07/23/03                                                                                                  581        09/19/03            8,800,000                9,500,000                  581            9,499,419        Y        6
                                                                                                                 6,400,000      08/21/03
                                                                                                                   700,000      09/29/03
                                                                                                                 9,500,000                                                                                       9,500,000                581

                                                                                                                                                                                                                                                                                                                                                                      7
   1      NH      Savage Municipal Water Supply                      x                                                  49      05/30/03                                                                                                                                15,500,000                                                                           Y
                                                                                                                   249,968      08/27/03
                                                                                                                        11      09/17/03
                                                                                                                   250,028                                                                                         250,028


   8              Total                                   49,100,000                  15,000,000                24,750,167                     1,520,700                         1,400,000                      27,670,867        23,031,387                           188,300,000             115,999,530           79,650,367            36,349,164        N

* - inludes prior year fund appropriation obligations
** - can involve amounts obligated in prior years as well as Special Accunts and State SF Contracts.
*** - refelcts estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.

       x OSRTI records do not indicate a Regional request for these sites.
                                                                                                            Non-Federal Facility Fund-Financed Remedial Actions - FY03                              Enclosure 3
                                                                                                                                                                                                   Page 2 of 24

              Notes:
          1   Site was not approved for funding by the National Priority Panel. FY2003 funding shortfall amount: $13,100,000.
          2   Remedial Action funding was not approved for this site. However, this site did receive emergency removal funds to stabilize the site. FY2003 funding shortfall amount: $8,000,000.
          3   Site was not approved for funding by the National Priority Panel. FY2003 funding shortfall amount: $6,000,000.
          4   This site was funded sufficiently to continue FY03 actions.
          5   Site was not approved for funding by the National Priority Panel. FY2003 funding shortfall amount: $3,500,000.
          6   The Region did not request funds for FY03 based on work schedule, however during the year, the Region requested and HQ provided the monies listed.
          7   These funds were for an unplanned site optimization project that will allow the state to take the lead for this site.

Additional:
There were two sites listed on the FY02 Remedial Actions spreadsheet that are not included here. They are:
Eastern Surplus - This site received Long Term Response Funding in FY03, $1.2 million from Special Accounts.
Ottati Goss - This site was obligated $529,355 in Pipeline Funding.
                                                                                                                           Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                        Enclosure 3
                                                                                                                                                                                                                                                                                                            Page 3 of 24
                                                                 FY03 Initial                                                                                              Total FY03
                                                                Funding Plan                                                                                                 Amount
                                             FY03 Amount      Amount from HQ     FY03 Obligated                                                                          Obligated (sum      Total FY03                    Estimated Total       Total Funds         Total Funds      Unexpended     Sufficient
                                          Initially Requested October 2002        Amount From      Date of       Special        Date of       State SF        Date of      of prior 3      Expenditures for     Date of   Costs for Remedial   Obligated through   Expended through    Balance at    Funding
Region State       Site Name                    by Region     Funding Decision    HQ RA AOA*      Obligation    Accounts       Obligation     Contracts      Obligation    columns)       Remedial Action**   Expenditure     Action***             9/30/03            9/30/03          9/30/03       (Y/N)     Notes
  2     NJ Asbestos Dump                                    x                                                                                     450,000       06/24/03        450,000                                                                                                                  Y        1

  2     NJ   Brook Industrial Park                       x                                                        300,000          07/17/03                                    300,000                                                                                                                  Y        2


  2     NJ   Chemical Insecticide Corp.                  x                                   38      07/25/03                                   2,275,304       09/30/03                                                                                                                                Y        3
                                                                                      5,000,000      09/30/03
                                                                                      5,000,038                                                 2,275,304                     7,275,342

  2    NY    Claremont Polychemical              1,600,000         1,600,000          1,100,000      07/03/03                                                                                                                      1,600,000                                                            Y        4
                                                                                        500,000      07/18/03
                                                                                        200,000      09/08/03
                                                                                      1,800,000                                                                               1,800,000

  2     NJ   Combe Fill South Landfill           3,000,000         3,000,000          8,000,000      09/25/03                                                                 8,000,000                                                                                                                 Y        5

  2     NJ   De Rewal Chemical Co.               2,320,000         2,320,000          1,320,000      07/03/03                                     680,000       07/03/03      2,000,000                                            2,000,000                                                            Y        6

  2     NJ   Federal Creosote - LAG A           25,000,000        20,000,000         10,000,000      02/03/03                                    2,240,000      08/26/03                         1,855,814       10/18/02         77,800,000        116,518,872         84,584,091      31,934,781      Y        7
                                                                                      5,000,000      03/26/03                                    1,200,000      09/29/03                         3,418,159       10/21/02
                                                                                      5,000,000      05/16/03                                                                                          774       10/24/02
                                                                                      1,460,000      08/26/03                                                                                       40,662       11/05/02
                                                                                      3,800,000      09/29/03                                                                                       31,660       11/06/02
                                                                                                                                                                                                 3,330,836       11/19/02
                                                                                                                                                                                                 2,191,116       11/26/02
                                                                                                                                                                                                     2,057       12/04/02
                                                                                                                                                                                                 2,404,550       12/16/02
                                                                                                                                                                                                    97,187       01/06/03
                                                                                                                                                                                                 1,532,948       01/09/03
                                                                                                                                                                                                 2,574,567       01/29/03
                                                                                                                                                                                                 2,504,633       01/31/03
                                                                                                                                                                                                 1,076,535       02/19/03
                                                                                                                                                                                                    97,111       02/24/03
                                                                                                                                                                                                 1,690,932       03/14/03
                                                                                                                                                                                                    90,047       03/28/03
                                                                                                                                                                                                   107,370       04/16/03
                                                                                                                                                                                                 1,153,122       04/28/03
                                                                                                                                                                                                 1,153,360       05/15/03
                                                                                                                                                                                                   119,844       05/20/03
                                                                                                                                                                                                 4,692,227       06/10/03
                                                                                                                                                                                                 1,119,819       06/24/03
                                                                                                                                                                                                   191,041       07/03/03
                                                                                                                                                                                                 1,494,200       07/14/03
                                                                                                                                                                                                   874,521       07/15/03
                                                                                                                                                                                                   150,590       07/23/03
                                                                                                                                                                                                     7,397       07/31/03
                                                                                                                                                                                                 1,738,209       08/22/03
                                                                                                                                                                                                   109,213       09/03/03
                                                                                                                                                                                                   901,444       09/12/03
                                                                                                                                                                                                   416,402       09/22/03
                                                                                                                                                                                                     3,748       09/26/03
                                                                                     25,260,000                                                  3,440,000                   28,700,000         37,172,095

  2    NY    GCL Tie & Treating Inc.             2,000,000         2,000,000          2,000,000      09/03/03                                                                 2,000,000                                            5,000,000                                                            Y

  2    NY    Li Tungsten Corp.                           x                                  13       11/26/02     400,000          06/06/03                                     400,013                                                                                                                 Y        8

  2    NY    Marathon Battery Corp.                      x                                                                                        608,800       06/24/03        608,800                                                                                                                 Y        9

             Mohonk Road Industrial
  2    NY    Plant                                 925,000           350,000            925,000      04/02/03                                                                   925,000                                                                                                                 Y

  2     NJ   Nascolite Corp.                     5,000,000         5,000,000         5,000,000       05/08/03                                     350,000       05/08/03                                                          11,300,000                                                            Y        10
                                                                                             58      06/27/03                                     500,000       09/25/03
                                                                                             88      07/14/03
                                                                                      3,500,000      07/17/03
                                                                                      1,150,000      08/26/03
                                                                                        800,000      09/05/03
                                                                                            174      09/11/03
                                                                                             57      09/30/03
                                                                                     10,450,377                                                   850,000                    11,300,377
                                                                                                                      Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                       Enclosure 3
                                                                                                                                                                                                                                                                                                      Page 4 of 24
                                                            FY03 Initial                                                                                              Total FY03
                                                           Funding Plan                                                                                                 Amount
                                        FY03 Amount      Amount from HQ     FY03 Obligated                                                                          Obligated (sum     Total FY03                    Estimated Total       Total Funds         Total Funds      Unexpended     Sufficient
                                     Initially Requested October 2002        Amount From      Date of       Special        Date of     State SF        Date of        of prior 3     Expenditures for     Date of   Costs for Remedial   Obligated through   Expended through    Balance at    Funding
Region State      Site Name                by Region     Funding Decision    HQ RA AOA*      Obligation    Accounts       Obligation   Contracts      Obligation      columns)      Remedial Action**   Expenditure     Action***             9/30/03            9/30/03          9/30/03       (Y/N)     Notes
  2     NY Olean Well Field                            x                          800,000       09/30/03                                                                    800,000                                                                                                                Y       11

            Welsbach & General Gas
  2    NJ   Mantle (Camden)                15,659,510        15,659,500                 76      12/06/02                                  1,340,490      03/20/03                            131,845       10/15/02         54,480,000         39,925,153         22,407,209      17,517,944      N        12
                                                                                10,000,037      05/15/03                                  1,500,000      07/22/03                          1,110,662       10/28/02
                                                                                       57       06/27/03                                  2,020,000      09/25/03                              1,868       11/20/02
                                                                                       38       09/11/03                                                                                     947,846       11/22/02
                                                                                 5,659,510      09/16/03                                                                                     201,296       11/25/02
                                                                                       69       09/17/03                                                                                         336       11/29/02
                                                                                      174       09/30/03                                                                                          76       12/10/02
                                                                                                                                                                                                 422       12/12/02
                                                                                                                                                                                                 216       12/18/02
                                                                                                                                                                                              73,028       01/02/03
                                                                                                                                                                                                 336       01/03/03
                                                                                                                                                                                                 425       01/15/03
                                                                                                                                                                                           1,091,939       01/16/03
                                                                                                                                                                                             326,936       01/23/03
                                                                                                                                                                                             976,763       01/29/03
                                                                                                                                                                                                 216       01/30/03
                                                                                                                                                                                                 410       02/04/03
                                                                                                                                                                                           1,241,212       02/06/03
                                                                                                                                                                                                 336       02/11/03
                                                                                                                                                                                             248,508       02/25/03
                                                                                                                                                                                                 430       03/03/03
                                                                                                                                                                                                 336       03/18/03
                                                                                                                                                                                           1,183,575       03/27/03
                                                                                                                                                                                             158,163       03/28/03
                                                                                                                                                                                                 425       04/01/03
                                                                                                                                                                                                 591       04/15/03
                                                                                                                                                                                                 335       04/22/03
                                                                                                                                                                                             921,455       04/23/03
                                                                                                                                                                                                 426       04/28/03
                                                                                                                                                                                             735,263       04/29/03
                                                                                                                                                                                             745,808       05/05/03
                                                                                                                                                                                                 192       05/06/03
                                                                                                                                                                                                 408       05/13/03
                                                                                                                                                                                                  37       05/15/03
                                                                                                                                                                                             135,954       05/22/03
                                                                                                                                                                                                 504       05/27/03
                                                                                                                                                                                                 158       06/03/03
                                                                                                                                                                                                 546       06/10/03
                                                                                                                                                                                             716,455       06/16/03
                                                                                                                                                                                                 192       06/17/03
                                                                                                                                                                                             368,815       06/24/03
                                                                                                                                                                                                 312       06/25/03
                                                                                                                                                                                                  57       06/27/03
                                                                                                                                                                                           1,227,992       07/11/03
                                                                                                                                                                                             155,505       07/22/03
                                                                                                                                                                                             134,097       07/23/03
                                                                                                                                                                                                 266       08/13/03
                                                                                                                                                                                             148,528       08/18/03
                                                                                                                                                                                           1,259,160       08/20/03
                                                                                                                                                                                                 281       08/29/03
                                                                                                                                                                                                 266       09/09/03
                                                                                                                                                                                           1,381,568       09/11/03
                                                                                                                                                                                                 273       09/16/03
                                                                                                                                                                                                  69       09/17/03
                                                                                                                                                                                             532,168       09/22/03
                                                                                                                                                                                                 273       09/29/03
                                                                                15,659,961                                                4,860,490                     20,520,451        16,165,558

  2    NJ   Roebling Steel Co.              5,000,000         5,000,000                105      06/18/03                                    772,723      09/15/03                                                            9,000,000                                                            N        13
                                                                                 3,502,799      09/30/03
                                                                                 3,502,904                                                  772,723                      4,275,627

  2    NY   Sarney Farm                             x                                                                                      550,000       06/24/03          550,000                                                                                                                Y        14
                                                                                                                                      Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                             Enclosure 3
                                                                                                                                                                                                                                                                                                                            Page 5 of 24
                                                                     FY03 Initial                                                                                                          Total FY03
                                                                    Funding Plan                                                                                                             Amount
                                                  FY03 Amount     Amount from HQ       FY03 Obligated                                                                                    Obligated (sum      Total FY03                    Estimated Total       Total Funds         Total Funds      Unexpended     Sufficient
                                               Initially Requested October 2002         Amount From         Date of         Special          Date of        State SF        Date of        of prior 3      Expenditures for     Date of   Costs for Remedial   Obligated through   Expended through    Balance at    Funding
Region State              Site Name                  by Region    Funding Decision      HQ RA AOA*         Obligation      Accounts         Obligation      Contracts      Obligation      columns)       Remedial Action**   Expenditure     Action***             9/30/03            9/30/03          9/30/03       (Y/N)     Notes

                 Vineland Chemical Co., Inc.
   2      NJ     - Soil Excavation/treament          10,000,000         10,000,000                 99         11/06/02                                        2,000,000       09/17/03                                                            32,000,000                                                            Y        15
                                                                                                   96         11/18/02
                                                                                                  478         12/05/02
                                                                                                  229         12/20/02
                                                                                                  293         01/06/03
                                                                                                  167         01/07/03
                                                                                                   99         01/30/03
                                                                                                  304         02/20/03
                                                                                                   92         03/19/03
                                                                                                  269         03/27/03
                                                                                                   98         03/28/03
                                                                                                  204         04/14/03
                                                                                                   98         04/18/03
                                                                                                  157         05/09/03
                                                                                                  386         05/14/03
                                                                                                   98         05/20/03
                                                                                                  271         06/04/03
                                                                                                   98         06/25/03
                                                                                                  267         06/27/03
                                                                                                  196         07/02/03
                                                                                                   98         07/14/03
                                                                                                  399         07/29/03
                                                                                                   98         08/27/03
                                                                                                   72         09/05/03
                                                                                            6,000,000         09/17/03
                                                                                             6,004,666                                                         2,000,000                      8,004,663


   2      NY     Wide Beach Development                        x                                                                                               1,469,965      06/24/03        1,469,965                                                                                                                 Y        16

  18             Totals                              70,504,510         64,929,500          80,722,959                         700,000                        17,957,282                     99,380,241          53,337,653                     193,180,000          156,444,025       106,991,300      49,452,725      N

* - inludes prior year fund appropriation obligations
** - can involve amounts obligated in prior years as well as Special Accunts and State SF Contracts.
*** - refelcts estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.

       x OSRTI records do not indicate a Regional request for these sites.



             1   The region did not submit a request for funding as it expected State Superfund Contract funds.
             2   The region did not submit a request for funding as it expected Special Account funds.
             3   FY03 activities were funded in FY02. This obligation is for work to be done the first quarter of FY04.
             4   Additional funding is for FY04 first quarter activities.
             5   This was an unplanned Court ordered settlement for a construction claim. The increase is based on the amount settled and the balance of Remedial Action funds remaining on the State grant after construction was completed.
             6   Final cost estimate for EPA's portion was $1million less than originally anticipated.
             7   Site cost overruns were greater than expected. The Region diverted some funds from the Vineland site to cover the Region's shortfall.
             8   The region did not submit a request for funding as it expected the Special Account funds.
             9   This site was completed in a prior year, the amount above reflects an administrative closing.
            10   Additional contamination found during excavation, therefore additional funding was necessary.
            11   FY02 obligations were sufficient to complete actions in FY02 and FY03. This amount reflects need for first quarter FY04.
            12   The Region indicated that additional contamination was discovered at the site and funds for planned activities had to be diverted to address this new situation.
                 The result is that work was scaled back at the primary worksite, and postponed at two other planned areas because sufficient additional funds were not
                 available to address this situation, causing the site to be insufficiently funded for FY03. FY2003 funding shortfall amount: $7,000,000.
            13   This site was delayed due to funding constraints. Work was stopped at this site in November 2002 and was not resumed until FY2004 due to the timing of the funding. FY2003 funding shortfall amount: $5,000,000.
            14   This site was completed in a prior year, the amount above reflects an administrative closing.
            15   Work was slowed on this site due to a new process that includes multiple monitoring techniques. These techniques reduced costs in FY03.
            16   This funding was received for an administrative closing.

Additional
The following list provides those sites that received funding in FY02 but not in FY03:
Burnt Fly Bog                               This is a state lead, fully funded in FY02.
Montgomery Township                         This site was previously fully funded and will require additional funding only in the event of cost overruns.
Rocky Hill                                  This site was previously fully funded and will require additional funding only in the event of cost overruns.
Vestal Water Supply Well                    This site was previously fully funded and will require additional funding only in the event of cost overruns.
Tutu Wellfield                              This site was previously fully funded and will require additional funding only in the event of cost overruns.
Imperial Oil                                Previously funded $42 million contingency for new wells later deemed not necessary.
Cosden Chemical Coatings                    This new start was planned but not possible because a timely agreement could not be reached with the State.
Fried Industries                            Planned work could not take place because the design required extended testing.
U.S. Radium                                 The final design did not call for remediation as expected. Funds were not needed.
                                                                                                    Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                           Enclosure 3
                                                                                                                                                                                                                                                                        Page 6 of 24
                                                          FY03 Initial
                                        FY03 Amount      Funding Plan      FY03                                                                           Total FY03      Total FY03                Estimated Total
                                           Initially   Amount from HQ    Obligated                                                                          Amount       Expenditures                  Costs for        Total Funds       Total Funds     Unexpended    Sufficient
                                        Requested by    October 2002    Amount From    Date of       Special    Date of     State SF        Date of    Obligated (sum of for Remedial   Date of        Remedial       Obligated through    Expended        Balance at   Funding
Region State         Site Name            Region       Funding Decision HQ RA AOA*    Obligation    Accounts   Obligation   Contracts      Obligation  prior 3 columns)     Action**  Expenditure      Action***           9/30/03      through 9/30/03     9/30/03      (Y/N)     Notes
  3     PA Crossley Farm                             x                                                                           46,425       04/04/03                                                                                                                      Y        1
                                                                                                                                 44,793       09/12/03
                                                                                                                                  91,218                          91,218

  3     PA   Croydon TCE                     24,000           24,000                                                                                                                                                                                                       Y        2

  3     PA   Drake Chemical                       x                                                                          7,192,257        03/12/03       7,192,257                                                                                                     Y        3

  3     PA   East Mount Zion                      x                                                                            130,000        03/18/03                                                                                                                     Y        4
                                                                                                                                 3,665        09/12/03
                                                                                                                                133,665                        133,665

  3     VA   Kim-Stan Landfill                    x                         28,906       07/08/03                                                               28,906                                                                                                     Y        5

  3     VA   Matthews Electroplating              x                                                                             22,790        07/24/03          22,790                                                                                                     Y        6

  3     PA   Mill Creek Dump                      x                                                                            881,353        03/27/03         881,353                                                                                                     Y        7

  3     PA   North Penn - Area 6            200,000          200,000       200,000       09/27/03                                                             200,000          1,171     10/09/02         1,700,000         2,153,000          990,424      1,162,576      Y        8
                                                                                                                                                                                 480     11/05/02
                                                                                                                                                                                 645     11/07/02
                                                                                                                                                                                 545     12/05/02
                                                                                                                                                                                 367     12/12/02
                                                                                                                                                                                 329     01/03/03
                                                                                                                                                                                 385     02/07/03
                                                                                                                                                                                (645)    02/24/03
                                                                                                                                                                                 539     03/05/03
                                                                                                                                                                              (9,366)    03/07/03
                                                                                                                                                                              (1,756)    03/10/03
                                                                                                                                                                                 434     04/03/03
                                                                                                                                                                                 540     05/09/03
                                                                                                                                                                               3,310     06/06/03
                                                                                                                                                                                 907     07/08/03
                                                                                                                                                                                (112)    08/11/03
                                                                                                                                                                               7,125     09/29/03
                                                                           200,000                                                                            200,000          4,898

  3     PA   Raymark                         50,000           50,000        50,000       08/07/03                                                              50,000                                     1,140,000                                                        Y

  3     VA   Rhinehart Tire Fire Dump             x                                                                            267,270        03/14/03                                                                                                                     Y        9
                                                                                                                                80,000        04/04/03
                                                                                                                               347,270                        347,270

  3     VA   Saunders Supply Co.             16,000           16,000        18,581       01/14/03                               83,416        09/12/03        101,997                                   13,883,200                                                         Y        10

  3     MD   Southern Maryland Wood          15,000           15,000        40,493       01/09/03                              700,000        06/18/03                       21,973      10/17/02       61,468,905         64,774,224       63,082,936      1,691,288      Y        11
                                                                            21,820       06/20/03                                                                             6,111      10/30/02
                                                                                                                                                                              1,462      12/04/02
                                                                                                                                                                              5,550      12/24/02
                                                                                                                                                                              1,936      01/27/03
                                                                                                                                                                             29,217      02/24/03
                                                                                                                                                                                557      02/26/03
                                                                                                                                                                              8,683      03/28/03
                                                                                                                                                                             39,206      04/10/03
                                                                                                                                                                              1,535      04/29/03
                                                                                                                                                                             10,267      06/09/03
                                                                                                                                                                                152      06/13/03
                                                                                                                                                                              1,657      06/27/03
                                                                                                                                                                                226      07/08/03
                                                                                                                                                                              1,749      07/22/03
                                                                                                                                                                                114      08/21/03
                                                                                                                                                                              1,507      09/03/03
                                                                            62,313                                             700,000                        762,313       131,902

  3     PA   Strasburg Landfill                   x                                                                            158,911        09/12/03        158,911                                                                                                      Y        12
                                                                                                                       Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                  Enclosure 3
                                                                                                                                                                                                                                                                                                  Page 7 of 24
                                                                     FY03 Initial
                                                   FY03 Amount      Funding Plan      FY03                                                                                          Total FY03      Total FY03                Estimated Total
                                                      Initially   Amount from HQ    Obligated                                                                                         Amount       Expenditures                  Costs for        Total Funds       Total Funds     Unexpended    Sufficient
                                                   Requested by    October 2002    Amount From           Date of         Special        Date of        State SF      Date of     Obligated (sum of for Remedial   Date of        Remedial       Obligated through    Expended        Balance at   Funding
Region State         Site Name                       Region       Funding Decision HQ RA AOA*           Obligation      Accounts       Obligation      Contracts    Obligation   prior 3 columns)     Action**  Expenditure      Action***           9/30/03      through 9/30/03     9/30/03      (Y/N)     Notes
  3     DE Tybouts Corner Landfill                              x                                                         500,000        09/08/03                                         500,000                                                                                                     Y       13

  14             Totals                                 305,000             305,000         359,800                        500,000                      9,610,880                     10,470,680      136,800                     78,192,105         66,927,224       64,073,361      2,853,864      Y

* - includes prior year fund appropriation obligations
** - includes amounts obligated in prior years
*** - refelcts estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.
        x OSRTI records do not indicate a Regional request for these sites.

                 Notes:
             1   The region did not submit a request for funding as it expected State Superfund Contract funds.
             2   This amount was requested for a State cooperative agreement. However, it was not funded as the state did not submit the application.
             3   The region did not submit a request for funding as it expected State Superfund Contract funds.
             4   The region did not submit a request for funding as it expected State Superfund Contract funds.
             5   This obligation was for an unplanned cooperative agreement with the state to support agency Remedial Action work.
             6   The region did not submit a request for funding as it expected State Superfund Contract funds.
             7   The region did not submit a request for funding as it expected State Superfund Contract funds.
             8   Though funding was received late in the fiscal year, site activities were not interrupted or delayed.
             9   The region did not submit a request for funding as it expected State Superfund Contract funds.
            10   Original estimate was short of required funding for operation and maintenance of the facility.
            11   Additional monies were needed for a cooperative agreement to a state agency allowing them to monitor site activity.
            12   The region did not submit a request for funding as it expected State Superfund Contract funds.
            13   The region did not submit a request for funding as it expected Special Account funds.

Additional:
Two sites were funded in FY02 that were not funded in FY03. They are Berkeley Products and Walsh Landfill.
These two sites did not have planned estimates for FY02 but were funded due to unexpected construction needs.
These two sites were not at a stage that required action in FY2003. Neither had estimates, nor received funding in FY03.
                                                                                                           Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                    Enclosure 3
                                                                                                                                                                                                                                                                                        Page 8 of 24
                                                               FY03 Initial
                                                              Funding Plan                                                                                     Total FY03       Total FY03
                                            FY03 Amount     Amount from HQ FY03 Obligated                                                                        Amount       Expenditures for                Estimated Total     Total Funds         Total Funds     Unexpended    Sufficient
                                         Initially Requested October 2002    Amount From     Date of       Special     Date of      State SF      Date of   Obligated (sum of    Remedial          Date of   Costs for Remedial Obligated through      Expended        Balance at   Funding
Region State         Site Name                by Region     Funding Decision HQ RA AOA*     Obligation    Accounts    Obligation    Contracts    Obligation prior 3 columns)     Action**        Expenditure     Action***           9/30/03        through 9/30/03     9/30/03      (Y/N)       Notes
  4     FL Alaric Area Groundwater                1,700,000       1,700,000     1,700,000      05/21/03                                                            1,700,000                                         3,500,000          3,800,000                                       Y

             American Creosote Works
                                                                                                                                                                                                                                                                                        Y
  4     FL   (Pensacola)                       3,000,000        3,000,000        300,000       09/30/03                                                             300,000                                        21,000,000          7,300,000                                                  1

  4     NC   Benfield Industries, Inc.                 x                                                                               138,071     02/11/03         138,071                                        13,000,000          6,400,000                                        Y         2


                                                                                                                                                                                                                                                                                        Y
  4     NC   Cape Fear Wood Preserving                 x                                                                             1,508,697     02/24/03        1,508,697                                       38,400,000         22,400,000                                                  3

  4     NC   Carolina Transformer Co.                  x                         300,000      08/22/03                                 600,000     06/23/03                                                        22,300,000         18,700,000                                        Y         4
                                                                                  40,000      09/19/03                                 225,000     07/23/03
                                                                                 160,000      09/27/03                                 200,000     08/11/03
                                                                                                                                       156,561     08/20/03
                                                                                 500,000                                             1,181,561                     1,681,561

  4     FL   City Industries                           x                                                    412,000      12/12/02                                   412,000                                         3,800,000          3,000,000                                        Y         5

             Coleman-Evans Wood
                                                                                                                                                                                                                                                                                        Y
  4     FL   Preserving Co.                    4,850,000        4,850,000      4,500,000       03/03/03                                                                              574,262       10/03/02        64,700,000         60,538,450        53,699,603      6,838,847                 6
                                                                               5,200,000       03/19/03                                                                              362,024       10/15/02
                                                                               5,700,000       05/07/03                                                                              127,232       10/17/02
                                                                               3,300,000       08/20/03                                                                              230,008       10/18/02
                                                                               2,250,000       09/25/03                                                                               71,629       10/25/02
                                                                                                                                                                                     389,502       11/07/02
                                                                                                                                                                                      38,622       11/25/02
                                                                                                                                                                                     349,531       11/27/02
                                                                                                                                                                                         660       12/03/02
                                                                                                                                                                                     258,789       12/04/02
                                                                                                                                                                                     578,965       12/09/02
                                                                                                                                                                                     370,205       12/17/02
                                                                                                                                                                                     267,455       12/20/02
                                                                                                                                                                                     546,030       01/10/03
                                                                                                                                                                                      56,972       01/21/03
                                                                                                                                                                                     394,486       01/24/03
                                                                                                                                                                                     124,169       01/28/03
                                                                                                                                                                                     345,746       02/12/03
                                                                                                                                                                                      48,819       02/19/03
                                                                                                                                                                                     310,673       02/21/03
                                                                                                                                                                                         207       03/03/03
                                                                                                                                                                                     691,426       03/04/03
                                                                                                                                                                                         294       03/07/03
                                                                                                                                                                                   5,200,000       03/17/03
                                                                                                                                                                                     214,318       03/19/03
                                                                                                                                                                                      47,475       03/26/03
                                                                                                                                                                                         315       04/02/03
                                                                                                                                                                                     608,974       04/03/03
                                                                                                                                                                                     457,533       04/17/03
                                                                                                                                                                                      59,580       04/28/03
                                                                                                                                                                                   3,132,842       04/30/03
                                                                                                                                                                                     386,282       05/22/03
                                                                                                                                                                                     607,073       06/06/03
                                                                                                                                                                                     284,245       06/25/03
                                                                                                                                                                                     795,684       06/30/03
                                                                                                                                                                                     153,308       07/25/03
                                                                                                                                                                                   1,500,000       07/28/03
                                                                                                                                                                                     134,993       07/31/03
                                                                                                                                                                                     686,687       08/04/03
                                                                                                                                                                                      48,715       08/25/03
                                                                                                                                                                                     209,864       08/26/03
                                                                                                                                                                                     306,914       08/27/03
                                                                                                                                                                                     796,666       09/08/03
                                                                                                                                                                                     198,370       09/09/03
                                                                                                                                                                                         514       09/10/03
                                                                                                                                                                                      63,899       09/22/03
                                                                                                                                                                                     184,381       09/23/03
                                                                                                                                                                                         296       09/24/03
                                                                                                                                                                                   1,115,012       09/29/03
                                                                              20,950,000                                                                         20,950,000        23,331,646
                                                                                                               Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                    Enclosure 3
                                                                                                                                                                                                                                                                                            Page 9 of 24
                                                                   FY03 Initial
                                                                  Funding Plan                                                                                     Total FY03       Total FY03
                                                FY03 Amount     Amount from HQ FY03 Obligated                                                                        Amount       Expenditures for                Estimated Total     Total Funds         Total Funds     Unexpended    Sufficient
                                             Initially Requested October 2002    Amount From     Date of       Special     Date of      State SF      Date of   Obligated (sum of    Remedial          Date of   Costs for Remedial Obligated through      Expended        Balance at   Funding
Region State         Site Name                    by Region     Funding Decision HQ RA AOA*     Obligation    Accounts    Obligation    Contracts    Obligation prior 3 columns)     Action**        Expenditure     Action***           9/30/03        through 9/30/03     9/30/03      (Y/N)       Notes
  4     KY Distler Brickyard                                  x                                                                            133,048     03/20/03          133,048                                                                                                            Y          7


                                                                                                                                                                                                                                                                                            Y
  4     FL   Escambia Wood Preserving               500,000          500,000                                                               523,027     05/07/03         523,027                                        28,000,000                                                                     8


                                                                                                                                                                                                                                                                                            Y
  4     NC   FCX, Inc. (Statesville Plant)                 x                           3,071    01/31/03                                                                   3,071                                        7,500,000           6,820,000                                                 9

  4     NC   North Belmont PCE                             x                                                                                31,835     02/20/03          31,835                                                                                                             Y         10

  4     TN   Ross Metals Inc                       3,000,000        3,000,000      2,000,000       01/02/03     714,253      03/07/03                                                      72,356       10/11/02       10,000,000          8,626,083         6,212,814      2,413,269       Y         11
                                                                                     285,747       03/07/03      20,000      08/04/03                                                     115,745       10/24/02
                                                                                      61,400       03/11/03      74,000      08/11/03                                                       1,122       11/04/02
                                                                                     340,000       06/11/03      62,000      09/23/03                                                     130,800       11/08/02
                                                                                     726,000       08/11/03                                                                                18,612       11/13/02
                                                                                   1,018,475       09/29/03                                                                               (18,612)      11/14/02
                                                                                                                                                                                          128,812       11/21/02
                                                                                                                                                                                              508       11/26/02
                                                                                                                                                                                           19,971       11/29/02
                                                                                                                                                                                          (19,971)      12/11/02
                                                                                                                                                                                              770       12/18/02
                                                                                                                                                                                          163,391       12/20/02
                                                                                                                                                                                              344       12/27/02
                                                                                                                                                                                          126,961       12/31/02
                                                                                                                                                                                           23,555       01/03/03
                                                                                                                                                                                          (23,555)      01/09/03
                                                                                                                                                                                          118,949       01/13/03
                                                                                                                                                                                          145,397       01/17/03
                                                                                                                                                                                           23,933       02/05/03
                                                                                                                                                                                              523       02/11/03
                                                                                                                                                                                          244,948       02/13/03
                                                                                                                                                                                              805       02/18/03
                                                                                                                                                                                          152,644       02/19/03
                                                                                                                                                                                           22,962       03/06/03
                                                                                                                                                                                          311,342       03/07/03
                                                                                                                                                                                              384       03/18/03
                                                                                                                                                                                          422,129       03/20/03
                                                                                                                                                                                           22,132       03/26/03
                                                                                                                                                                                              733       04/03/03
                                                                                                                                                                                          (46,065)      04/07/03
                                                                                                                                                                                          822,708       04/25/03
                                                                                                                                                                                           16,238       05/02/03
                                                                                                                                                                                          (15,728)      05/12/03
                                                                                                                                                                                          273,681       05/13/03
                                                                                                                                                                                          416,108       05/22/03
                                                                                                                                                                                          196,410       06/03/03
                                                                                                                                                                                           18,831       06/04/03
                                                                                                                                                                                              365       06/09/03
                                                                                                                                                                                          (18,831)      06/11/03
                                                                                                                                                                                              490       06/23/03
                                                                                                                                                                                           16,825       06/24/03
                                                                                                                                                                                          278,317       06/30/03
                                                                                                                                                                                          (16,825)      07/03/03
                                                                                                                                                                                          216,178       07/09/03
                                                                                                                                                                                          508,360       07/25/03
                                                                                                                                                                                          137,983       08/05/03
                                                                                                                                                                                          (24,016)      08/06/03
                                                                                                                                                                                              560       08/11/03
                                                                                                                                                                                          372,764       08/27/03
                                                                                                                                                                                              719       08/28/03
                                                                                                                                                                                           17,691       09/02/03
                                                                                                                                                                                          (17,691)      09/04/03
                                                                                                                                                                                          356,392       09/19/03
                                                                                                                                                                                              734       09/29/03
                                                                                   4,431,622                    870,253                                                5,301,875        5,719,888

  4     FL   Solitron Microwave                    2,100,000        2,100,000        500,000       09/25/03                                                             500,000                                        10,840,000           2,430,000                                       Y         12

  4     FL   Tower Chemical Co.                     400,000          400,000                                                                                                                                           10,000,000           1,600,000                                       Y         13
                                                                                                                           Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                     Enclosure 3
                                                                                                                                                                                                                                                                                                         Page 10 of 24
                                                                    FY03 Initial
                                                                   Funding Plan                                                                                                   Total FY03       Total FY03
                                                 FY03 Amount     Amount from HQ FY03 Obligated                                                                                      Amount       Expenditures for                Estimated Total     Total Funds         Total Funds     Unexpended    Sufficient
                                              Initially Requested October 2002    Amount From             Date of         Special        Date of       State SF      Date of   Obligated (sum of    Remedial          Date of   Costs for Remedial Obligated through      Expended        Balance at   Funding
Region State        Site Name                      by Region     Funding Decision HQ RA AOA*             Obligation      Accounts       Obligation     Contracts    Obligation prior 3 columns)     Action**        Expenditure     Action***           9/30/03        through 9/30/03     9/30/03      (Y/N)       Notes
  4     FL Trans Circuits, Inc.                          700,000         700,000     1,000,000              09/25/03                                                                                                                    4,800,000          2,375,000                                       Y         14
                                                                                        60,000              09/29/03
                                                                                     1,060,000                                                                                        1,060,000

   4      GA    Woolfolk Chemical Works              1,300,000           1,300,000         1,300,000        09/30/03                                                                  1,300,000                                       35,000,000          4,750,000                                        Y         15

  12            TOTAL                               13,050,000         13,050,000        30,744,693                        1,282,253                    3,516,239                   35,543,185        29,051,534                     212,200,000        137,584,533        59,912,417      9,252,116       Y

* - inludes prior year fund appropriation obligations
** - includes amounts obligated in prior years
*** - reflects estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.

       x OSRTI records do not indicate a Regional request for these sites.

               Notes:
             1 Community objections to the design delayed the start of activity. This amount reflects the amount needed to obtain consensus and modify the design.
             2 No 2003 Remedial Action funds requested or needed at this site. The above funds were used to pay 1996 expenditures at this site that had been previously funded from Trust account monies.
             3 No Remedial Action funding was needed in FY2003. Remedial Design funding was requested to cover the cost of conducting a pilot scale treatability study at the site on technologies to enhance
               the removal of residual DNAPL. Remedial Action was completed in 2003.
             4 The region did not submit a request for funding as it expected Special Account and State Superfund Contract funds. The AOA obligation was for an unplanned need at the site.
             5 The region did not submit a request for funding as it expected Special Account funds.
             6 Increase in cost for the Coleman-Evans Remedial Action is attributable to two causes: a three fold increase in the volume of contaminated soil requiring treatment;
               and, settlement of a contract dispute with the contractor performing the Remedial Action.
             7 The region did not submit a request for funding as it expected State Superfund Contract funds.
             8 The Remedial Investigation/Feasibility Study has not been completed on this site and the site is not yet ready for Remedial Action.
               The State Superfund Contract funds received were for moving the last residents from the site and maintaining the grass cover over the contaminated soil and debris.
             9 2003 Remedial Action allocation was for a consultant geologist from Northwinds Environmental to review and make recommendations for optimizing the groundwater “pump and treat” remedy
                ongoing at the site. This site was also funded under LTRA.
            10 The obligation was not for 2003 Remedial Action activity at the site, it was needed to pay 2000 expenditures at this site that had been previously paid from Trust Account monies.
            11 Insufficient funding in prior years lead to a 15 month delay of this site. 2003 funding increased
               for this site due to flooding and wet weather which delayed cleanup and maintenance crews required to stay on-site.
            12 Funding was reduced because of technical problems with implementing a portion of the remedy.
            13 No obligations for Tower Chemical could be made until late 09/03 because of problems with getting State to sign State Superfund Contract. However, RPM was still not willing to obligate
               Remedial Action funds until analytical and technical problems are resolved at the site.
            14 The funding increase was largely due to the fact that the location of the new municipal supply well was nearly twice the distance from the water plant than what was originally estimated.
            15 Cleanup of Woolfolk Chemical site was originally a PRP-lead. The PRP costs are not reflected above
               and are one reason for the large variance between total estimated remedial action costs and obligations to date columns.
               Remedial Action obligation for Woolfolk Chemical was delayed until 09/30/03 because of problems getting State to sign State Superfund Contract.

Additional:
Five sites from FY02 were not listed on the FY03 spreadsheet. One was listed on the FY03 LTRA sheet as receiving funding - Elmore Waste Disposal.
Hollingsworth - Funds were not required in FY03 for this site. This site is still in the Remedial Design phase.
Southern Solvents - FY02 funds were for a soil vapor extraction system and treatability study. Funds were not needed in FY03. The State was unwilling to implement additional clean up action in 2003 until the prior study was completed.
ABC One Hour Cleaners - Prior year funds were sufficient for FY03 actions as well.
Wrigley Charcoal Plant - FY02 funding was for well replacement and debris removal. Funds were not needed in FY03.
                                                                                                        Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                  Enclosure 3
                                                                                                                                                                                                                                                                                  Page 11 of 24
                                                               FY03 Initial
                                         FY03 Amount          Funding Plan                                                                                                Total FY03      Total FY03                  Estimated Total   Total Funds
                                            Initially       Amount from HQ     FY03 Obligated                                                                               Amount       Expenditures                    Costs for       Obligated      Total Funds     Unexpended    Sufficient
                                         Requested by        October 2002    Amount From HQ RA     Date of       Special      Date of     State SF        Date of      Obligated (sum of for Remedial     Date of        Remedial         through        Expended        Balance at   Funding
Region State             Site Name         Region           Funding Decision       AOA*           Obligation    Accounts     Obligation   Contracts      Obligation    prior 3 columns)     Action**    Expenditure      Action***        9/30/03     through 9/30/03     9/30/03      (Y/N)     Notes
               Aircraft Components
  5     MI     (OU1 & 2)                     4,000,000           3,848,000              550,000      12/13/02                                                                                  4,186       11/14/02         5,600,000     5,822,000       2,051,438       3,770,562      Y        1
                                                                                       272,000       04/17/03                                                                                      5       11/21/02
                                                                                      3,500,000      08/25/03                                                                                 21,931       12/19/02
                                                                                                                                                                                                   6       12/27/02
                                                                                                                                                                                              79,761       01/15/03
                                                                                                                                                                                             237,745       02/14/03
                                                                                                                                                                                             353,323       03/17/03
                                                                                                                                                                                             330,819       04/16/03
                                                                                                                                                                                             407,135       05/16/03
                                                                                                                                                                                             415,650       06/19/03
                                                                                                                                                                                               4,119       07/15/03
                                                                                                                                                                                             193,687       08/13/03
                                                                                                                                                                                               3,082       09/12/03
                                                                                      4,322,000                                                                               4,322,000    2,051,449

           Arrowhead Refinery Co
  5     MN (RA002)                            100,000              100,000                                                                                                                                                    200,000                                                    Y        2

  5     MI     Bofors Nobel, Inc.                       x                                                          937,069    04/08/03                                         937,069                                                                                                   Y        3

  5     OH     Bowers Ldfl Oh                           x                                                                                      407,452      05/08/03           407,452                                                                                                   Y        4

  5     MI     Velsicol Chemical Corp.     11,000,000           11,000,000           4,100,000       12/26/02                                3,215,210      05/06/03                           1,447       10/03/02        60,000,000    46,184,355      33,924,335      12,260,020      Y        5
                                                                                       178,234       04/16/03                                                                              2,032,256       10/18/02
                                                                                     3,215,210       05/30/03                                                                                    922       10/24/02
                                                                                     3,973,928       07/30/03                                                                                    702       11/04/02
                                                                                       155,000       08/20/03                                                                                    897       11/05/02
                                                                                                                                                                                               5,340       11/08/02
                                                                                                                                                                                           1,032,130       11/14/02
                                                                                                                                                                                             343,294       11/18/02
                                                                                                                                                                                                 366       11/21/02
                                                                                                                                                                                             264,474       12/16/02
                                                                                                                                                                                             406,716       12/17/02
                                                                                                                                                                                               7,421       01/03/03
                                                                                                                                                                                             189,020       01/08/03
                                                                                                                                                                                               2,402       01/13/03
                                                                                                                                                                                             516,665       01/14/03
                                                                                                                                                                                                 134       01/28/03
                                                                                                                                                                                                (765)      01/29/03
                                                                                                                                                                                             215,223       02/13/03
                                                                                                                                                                                             130,739       03/03/03
                                                                                                                                                                                                  77       03/11/03
                                                                                                                                                                                              64,447       03/17/03
                                                                                                                                                                                                 479       03/19/03
                                                                                                                                                                                              99,666       03/24/03
                                                                                                                                                                                                 653       03/27/03
                                                                                                                                                                                               1,248       04/09/03
                                                                                                                                                                                             206,346       04/14/03
                                                                                                                                                                                              29,638       05/13/03
                                                                                                                                                                                              94,614       05/15/03
                                                                                                                                                                                                 338       06/09/03
                                                                                                                                                                                              28,546       06/12/03
                                                                                                                                                                                              76,543       06/13/03
                                                                                                                                                                                                 360       07/03/03
                                                                                                                                                                                             553,575       07/16/03
                                                                                                                                                                                             110,270       07/23/03
                                                                                                                                                                                                 129       07/24/03
                                                                                                                                                                                                 546       08/06/03
                                                                                                                                                                                             503,766       08/14/03
                                                                                                                                                                                              (6,687)      08/28/03
                                                                                                                                                                                             127,261       09/03/03
                                                                                                                                                                                              (4,165)      09/04/03
                                                                                                                                                                                           1,398,820       09/12/03
                                                                                                                                                                                                 237       09/16/03
                                                                                                                                                                                             230,510       09/25/03
                                                                                    11,622,372                                              3,215,210                       14,837,582     8,666,600
                                                                                                                      Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                     Enclosure 3
                                                                                                                                                                                                                                                                                                   Page 12 of 24
                                                                      FY03 Initial
                                                FY03 Amount          Funding Plan                                                                                                          Total FY03      Total FY03                  Estimated Total   Total Funds
                                                   Initially       Amount from HQ     FY03 Obligated                                                                                         Amount       Expenditures                    Costs for       Obligated      Total Funds     Unexpended    Sufficient
                                                Requested by        October 2002    Amount From HQ RA           Date of          Special       Date of     State SF        Date of      Obligated (sum of for Remedial     Date of        Remedial         through        Expended        Balance at   Funding
Region State                 Site Name            Region           Funding Decision       AOA*                 Obligation       Accounts      Obligation   Contracts      Obligation    prior 3 columns)     Action**    Expenditure      Action***        9/30/03     through 9/30/03     9/30/03      (Y/N)     Notes
                    Continental Steel (RA001
   5      IN        and RA002)                      39,100,000                                                                                                                                                                                                                                            N        6

   5       IL       Jennison Wright                 12,500,000                                                                                                                                                                                                                                            N        7


   5      MI        Lower Ecorse Creek Dump             50,000              50,000                   19,883       01/13/03                                                                       19,883                                      3,050,000                                                    Y        8

             Macgillis & Gibbs Co
   5      MN (RA004)                                   150,000            150,000                    50,000       05/20/03                                    1,311,030      05/08/03         1,361,030                                     17,751,950                                                    Y        9

   5      MI        Ott/Story/Cordova                          x                                                                                                591,836      05/20/03           591,836                                                                                                   Y        4

   5      MI        Parsons Chemical                    90,921              90,921                                                                                                                                                                                                                        Y        10

   5      MI        Peerless Plating                           x                                     11,000       12/13/02                                                                       11,000                                                                                                   Y

   5      WI        Stoughton Wi                               x                                                                                              1,000,000      05/09/03         1,000,000                                                                                                   Y        4

   5      MI        Torch Lake Mi                              x                                                                                                506,667      05/20/03           506,667                                                                                                   Y        11

   5      MI        US Aviex (RA001)                   200,000                                                                                                                                                                                                                                            Y        12

  15                Total                          67,190,921          15,238,921               16,025,255                         937,069                    7,032,195                      23,994,519    10,718,049                      86,601,950     52,006,355      35,975,773      16,030,582      N

* includes prior year fund appropriation obligations
** includes amounts obligated in prior years
*** reflects estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.
       x OSRTI records do not indicate a Regional request for these sites.

                    Notes:
                1   Additional asbestos contamination was discovered at this site and cleanup costs increased.
                2   This amount was set aside to repay the state. However, EPA decided to repay the state later when LTRA ends.
                3   BOFORS special account money is disbursed to the PRPs performing the remedy. The source of the money is an earlier deminimis settlement with "small" PRPs who are not part of the PRP group performing the remedy.
                4   Region received this State Superfund Contract funding for work which was completed in another year. This site is construction complete.
                5   Funding was sufficient since field conditions only allow this amount of dredging.
                6   This site received no funding from the Prioritization Panel. The Region plans to begin a phased funding approach at this site in FY2004.
                    This site has been on the NPL since 1989. FY2003 funding shortfall amount: $39,100,000.
            7       This site received no funding from the Prioritization Panel. FY2003 funding shortfall amount: $12,500,000.
            8       The early estimate of $50,000 to cover newly-discovered contaminated soil was revised because only $19,883 was needed to clean up the soil.
            9       The Regional request was in case there were finalizations for construction and engineering costs. These were not needed. The $50,000 is for contingencies. State Superfund Contract monies are not included in Regional requests.
           10       The state and EPA decided $90,921 was not needed because no more work was done at the site.
           11       Region received this State Superfund Contract money for work which was completed in another year.
           12       The $200,000 was an early estimate and was not needed because the State's contract contained sufficient funding to cover the site's operation.


Additional:
All sites funded in FY03 appear in the above schedule.
                                                                                                                      Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                            Enclosure 3
                                                                                                                                                                                                                                                                                          Page 13 of 24
                                                                      FY03 Initial
                                                                     Funding Plan                                                                                               Total FY03      Total FY03                   Estimated Total
                                                  FY03 Amount      Amount from HQ      FY03 Obligated                                                                        Amount Obligated Expenditures for                  Costs for        Total Funds         Total Funds     Unexpended      Sufficient
                                               Initially Requested  October 2002      Amount From HQ      Date of        Special      Date of     State SF      Date of       (sum of prior 3    Remedial        Date of        Remedial       Obligated through      Expended        Balance at     Funding
Region   State            Site Name                 by Region      Funding Decision      RA AOA*         Obligation     Accounts     Obligation   Contracts    Obligation        columns)         Action**     Expenditure      Action***           9/30/03        through 9/30/03     9/30/03        (Y/N)       Notes
                 American Creosote Works,
  6       LA     Inc.                                         x                                35,500       12/23/02                                                                                                                                                                                     Y         1
                                                                                                7,918       01/16/03
                                                                                                43,418                                                                                43,418



  6       LA     Central Wood Preserving Co.          9,000,000                             1,000,000       07/22/03                                                                                        -                     9,000,000           7,200,000                  0       7,200,000       Y         2
                                                                                            4,000,000       08/25/03
                                                                                            2,200,000       09/29/03
                                                                                            7,200,000                                                                              7,200,000

  6       TX     City of Perryton Well No. 2                  x                               100,000       06/24/03                                 302,347      05/13/03           402,347                                       3,519,124          3,333,333                                          Y         3

  6       LA     Delatte Metals                       1,000,000                               726,656       05/19/03                                                                                                             15,758,232          15,711,999                                          Y         4
                                                                                            1,031,576       08/25/03
                                                                                             1,758,232                                                                             1,758,232

  6      NM      Fruit Avenue                         5,000,000                             4,000,000       09/03/03                                                                4,000,000                                     6,050,000           4,000,000                                          Y         5

  6      AR      Gurley Pit                                   x                                                                                      685,575      08/05/03           685,575                                                                                                             Y

  6       TX     Hart Creosoting                      9,880,000                                                                                                                                                                                                                                          N         6

  6      OK      Hudson Refinery                      5,220,000          5,220,000          4,200,000       02/24/03                                 300,000      02/24/03                                                                                                                               Y         7
                                                                                                   90       02/28/03                                 300,000      08/26/03
                                                                                                   54       04/02/03
                                                                                                  145       05/01/03
                                                                                                  451       07/28/03
                                                                                            4,200,740                                                600,000                       4,800,740

  6       TX     Jasper Creosoting                    6,240,000                                                                                                                                                                                                                                          N         8

  6       LA     Kriger Battery                         400,000                                                                                                                                                                                                                                          N         9

  6       LA     Mallard Bay                          1,000,000                               750,000       06/03/03                                                                                                              2,687,611           2,687,611                                          Y         10
                                                                                              165,794       06/10/03
                                                                                              484,206       07/02/03
                                                                                              341,464       07/21/03
                                                                                              258,414       07/29/03
                                                                                              687,733       08/18/03
                                                                                            2,687,611                                                                              2,687,611

  6       LA     Marion Pressure Treating             9,000,000                                                                                                                                                                  24,500,000                                                              N         11



  6      NM      North Railroad Avenue Plume          6,500,000                                                                                                                                                                   6,500,000                                                              N         12

  6       LA     Point Coupee                           300,000                                                                                                                                                                                                                                          N         13

  6       TX     RSR Corporation                              x                                                          1,000,000     09/03/03                                    1,000,000                                                                                                             Y         14

  6      OK      S&K Industries                         400,000                                                                                                                                                                                                                                          N         15

  6       TX     Sprague Rd GW                        4,000,000          4,000,000          3,048,091       12/20/02                                 783,121      06/10/03                                                        8,478,734           7,831,212                                          Y         16
                                                                                              357,919       09/30/03
                                                                                            3,406,010                                                783,121                       4,189,131

  6       TX     Tex-Tin Corp. (OU4)                          x                                                            150,000     02/18/03                                                                                   3,150,000           3,150,000                                          Y         17
                                                                                                                         3,000,000     05/08/03
                                                                                                                         3,150,000                                                 3,150,000
                                                                                                     Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                           Enclosure 3
                                                                                                                                                                                                                                                                        Page 14 of 24
                                                         FY03 Initial
                                                        Funding Plan                                                                                           Total FY03      Total FY03                   Estimated Total
                                     FY03 Amount      Amount from HQ      FY03 Obligated                                                                    Amount Obligated Expenditures for                  Costs for      Total Funds         Total Funds     Unexpended    Sufficient
                                  Initially Requested  October 2002      Amount From HQ     Date of       Special    Date of     State SF      Date of       (sum of prior 3    Remedial        Date of        Remedial     Obligated through      Expended        Balance at   Funding
Region   State        Site Name        by Region      Funding Decision      RA AOA*        Obligation    Accounts   Obligation   Contracts    Obligation        columns)         Action**     Expenditure      Action***         9/30/03        through 9/30/03     9/30/03      (Y/N)       Notes
  6       OK Tar Creek                      5,000,000        5,000,000         5,000,000      03/03/03                            1,660,042      03/03/03                             11,304     10/04/02        95,000,000       62,266,290         51,111,627      11,154,663     Y         18
                                                                                                                                  1,070,000      07/15/03                              1,405     10/07/02
                                                                                                                                                                                       1,232     10/16/02
                                                                                                                                                                                    299,597      10/18/02
                                                                                                                                                                                         333     10/25/02
                                                                                                                                                                                         120     10/29/02
                                                                                                                                                                                       1,826     10/31/02
                                                                                                                                                                                       1,361     11/04/02
                                                                                                                                                                                    790,434      11/14/02
                                                                                                                                                                                         680     11/21/02
                                                                                                                                                                                      14,442     11/26/02
                                                                                                                                                                                       1,866     11/29/02
                                                                                                                                                                                         919     12/13/02
                                                                                                                                                                                    475,941      12/16/02
                                                                                                                                                                                       2,521     12/24/02
                                                                                                                                                                                       1,952     12/31/02
                                                                                                                                                                                         523     01/02/03
                                                                                                                                                                                         673     01/07/03
                                                                                                                                                                                       2,325     01/10/03
                                                                                                                                                                                       2,513     01/16/03
                                                                                                                                                                                    331,709      01/17/03
                                                                                                                                                                                       1,104     01/22/03
                                                                                                                                                                                       2,038     01/27/03
                                                                                                                                                                                          92     02/06/03
                                                                                                                                                                                      91,815     02/10/03
                                                                                                                                                                                    356,383      02/13/03
                                                                                                                                                                                         543     02/14/03
                                                                                                                                                                                         951     02/18/03
                                                                                                                                                                                       1,877     02/19/03
                                                                                                                                                                                        (304)    02/21/03
                                                                                                                                                                                       1,082     02/24/03
                                                                                                                                                                                      45,448     02/26/03
                                                                                                                                                                                         421     02/27/03
                                                                                                                                                                                         657     03/06/03
                                                                                                                                                                                       2,380     03/07/03
                                                                                                                                                                                       1,029     03/11/03
                                                                                                                                                                                       1,230     03/17/03
                                                                                                                                                                                         687     03/18/03
                                                                                                                                                                                    521,999      03/21/03
                                                                                                                                                                                       1,153     03/24/03
                                                                                                                                                                                         466     03/25/03
                                                                                                                                                                                         192     03/27/03
                                                                                                                                                                                         192     04/01/03
                                                                                                                                                                                         682     04/02/03
                                                                                                                                                                                         667     04/15/03
                                                                                                                                                                                    403,077      04/17/03
                                                                                                                                                                                         673     04/21/03
                                                                                                                                                                                       9,330     04/24/03
                                                                                                                                                                                     (27,198)    04/28/03
                                                                                                                                                                                       6,593     04/29/03
                                                                                                                                                                                       1,271     04/30/03
                                                                                                                                                                                       4,187     05/01/03
                                                                                                                                                                                         964     05/05/03
                                                                                                                                                                                         762     05/06/03
                                                                                                                                                                                       1,444     05/09/03
                                                                                                                                                                                         741     05/14/03
                                                                                                                                                                                    648,293      05/19/03
                                                                                                                                                                                       5,108     06/03/03
                                                                                                                                                                                         722     06/04/03
                                                                                                                              Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                              Enclosure 3
                                                                                                                                                                                                                                                                                                    Page 15 of 24
                                                                        FY03 Initial
                                                                       Funding Plan                                                                                                       Total FY03      Total FY03                   Estimated Total
                                                    FY03 Amount      Amount from HQ        FY03 Obligated                                                                              Amount Obligated Expenditures for                  Costs for        Total Funds         Total Funds     Unexpended     Sufficient
                                                 Initially Requested  October 2002        Amount From HQ          Date of         Special        Date of     State SF      Date of      (sum of prior 3    Remedial        Date of        Remedial       Obligated through      Expended        Balance at    Funding
 Region     State          Site Name                  by Region      Funding Decision        RA AOA*             Obligation      Accounts       Obligation   Contracts    Obligation       columns)         Action**     Expenditure      Action***           9/30/03        through 9/30/03     9/30/03       (Y/N)       Notes
   6         OK Tar Creek                                                                                                                                                                                           709     06/10/03
                  Continued                                                                                                                                                                                       1,260     06/12/03
                                                                                                                                                                                                                    960     06/16/03
                                                                                                                                                                                                               407,770      06/17/03
                                                                                                                                                                                                                    939     06/27/03
                                                                                                                                                                                                                  1,322     06/30/03
                                                                                                                                                                                                                  2,263     07/15/03
                                                                                                                                                                                                                    941     07/17/03
                                                                                                                                                                                                             1,423,087      07/21/03
                                                                                                                                                                                                                    535     07/22/03
                                                                                                                                                                                                                  1,976     07/24/03
                                                                                                                                                                                                                    958     08/04/03
                                                                                                                                                                                                                 86,717     08/08/03
                                                                                                                                                                                                                    997     08/14/03
                                                                                                                                                                                                             1,041,818      08/18/03
                                                                                                                                                                                                                  1,274     08/19/03
                                                                                                                                                                                                                  1,284     08/28/03
                                                                                                                                                                                                                    685     09/04/03
                                                                                                                                                                                                                    373     09/05/03
                                                                                                                                                                                                                  1,294     09/09/03
                                                                                                                                                                                                                    429     09/12/03
                                                                                                                                                                                                                    281     09/16/03
                                                                                                                                                                                                                    836     09/17/03
                                                                                                                                                                                                             1,458,055      09/19/03
                                                                                                                                                                                                                    528     09/22/03
                                                                                                                                                                                                                  1,151     09/23/03
                                                                                                                                                                                                                  2,047     09/25/03
                                                                                                                                                                                                                    921     09/30/03
                                                                                                  5,000,000                                                   2,730,042                       7,730,042      8,473,837

   20               Totals                              62,940,000          14,220,000           28,396,011                        4,150,000                  5,101,085                     37,647,096       8,473,837                    174,643,701        106,180,445         51,111,627      18,354,663       N

* includes prior year fund appropriation obligations
** includes amounts obligated in prior years
*** reflects estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.

        x   OSRTI records do not indicate a Regional request for these sites.

                    Notes:
                1   Region 6 stated that the funding listed here should be included with the LTRA Regional request and obligations.
                2   There were no expenditures as the design for this site had to be updated. Also, the contractor began the bidding process for subcontracts in FY03, but expenses will not be incurred until FY04.
                3   Region had additional money so it applied it to this site to ensure funding into the first quarter of FY04.
                4   Additional contaminant was discovered at the site leading to additional waste disposal costs.
                5   RPM requested entire amount for Remedial Action, the amount obligated reflects actual costs for FY03.
                6   This site was not approved for funding by the Priority Panel. Estimated Total Amount For Remedial Action equals request as this site is a Non-Time Critical Removal. FY2003 funding shortfall amount: $9,880,000.
                7   This site did not need the full amount of the funding request.
                8   This site was not approved for funding by the Priority Panel. Estimated Total Amount For Remedial Action equals request as this site is a Non-Time Critical Removal. FY2003 funding shortfall amount: $6,240,000.
                9   This site was identified as ready for actions but it was not funded. FY2003 funding shortfall amount: $400,000.
               10   Additional funding was requested to complete the action within one year.
               11   This site was not approved for funding by the Priority Panel. Also there were design dalays making the site not ready for FY03 RA funding. FY2003 funding shortfall amount: $9,000,000.
               12   This site was not approved for funding by the Priority Panel. Also there were design dalays making the site not ready for FY03 RA funding. FY2003 funding shortfall amount: $6,500,000.
               13   This site was identified as ready for actions but it was not funded. FY2003 funding shortfall amount: $300,000.
               14   Region did not request funding as it expected Special Account funding in FY03.
               15   This site was identified as ready for actions but it was not funded. FY2003 funding shortfall amount: $400,000.
               16   This site was completed for less than the estimated costs.
               17   Region did not request funding as it expected Special Account funding in FY03.
               18   Site received what they expected.

Additional:
There were 3 sites funded in FY02 but not in FY03.
Highland Acid Pit - site activities finished February 28, 2003, future obligations will cover operation and maintenance of the facility.
Midland Products, and North Cavacade Street - remedial actions are currently under review.
                                                                                                                          Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                       Enclosure 3
                                                                                                                                                                                                                                                                                                          Page 16 of 24
                                                                   FY03 Initial
                                                                  Funding Plan                                                                                                                 Total FY03     Total FY03                   Estimated Total
                                                FY03 Amount     Amount from HQ                                                                                                                  Amount       Expenditures                     Costs for      Total Funds       Total Funds   Unexpended Sufficient
                                             Initially Requested October 2002        FY03 Obligated Amount                             Special        Date of       State SF      Date of Obligated (sum of for Remedial       Date of        Remedial     Obligated through    Expended      Balance at Funding
Region State        Site Name                     by Region     Funding Decision       From HQ RA AOA*      Date of Obligation        Accounts       Obligation     Contracts    Obligation prior 3 columns)   Action**      Expenditure      Action***         9/30/03      through 9/30/03   9/30/03    (Y/N)      Notes
  7     NE 10th Street    "TC"                          700,000       1,150,000                     300,000          02/24/03                                                                                        4,334      12/17/02        1,980,100         2,850,000          275,196   2,574,804    Y
                                                                                                    550,000          06/03/03                                                                                        2,215      01/15/03
                                                                                                    300,000          09/10/03                                                                                        3,968      02/19/03
                                                                                                                                                                                                                     2,147      03/20/03
                                                                                                                                                                                                                     3,172      04/10/03
                                                                                                                                                                                                                       470      04/28/03
                                                                                                                                                                                                                   21,033       05/15/03
                                                                                                                                                                                                                   15,245       06/12/03
                                                                                                                                                                                                                       603      06/26/03
                                                                                                                                                                                                                   12,971       07/16/03
                                                                                                                                                                                                                  192,052       08/18/03
                                                                                                                                                                                                                       268      08/27/03
                                                                                                                                                                                                                        97      09/09/03
                                                                                                                                                                                                                   18,058       09/19/03
                                                                                                                                                                                                                       268      09/25/03
                                                                                                    1,150,000                                                                                      1,150,000      276,901

               57th and North Broadway
   7      KS   Streets Site                                   x                                                                                                       154,899     07/31/03         154,899                                                                                                   Y        1

   7      KS   Ace Services                                   x           572,800                      72,825            03/14/03                                                                                                              6,805,437                                                     Y        2
                                                                                                      500,000            07/02/03
                                                                                                      572,825                                                                                      572,825

   7      NE   Cleburn Street Well                            x                                                                                                         69,800    07/31/03          69,800                                                                                                   Y        3

   7      NE   Hastings 2nd Street                     500,000                                                                                                                                                                                                                                               Y        4

   7      IA   Mid-America Tanning Co.                        x                                                                                                         96,062    07/31/03          96,062                                                                                                   Y        5

   7     MO Newton County Mine Tailings              1,000,000            400,000                     400,000            09/30/03                                                                  400,000                                                                                                   Y        6

   7     MO Oronogo-Duenweg OU 2                              x                                                                           114,000        12/27/02                                                  16,233       10/03/02      31,294,125       29,951,212       28,151,818    1,799,394      Y        7
                                                                                                                                           75,034        01/23/03                                                  23,800       10/04/02
                                                                                                                                          652,167        01/28/03                                                  21,358       10/07/02
                                                                                                                                              144        03/20/03                                                 216,033       10/25/02
                                                                                                                                        1,636,937        07/22/03                                                   2,263       11/18/02
                                                                                                                                                                                                                      168       11/26/02
                                                                                                                                                                                                                   29,774       11/27/02
                                                                                                                                                                                                                    4,989       11/29/02
                                                                                                                                                                                                                      175       12/11/02
                                                                                                                                                                                                                      144       01/06/03
                                                                                                                                                                                                                   23,000       01/08/03
                                                                                                                                                                                                                    1,100       01/29/03
                                                                                                                                                                                                                   75,034       02/07/03
                                                                                                                                                                                                                  202,561       02/11/03
                                                                                                                                                                                                                    4,663       03/05/03
                                                                                                                                                                                                                      144       03/21/03
                                                                                                                                                                                                                   18,298       04/02/03
                                                                                                                                                                                                                    6,859       04/14/03
                                                                                                                                                                                                                      387       04/29/03
                                                                                                                                                                                                                  170,493       05/08/03
                                                                                                                                                                                                                  133,869       06/05/03
                                                                                                                                                                                                                      334       06/09/03
                                                                                                                                                                                                                   98,201       07/10/03
                                                                                                                                                                                                                    8,168       09/30/03
                                                                                                                                        2,478,282                                                2,478,282      1,058,048

   8           TOTALS                                2,200,000          2,122,800                   2,122,825                           2,478,282                     320,761                    4,921,868      1,334,949                     40,079,662       32,801,212       28,427,014    4,374,198      Y

*    includes prior year fund appropriation obligations
** includes amounts obligated in prior years
*** reflects estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.
       x OSRTI records do not indicate a Regional request for these sites.
                                                                                                      Non-Federal Facility Fund-Financed Remedial Actions - FY03                                        Enclosure 3
                                                                                                                                                                                                       Page 17 of 24
              Notes:
          1   Region did not request FY03 funding as it expected State Superfund Contract funds.
          2   Funds for this site were requested under Long-Term Remedial Actions. The sum of the Long-Term and the Remedial Action obligations equal the Region's request for FY03.
          3   Region did not request FY03 funding as it expected State Superfund Contract funds.
          4   Planned funds not needed in FY03 as Investigation and site design were not yet complete.
          5   Region did not request FY03 funding as it expected State Superfund Contract funds.
          6   This site's project implementation strategy changed. The listed obligation was submitted to priority panel during the year, and the site received the obligation to begin the project.
          7   Region did not request FY03 funding as it expected Special Account funding.

Additional:
There was one site funded in FY02 that does not appear above, Cherokee County received Pipeline Funding in FY03.
                                                                                                           Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                            Enclosure 3
                                                                                                                                                                                                                                                                               Page 18 of 24
                                                            FY03 Initial
                                         FY03 Amount       Funding Plan                                                                                             Total FY03
                                            Initially    Amount from HQ     FY03 Obligated                                                                       Amount Obligated      Total FY03                  Estimated Total     Total Funds       Total Funds     Unexpended      Sufficient
                                         Requested by     October 2002       Amount From      Date of                     Date of      State SF      Date of      (sum of prior 3    Expenditures for   Date of   Costs for Remedial Obligated through    Expended        Balance at     Funding
Region   State       Site Name             Region        Funding Decision    HQ RA AOA*      Obligation Special Accounts Obligation    Contracts    Obligation       columns)       Remedial Action** Expenditure      Action***          9/30/03      through 9/30/03     9/30/03        (Y/N)       Notes
  8       MT Basin Mining Area               2,600,000         2,600,000         2,600,000      02/19/03                                                                  2,600,000                                         5,698,984                                                        Y



  8       CO   Broderick Wood Products               x                                                                                    163,672     08/20/03             163,672                                                                                                           Y         1

  8      CO    California Gulch             2,700,000          2,700,000           25,000       12/04/02                                                                                                                                                                                     Y         2
                                                                                  200,000       03/07/03
                                                                                      340       08/20/03
                                                                                  300,000       09/25/03
                                                                                    6,000       09/26/03
                                                                                  531,340                                                                                  531,340



  8       CO   Chemical Sales Co.                    x                                                           250,000    07/22/03                                       250,000                                                                                                           Y

  8      CO    Denver Radium Site          10,000,000          5,000,000             1,695      05/05/03      2,900,000     09/22/03                                                         65,449      10/16/02        45,000,000      114,564,048       98,635,088      15,928,960        Y         3
                                                                                 3,900,000      08/21/03                                                                                     28,012      10/25/02
                                                                                                                                                                                            314,709      11/19/02
                                                                                                                                                                                             28,074      11/20/02
                                                                                                                                                                                             25,385      12/03/02
                                                                                                                                                                                            314,630      12/18/02
                                                                                                                                                                                             24,172      12/30/02
                                                                                                                                                                                          1,430,893      01/13/03
                                                                                                                                                                                                809      01/27/03
                                                                                                                                                                                             24,346      01/28/03
                                                                                                                                                                                            304,583      01/31/03
                                                                                                                                                                                            591,938      02/18/03
                                                                                                                                                                                             30,028      02/25/03
                                                                                                                                                                                            661,816      03/26/03
                                                                                                                                                                                            551,641      03/28/03
                                                                                                                                                                                            145,705      04/10/03
                                                                                                                                                                                             38,153      04/22/03
                                                                                                                                                                                            793,258      05/08/03
                                                                                                                                                                                            123,605      05/09/03
                                                                                                                                                                                            885,413      05/27/03
                                                                                                                                                                                             30,720      05/28/03
                                                                                                                                                                                            457,358      06/11/03
                                                                                                                                                                                            440,574      06/18/03
                                                                                                                                                                                             30,542      06/23/03
                                                                                                                                                                                                350      07/16/03
                                                                                                                                                                                            531,318      07/22/03
                                                                                                                                                                                            178,067      07/23/03
                                                                                                                                                                                            413,428      07/31/03
                                                                                                                                                                                            527,536      08/15/03
                                                                                                                                                                                            599,035      08/26/03
                                                                                                                                                                                             41,826      08/27/03
                                                                                                                                                                                            223,532      09/18/03
                                                                                                                                                                                          1,503,343      09/25/03
                                                                                 3,901,695                    2,900,000                                                 6,801,695        11,360,248

  8      MT    East Helena Site               475,000            475,000                                                                                                                                                                                                                     Y         4

  8      UT    Eureka Mills                          x                           7,200,000      09/16/03                                                                7,200,000                                        62,475,310        $7,200,000                        7,200,000       Y         5

  8      SD    Gilt Edge Mine               4,100,000          4,100,000           306,815      01/30/03                                                                                                                  30,578,000                                                         Y         6
                                                                                    44,000      02/26/03
                                                                                   700,000      03/12/03
                                                                                   684,029      04/16/03
                                                                                   200,000      07/16/03
                                                                                 1,615,971      08/04/03
                                                                                 1,400,000      08/15/03
                                                                                   249,185      08/22/03
                                                                                   100,000      09/30/03
                                                                                 5,300,000                                                                               5,300,000
                                                                                                                                      Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                           Enclosure 3
                                                                                                                                                                                                                                                                                                         Page 19 of 24
                                                                             FY03 Initial
                                                           FY03 Amount      Funding Plan                                                                                                         Total FY03
                                                              Initially   Amount from HQ        FY03 Obligated                                                                                Amount Obligated    Total FY03                  Estimated Total     Total Funds       Total Funds     Unexpended     Sufficient
                                                           Requested by    October 2002          Amount From            Date of                     Date of          State SF     Date of      (sum of prior 3  Expenditures for   Date of   Costs for Remedial Obligated through    Expended        Balance at    Funding
    Region State         Site Name                           Region       Funding Decision       HQ RA AOA*            Obligation Special Accounts Obligation        Contracts   Obligation       columns)     Remedial Action** Expenditure      Action***          9/30/03      through 9/30/03     9/30/03       (Y/N)       Notes
      8    MT    Libby Asbestos Site                       $21,100,000         17,600,000            1,000,000            12/18/02                                                                                                                                                                                     N          7
                                                                                                       550,000            04/01/03
                                                                                                       600,000            04/17/03
                                                                                                     1,000,000            05/22/03
                                                                                                       500,000            06/12/03
                                                                                                     1,400,000            06/16/03
                                                                                                       580,011            07/09/03
                                                                                                     2,700,000            07/14/03
                                                                                                     2,100,000            07/23/03
                                                                                                     2,019,990            08/25/03
                                                                                                       419,989            09/10/03
                                                                                                     1,600,000            09/16/03
                                                                                                       900,000            09/19/03
                                                                                                       381,000            09/25/03
                                                                                                     3,627,000            09/30/03
                                                                                                   19,377,990                                                                                       19,377,990

      8        CO       Summitville Mine                              x                                                                       2,900,000   03/12/03                                  2,900,000                                                                                                          Y         8

      8         MT      Upper Tenmile Creek                   5,000,000           3,700,000              450,000           04/30/03              73,963   06/30/03                                                                                    24,363,000                                                       N         9
                                                                                                       3,250,000           05/05/03
                                                                                                       3,700,000                                 73,963                                             3,773,963

      11                TOTAL                                45,975,000         36,175,000           42,611,025                               6,123,963                163,672                     48,898,660        11,360,248                     168,115,294      121,764,048      98,635,088      23,128,960       N

*     includes prior year fund appropriation obligations
**    includes amounts obligated in prior years
*** reflects estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.
           x   OSRTI records do not indicate a Regional request for these sites.

                        Notes:
                    1   The Region did not request FY03 funding as it expected State Superfund Contract funds.
                    2   Non-Time Critical Removal was funded sufficiently, and as RA funding was not need for Cal Gulch in FY 03. Region 8 obtained authority to redirect the funds to Guilt Edge Mine.
                    3   The initial estimate was high, and the amount received was sufficient to keep the work going at the desired pace.
                    4   Received these funds from the ASARCO settlement. This was a contingency request.
                    5   This site was not in R8's initial request, but received funding late in FY 03. There were no expenditures in FY03.
                        The obligation on 9/16/03 was the first Remedial Action Obligation, prior funds expended were in the Removal category.
                    6   The Region does not appear to distinguish between LTRA and RA funding. This site is sufficiently funded as combined funding for the site matches the combined requested amount.
                    7   RPM stated that this site needed $2 million in addition to the estimate that was not requested translating into a shortfall of $3.7 million.
                    8   Region did not request FY03 funding as it expected Special Account funding.
                    9   An impact of the funding shortfall is the overall delay of the project, and the increased time residents live near contamination. FY2003 funding shortfall amount: $1,300,000.

Additional:
One site was listed in the FY02 sheet that is not listed in the FY03 sheet.
Vasquez Boulevard and I-70 - This site received Pipeline funding in FY03.
                                                                                                              Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                  Enclosure 3
                                                                                                                                                                                                                                                                                        Page 20 of 24
                                                                 FY03 Initial
                                               FY03 Amount      Funding Plan        FY03                                                                                Total FY03      Total FY03
                                                  Initially   Amount from HQ      Obligated                                                                          Amount Obligated Expenditures for                                         Total Funds         Total Funds     Unexpended     Sufficient
                                               Requested by    October 2002      Amount From     Date of        Special     Date of      State SF        Date of      (sum of prior 3    Remedial        Date of   Estimated Total Costs for Obligated through      Expended        Balance at    Funding
Region   State            Site Name              Region       Funding Decision   HQ RA AOA*     Obligation     Accounts    Obligation    Contracts      Obligation       columns)         Action**     Expenditure    Remedial Action***          9/30/03        through 9/30/03     9/30/03       (Y/N)       Notes

  9      CA      Del Norte Pesticide Storage              x                                                                                  259,468     07/07/03            259,468                                                                                                                  Y         1

  9      CA Frontier Fertilizer                           x                         500,000       06/09/03                                                                                                                                                                                            Y
                                                                                    218,400       09/26/03
                                                                                      718,400                                                                                 718,400

  9       AZ     Indian Bend Wash Area              135,000            135,000        100,000      12/16/03                                                                                                                     140,000,000        23,213,453                                         Y         2
                                                                                       35,000      06/09/03
                                                                                      135,000                                                                                 135,000

  9      CA      Iron Mountain Mine               5,000,000          5,000,000      2,000,000      02/18/03                                   400,000    05/12/03                                377       10/04/02             990,000,000        53,929,693       38,702,208       15,227,485       Y         3
                                                                                          600      03/14/03                                   100,000    09/16/03                            440,031       10/09/02
                                                                                    2,500,000      09/16/03                                                                                1,544,462       10/21/02
                                                                                                                                                                                                 932       10/30/02
                                                                                                                                                                                           1,214,808       11/18/02
                                                                                                                                                                                                 295       12/16/02
                                                                                                                                                                                             820,847       12/18/02
                                                                                                                                                                                              13,251       01/03/03
                                                                                                                                                                                           1,595,229       01/07/03
                                                                                                                                                                                           1,577,746       01/22/03
                                                                                                                                                                                           1,040,477       02/19/03
                                                                                                                                                                                                 797       02/20/03
                                                                                                                                                                                             917,112       03/19/03
                                                                                                                                                                                             629,464       04/24/03
                                                                                                                                                                                                 869       04/28/03
                                                                                                                                                                                             251,307       04/30/03
                                                                                                                                                                                               1,417       05/15/03
                                                                                                                                                                                             996,150       05/16/03
                                                                                                                                                                                                 653       05/21/03
                                                                                                                                                                                                 796       06/06/03
                                                                                                                                                                                                 730       06/11/03
                                                                                                                                                                                             648,298       06/17/03
                                                                                                                                                                                                 973       07/02/03
                                                                                                                                                                                           1,525,799       07/18/03
                                                                                                                                                                                           1,399,310       08/15/03
                                                                                                                                                                                                 881       08/21/03
                                                                                                                                                                                             235,150       09/15/03
                                                                                                                                                                                             826,804       09/19/03
                                                                                    4,500,600                                                 500,000                       5,000,600     15,684,965

  9      CA      Jibboom Junkyard                         x                                                                                  283,675     07/07/03             283,675                                                                                                                 Y         4

  9      CA      Lorentz Barrel & Drum                    x                                                      450,275      03/31/03                                        450,275                                            7,500,000           3,334,725                                        Y         5

                 Mccormick & Baxter
  9      CA      Creosoting Co.                   2,000,000          2,000,000      2,000,000      03/31/03                                                                 2,000,000            604       12/30/02             36,500,000           5,105,000        1,612,378       3,492,622       Y
                                                                                                                                                                                              10,130       03/04/03
                                                                                                                                                                                             235,672       03/24/03
                                                                                                                                                                                             451,540       03/31/03
                                                                                                                                                                                             390,954       04/21/03
                                                                                                                                                                                               3,350       05/05/03
                                                                                                                                                                                             355,044       05/19/03
                                                                                                                                                                                             168,435       09/08/03
                                                                                    2,000,000                                                                               2,000,000       1,615,729

                 Modesto Ground Water
  9      CA      Contamination                      520,000            520,000        520,000      07/08/03                                   105,000    07/08/03             625,000                                           26,000,000          10,882,569                                        Y         6

                 Newmark Ground Water
  9      CA      Contamination                            x                               250      06/12/03                                                                                                                    109,000,000          54,172,830                                        Y         7
                                                                                       21,637      03/06/03
                                                                                       50,000      02/18/03
                                                                                       71,887                                                                                  71,887

  9              Totals                           7,655,000          7,655,000      7,945,887                    450,275                    1,148,143                       9,544,305      17,300,694                        1,309,000,000         150,638,270       40,314,586      18,720,107       Y
                                                                                                                                   Non-Federal Facility Fund-Financed Remedial Actions - FY03     Enclosure 3
                                                                                                                                                                                                Page 21 of 24
* - includes prior year fund appropriation obligations
** - includes amounts obligated in prior years
*** - reflects estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.


         x   OSRTI records do not indicate a Regional request for these sites.

                     Notes:
                 1   Region did not request FY03 funding as it expected State Superfund Contract funds.
                 2   EPA has reached agreement with the PRP, to pay $129,000,000 for actions at this site; reducing EPA's future participation.
                 3   EPA has reached agreement with the PRP, to pay $872,000,000 for actions at this site; reducing EPA's future participation.
                 4   Region did not request FY03 funding as it expected State Superfund Contract funds.
                 5   Region did not request FY03 funding as it expected Special Account funding.
                 6   Total estimated costs includes annual expenditures of $500,000 for the next 30 years for groundwater monitoring.
                 7   The obligations were to pay for an award claim against EPA and fund an ongoing lawsuit with the Principal Responsible Party.

Additional:
Region 9 - One site was funded in FY02 and not listed on the spreadsheet, San Gabriel Valley
This site appears on the Region 9 LTRA spreadsheet.
                                                                                                                Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                    Enclosure 3
                                                                                                                                                                                                                                                                                             Page 22 of 24
                                                                 FY03 Initial                                                                                    Total FY03
                                                FY03 Amount     Funding Plan                                                                                        Amount         Total FY03                 Estimated Total
                                                  Initially   Amount from HQ FY03 Obligated                                                                     Obligated (sum   Expenditures for                Costs for      Total Funds     Total Funds    Unexpended Sufficient
                                                Requested by   October 2002    Amount From     Date of       Special       Date of     State SF     Date of       of prior 3        Remedial        Date of      Remedial        Obligated    Expended through Balance at  Funding
Region State           Site Name                  Region      Funding Decision HQ RA AOA*     Obligation    Accounts      Obligation   Contracts   Obligation     columns)          Action**      Expenditure    Action***    through 9/30/03     9/30/03        9/30/03    (Y/N)    Notes
  10    ID Bunker Hill Mining & Metallurgical      42,250,000       7,250,000       100,000      11/21/02     1,502,703     09/16/03                                                    437,396      10/04/02     564,324,941    153,651,234      129,298,451   24,352,783    N        1
                                                                                    100,000      12/13/02       269,978     09/17/03                                                       3,550     10/07/02
                                                                                    100,000      05/07/03                                                                                 54,497     10/08/02
                                                                                  5,300,000      09/16/03                                                                                 13,121     10/09/02
                                                                                  7,000,000      09/17/03                                                                                (18,117)    10/11/02
                                                                                    708,538      09/19/03                                                                                  3,550     10/16/02
                                                                                                                                                                                          36,441     10/17/02
                                                                                                                                                                                         (56,402)    10/18/02
                                                                                                                                                                                        230,984      10/21/02
                                                                                                                                                                                         (32,793)    10/22/02
                                                                                                                                                                                        141,596      11/05/02
                                                                                                                                                                                          42,714     11/13/02
                                                                                                                                                                                          82,155     11/14/02
                                                                                                                                                                                         (74,930)    11/19/02
                                                                                                                                                                                          35,578     11/21/02
                                                                                                                                                                                          99,654     11/22/02
                                                                                                                                                                                        123,918      11/25/02
                                                                                                                                                                                             903     12/11/02
                                                                                                                                                                                           3,550     12/20/02
                                                                                                                                                                                           7,784     12/31/02
                                                                                                                                                                                        384,521      01/02/03
                                                                                                                                                                                             610     01/07/03
                                                                                                                                                                                           9,133     01/08/03
                                                                                                                                                                                           1,507     01/09/03
                                                                                                                                                                                          16,694     01/10/03
                                                                                                                                                                                          86,219     01/13/03
                                                                                                                                                                                          26,275     01/14/03
                                                                                                                                                                                           3,550     01/21/03
                                                                                                                                                                                         (25,238)    01/24/03
                                                                                                                                                                                          57,662     01/27/03
                                                                                                                                                                                           9,957     01/29/03
                                                                                                                                                                                             545     02/03/03
                                                                                                                                                                                           8,831     02/07/03
                                                                                                                                                                                        143,781      02/10/03
                                                                                                                                                                                       (132,170)     02/12/03
                                                                                                                                                                                        149,745      02/18/03
                                                                                                                                                                                           3,550     02/24/03
                                                                                                                                                                                        190,305      02/25/03
                                                                                                                                                                                             528     02/26/03
                                                                                                                                                                                             660     03/04/03
                                                                                                                                                                                          31,952     03/10/03
                                                                                                                                                                                             258     03/11/03
                                                                                                                                                                                        103,033      03/12/03
                                                                                                                                                                                             254     03/14/03
                                                                                                                                                                                           1,260     03/17/03
                                                                                                                                                                                           2,214     03/21/03
                                                                                                                                                                                             345     03/26/03
                                                                                                                                                                                          22,683     03/28/03
                                                                                                                                                                                             352     04/01/03
                                                                                                                                                                                             259     04/03/03
                                                                                                                                                                                          88,461     04/11/03
                                                                                                                                                                                        343,790      04/15/03
                                                                                                                                                                                        103,283      04/25/03
                                                                                                                                                                                         (53,980)    04/30/03
                                                                                                                                                                                          24,859     05/02/03
                                                                                                                                                                                          68,031     05/12/03
                                                                                                                                                                                          (4,882)    05/14/03
                                                                                                                                                                                        106,447      05/23/03
                                                                                                                                                                                          92,805     06/06/03
                                                                                                                                                                                        165,933      06/13/03
                                                                                                                                                                                          81,288     06/16/03
                                                                                                                                                                                         (66,658)    06/17/03
                                                                                                                                                                                           1,377     06/18/03
                                                                                                                                                                                             400     06/19/03
                                                                                                                                                                                        137,599      06/26/03
                                                                                                                                                                                        153,033      07/08/03
                                                                                                                                                                                           5,564     07/14/03
                                                                                                                                                                                          69,259     07/17/03
                                                                                                                                                                                        220,954      07/18/03
                                                                                                                                                                                           3,550     07/21/03
                                                                                                                                                                                        144,929      07/23/03
                                                                                                                                                                                             137     07/28/03
                                                                                                                                                                                             590     08/04/03
                                                                                                                  Non-Federal Facility Fund-Financed Remedial Actions - FY03                                                                                                                     Enclosure 3
                                                                                                                                                                                                                                                                                                Page 23 of 24
                                                                   FY03 Initial                                                                                    Total FY03
                                                FY03 Amount       Funding Plan                                                                                        Amount       Total FY03                 Estimated Total
                                                  Initially     Amount from HQ FY03 Obligated                                                                     Obligated (sum Expenditures for                Costs for         Total Funds     Total Funds    Unexpended Sufficient
                                                Requested by     October 2002    Amount From     Date of       Special      Date of     State SF     Date of        of prior 3      Remedial        Date of      Remedial           Obligated    Expended through Balance at Funding
Region State           Site Name                  Region        Funding Decision HQ RA AOA*     Obligation    Accounts     Obligation   Contracts   Obligation      columns)        Action**      Expenditure    Action***       through 9/30/03     9/30/03        9/30/03   (Y/N)     Notes
  10    ID Bunker Hill Mining & Metallurgical                                                                                                                                           298,767      08/06/03
             Continued                                                                                                                                                                  279,110      08/07/03
                                                                                                                                                                                        197,382      08/11/03
                                                                                                                                                                                           3,066     08/12/03
                                                                                                                                                                                          (6,788)    08/13/03
                                                                                                                                                                                           3,550     08/14/03
                                                                                                                                                                                        470,709      08/20/03
                                                                                                                                                                                         48,964      08/26/03
                                                                                                                                                                                         15,643      08/28/03
                                                                                                                                                                                        131,996      08/29/03
                                                                                                                                                                                             399     09/05/03
                                                                                                                                                                                        585,576      09/11/03
                                                                                                                                                                                        317,633      09/12/03
                                                                                                                                                                                          (1,088)    09/15/03
                                                                                                                                                                                         17,257      09/16/03
                                                                                                                                                                                        333,954      09/17/03
                                                                                                                                                                                             251     09/19/03
                                                                                                                                                                                             188     09/24/03
                                                                                                                                                                                        176,133      09/25/03
                                                                                                                                                                                        226,395      09/26/03
                                                                                                                                                                                        121,411      09/29/03
                                                                                                                                                                                             302     09/30/03
                                                                                   13,308,538                  1,772,681                                              15,081,219      7,142,003

  10    WA Frontier Hard Chrome, Inc.               4,000,000        4,000,000        215,743      01/27/03                                                                             280,000      10/04/02        7,049,743       7,049,743       1,951,759     5,097,984     Y       2
                                                                                      124,000      02/03/03                                                                               7,555      12/19/02
                                                                                    2,500,000      02/24/03                                                                              10,391      01/15/03
                                                                                    3,680,000      05/09/03                                                                             215,743      01/27/03
                                                                                                                                                                                         10,567      02/14/03
                                                                                                                                                                                          9,093      03/17/03
                                                                                                                                                                                             36      03/24/03
                                                                                                                                                                                         20,824      04/16/03
                                                                                                                                                                                            145      04/18/03
                                                                                                                                                                                        153,515      05/16/03
                                                                                                                                                                                             36      05/23/03
                                                                                                                                                                                         23,420      06/19/03
                                                                                                                                                                                        108,251      07/15/03
                                                                                                                                                                                             67      07/28/03
                                                                                                                                                                                        321,177      08/13/03
                                                                                                                                                                                        791,329      09/12/03
                                                                                                                                                                                             70      09/29/03
                                                                                    6,519,743                                                                          6,519,743      1,952,219

             McCormick & Baxter Creosoting
  10    OR   Co.                                    5,087,700          498,733        225,000      09/29/03                                                             225,000                                     30,900,000       14,700,000                                  N       3

  10    OR   Northwest Pipe & Casing                4,000,000        4,000,000             10      12/02/02       10,000     03/31/03                                                                                6,103,721        6,103,721                                  Y       4
                                                                                        1,650      04/22/03      450,000     06/16/03
                                                                                           75      04/24/03
                                                                                    2,126,353      06/16/03
                                                                                      237,368      06/17/03
                                                                                          195      08/28/03
                                                                                       59,475      09/08/03
                                                                                          106      09/17/03
                                                                                          123      09/29/03
                                                                                    2,425,355                    460,000                                               2,885,355

  10    WA Pacific Sound Resources                          x                                                  5,650,000     06/02/03                                  5,650,000                                                                                                 Y       5

  10    WA Palermo Well Field                               x                          10,000      11/21/02                                                               10,000                                      784,431          784,431                                   Y       6

  10    WA Wyckoff Co./Eagle Harbor                         x                                                    800,000     02/24/03     500,000      09/16/03                                                    125,412,744       52,912,744                                  Y       7
                                                                                                                  15,000     03/31/03
                                                                                                                 235,000     05/07/03
                                                                                                                 540,744     06/30/03
                                                                                                               1,322,000     09/16/03
                                                                                                               2,912,744                  500,000                      3,412,744

  8          Totals                                55,337,700       15,748,733     22,488,636                 10,795,425                  500,000                     33,784,061      9,094,222                    734,575,580      235,201,873     131,250,210    29,450,768    N
                                                                                                                                     Non-Federal Facility Fund-Financed Remedial Actions - FY03    Enclosure 3
                                                                                                                                                                                                  Page 24 of 24
** - includes amounts obligated in prior years
* - includes prior year fund appropriation obligations
*** - reflects estimated total costs for remedial actions for sites with Records of Decision. Some future costs may be borne by responsible parties.

      x OSRTI records do not indicate a Regional request for these sites.

                NOTES
            1   A new operable unit start at this site was not sufficiently funded. FY2003 funding shortfall amount: $22,729,781.
            2   Site needed more funding than was estimated.
            3   A portion of this site was a new start, however, the Priority Panel did not issue funding. FY2003 funding shortfall amount: $4,727,300.
            4   Site needed less funding than was estimated.
            5   Site received only Special Accounts funding, so it was not included in funding requests.
            6   No funding needs were anticipated, however, $10,000 was needed to settle a contractor dispute.
            7   The region did not submit a request for funding as it expected Special Account and State Superfund Contract funds.

Additional:
All sites funded in FY03 appear in the above schedule.
ENCLOSURE 4 - NON-FEDERAL FACILITY FUND-
FINANCED LONG-TERM RESPONSE ACTIONS -
FY 2003
                                                                           Non-Federal Facility Fund-financed Long-Term Response Actions - FY03                                                                               Enclosure 4
                                                                                                                                                                                                                             Page 1 of 12
                                                                        FY03 Initial Funding
                                                     FY03 Amount         Plan Amount from       FY03 Obligated                                                                                    Total FY03 Amount Sufficient
                                                  Initially Requested    HQ October 2002       Amount From HQ     Date of                          Date of                            Date of      Obligated (sum of Funding
 Region   State              Site Name                 by Region         Funding Decision         RA AOA*        Obligation    Special Accounts   Obligation    State SF Contracts   Obligation    prior 3 columns)   (Y/N)        Notes
   1       MA       Baird & McGuire                                x                                                                                                    300,067       01/30/03                           Y
                                                                                                                                                                        350,000       09/29/03                                       1
                                                                                                                                                                        650,067                           650,067

                    Charles-George Reclamation
   1       MA       Landfill                               310,000                310,000                                                                                                                                Y           2

   1       ME       Eastern Surplus                                x                                                                 1,200,000       06/25/03                                           1,200,000        Y           3

   1       MA       Groveland Wells                        540,000                540,000             540,000       02/25/03                                                                              540,000        Y



   1       NH       Kearsarge Metallurgical Co             300,000                300,000           1,062,612       04/24/03                                                                            1,062,612        Y           4

                    Keefe Environmental
   1       NH       Services                                       x                                                                   350,350       09/09/03                                             350,350        Y           5

   1       NH       Mottolo Pig Farm                          5,000                 5,000               2,120       04/02/03                                               1,200      04/02/03               3,320       Y           6

                    Savage Municipal Water
   1       NH       Supply                                 450,000                450,000                                              500,032       08/27/03                                             500,032        Y           7

   1       MA       Silresim Chemical Corp.                        x                                                                   100,000       03/10/03                                                            Y           8
                                                                                                                                       210,000       06/20/03
                                                                                                                                       310,000                                                            310,000

   9                Totals                               1,605,000              1,605,000           1,604,732                        2,360,382                          651,267                         4,616,381       Y

* - inludes prior year fund appropriation obligations

       x OSRTI records do not indicate a Regional request for these sites.

                    Notes:
                1   No FY03 request due to State Superfund Contract funding. Though received late in the FY, funds were sufficient to complete FY03 activities.
                2   The Regional Project Officer reevaluated the contract needs and determined that funds were not needed this year.
                3   No FY03 request due to Special Account funding.
                4   Additional funds were needed for an optimization project and a five-year review.
                5   No FY03 request due to Special Account funding. Though received late in the FY, funds were sufficient to complete FY03 activities.
                6   Actual funding need was less than anticipated.
                7   Additional funds were needed for an optimization project.
                8   No FY03 request due to Special Account funding.

Additional:
All sites funded in FY02 appear in the above schedule.
                                                                         Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                                                       Enclosure 4
                                                                                                                                                                                                                                   Page 2 of 12
                                                                        FY03 Initial Funding
                                                                         Plan Amount from                                                                                                               Total FY03 Amount Sufficient
                                                  FY03 Amount Initially HQ October 2002 FY03 Obligated Amount    Date of                                                                    Date of      Obligated (sum of Funding
 Region   State              Site Name            Requested by Region Funding Decision       From HQ RA AOA*    Obligation    Special Accounts   Date of Obligation   State SF Contracts   Obligation    prior 3 columns)   (Y/N)      Notes
   2       NJ     Bog Creek Farm                          1,000,000           1,000,000            200,000         04/10/03                                                    100,000      09/25/03                           Y         1
                                                                                                   800,000         09/25/03
                                                                                                 1,000,000                                                                     100,000                        1,100,000

   2       NY     Brewster Well Field                      600,000             600,000             600,000         03/07/03                                                                                     600,000        Y

   2       NY     Circuitron Corp.                         585,000             585,000             585,000         09/11/03                                                                                     585,000        Y         1

   2       NY     Claremont Polychemical                  1,000,000           1,000,000          1,000,000         05/06/03                                                                                   1,000,000        Y


   2       NJ     Garden State Cleaners Co.                450,000             450,000             450,000         05/06/03                                                     50,000      05/06/03            500,000        Y

   2       NJ     Higgins Farm                            1,500,000           1,500,000          1,500,000         04/25/03                                                                                   1,500,000        Y

   2       NJ     Lang Property                           1,170,000           1,170,000          1,040,000         09/08/03                                                    260,000      09/08/03          1,300,000        Y         1

   2       NJ     Lipari Landfill                                 x                                                               4,100,000              02/25/03                                             4,100,000        Y         2

   2       NY     SMS Instruments, Inc.                    350,000             350,000             350,000         01/08/03                                                                                     350,000        Y

   2       NJ     South Jersey Clothing Co.                450,000             450,000             450,000         05/06/03                                                     50,000      05/06/03            500,000        Y

                  Stanton Cleaners Area
   2       NY     Ground Water Cont.                       650,000             650,000             370,000         05/16/03                                                                                                    Y
                                                                                                   280,000         09/17/03
                                                                                                   650,000                                                                                                      650,000

   2       NY     Vestal Water Supply Well                 750,000             750,000             750,000         09/04/03                                                                                     750,000        Y         1


                  Vineland Chemical Co., Inc. -
   2       NJ     Groundwater Operable Unit               4,000,000           4,000,000          3,200,000         06/04/03                                                                                   3,200,000        Y         3

   13             Totals                                12,505,000         12,505,000           11,575,000                        4,100,000                                    460,000                       16,135,000       Y

* - inludes prior year fund appropriation obligations

        x OSRTI records do not indicate a Regional request for these sites.

                  Notes:
                1 Though recevied late in the fiscal year, funds were sufficient for FY03 activities.
                2 No funds requested for FY03 as this site has a $19 million trust fund settlement designated.
                3 The $800,000 difference was diverted to another site. The movement of funds did not affect FY03 activities as the money had been allocated for pump & treat work scheduled for FY04.

Additional:
Two sites received funding in FY02 but did not in FY03. They are Ellis Property and American Thermostat.
Both sites received enough funding in FY02 to continue activities through FY03.
                                                     Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                                    Enclosure 4
                                                                                                                                                                                            Page 3 of 12
                                                 FY03 Amount       FY03 Initial Funding
                                                    Initially       Plan Amount from    FY03 Obligated                                                                  Total FY03 Amount Sufficient
                                                 Requested by       HQ October 2002 Amount From HQ        Date of       Special    Date of     State SF     Date of      Obligated (sum of Funding
Region   State             Site Name               Region           Funding Decision      RA AOA*        Obligation    Accounts   Obligation   Contracts   Obligation    prior 3 columns)   (Y/N)      Notes
                 A.I.W. Frank/Mid-County
  3       PA     Mustang                                 275,000             275,000        150,000         09/29/03                                                             150,000       Y        1

  3       PA     Berks Sand Pit                          200,000             200,000        155,700         07/23/03                              44,300    07/23/03             200,000       Y

  3       PA     Butz Landfill                           200,000             200,000         15,000         11/19/02                                                                           Y
                                                                                            188,000         09/29/03
                                                                                            203,000                                                                              203,000

  3       PA     Croydon TCE                             250,000             250,000        212,983         09/27/03                              37,017    09/27/03             250,000       Y        2

  3       PA     Cryochem, Inc.                          250,000             250,000         47,984         02/03/03                                                                           Y        3
                                                                                            150,000         07/02/03
                                                                                            197,984                                                                              197,984

  3       VA     Greenwood Chemical Co.                  500,000             500,000        240,000         02/25/03                                                                           Y        4
                                                                                            760,000         09/27/03
                                                                                          1,000,000                                                                            1,000,000

  3       PA     Havertown PCP                      1,000,000              1,000,000        400,000         12/20/02                                                                           Y
                                                                                            413,941         04/17/03                             186,059    04/17/03
                                                                                            813,941                                              186,059                       1,000,000

                 Hellertown Manufacturing
  3       PA     Co.                                     260,000             260,000        130,000         12/18/02                                                                           Y
                                                                                            130,000         06/05/03
                                                                                            260,000                                                                              260,000

  3       PA     North Penn - Area 1                      21,000              21,000                                                                                                    0      Y        5

  3       PA     North Penn - Area 6                     550,000             550,000        550,000         09/27/03                                                            550,000        Y        6

  10             Totals                             3,506,000              3,506,000      3,543,608                           0                  267,376                       3,810,984       Y

* - includes prior year fund appropriation obligations
                                                  Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03               Enclosure 4
                                                                                                                                    Page 4 of 12
               Notes:
             1 The RPM lowered the required amount during the year when better information regarding actual costs was obtained.
                 Though funds were received late in the fiscal year, activities were not delayed or interrupted.
             2   Though funds were received late in the fiscal year, activities were not delayed or interrupted.
             3   The RPM lowered the required amount during the year when better information regarding actual costs was obtained.
             4   The RPM asked for additional monies for unplanned construction.
             5   The RPM did to need these planned funds as prior activities have not been completed as yet.
             6   Though funds were received late in the fiscal year, activities were not delayed or interrupted.

Additional:
All sites funded in FY02 appear in the above schedule.
                                                               Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                             Enclosure 4
                                                                                                                                                                                               Page 5 of 12
                                                                           FY03 Initial
                                                                          Funding Plan                                                                                             Total FY03
                                                       FY03 Amount      Amount from HQ FY03 Obligated                                                                           Amount Obligated Sufficient
                                                    Initially Requested October 2002 Amount From HQ      Date of       Special      Date of          State SF      Date of       (sum of prior 3  Funding
Region State         Site Name                           by Region      Funding Decision RA AOA*        Obligation    Accounts     Obligation        Contracts    Obligation        columns)       (Y/N)      Notes
  4     NC Benfield Industries, Inc                                   x                       100,000      09/29/03                                                                       100,000    Y          1

   4       KY       Distler Brickyard                             x                                                        4,000      03/19/03                                             4,000     Y         2

   4       SC       Elmore Waste Disposal                   500,000          500,000         500,000       09/25/03                                                                      500,000     Y         3


   4       NC       FCX, Inc. (Statesville Plant)                 x                                                                              $     300,000       02/03/03            300,000     Y         4


   4       SC       Palmetto Wood Preserving                150,000          150,000         150,000       03/28/03                                                                                  Y         5
                                                                                             175,000       04/17/03
                                                                                             100,000       09/30/03
                                                                                             425,000                                                                                     425,000

   5                Totals                                  650,000          650,000        1,025,000                      4,000                        300,000                        1,329,000     Y

* - inludes prior year fund appropriation obligations

       x OSRTI records do not indicate a Regional request for these sites.

                  Notes:
                1 RPM indicated that no LTRA operating funds were requested thus far in 2003 for Benefiled site. However, RA money was requested for installation of additional extraction wells.
                    The RA money was obligated as LTRA funds, thus they are shown here. Carryover LTRA operating funds were sufficient for 2003 expenses.
                2   RPM indicated that LTRA activities are undertaken by the State on this site under a Fund-Financed State-Lead Cooperative Agreement which currently has sufficient money.
                3   2002 funding was sufficient through 2003 for LTRA operation. This $500,000 obligation will ensure adequate funding through 2006.
                4   No FY03 request due to State Superfund Contract funding.
                5   The $150,000 estimate was inadvertantly entered into CERCLIS, actual LTRA operating costs are in excess of $325,000 per year.
                    The increase in funding was made to cover the actual operating cost of the system.

Additional:
All sites funded in FY02 appear in the above schedule.
                                                            Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                      Enclosure 4
                                                                                                                                                                                     Page 6 of 12


                                                                 FY03 Initial
                                             FY03 Amount        Funding Plan                                                                                          Total FY03
                                                Initially     Amount from HQ       FY03 Obligated                                                                  Amount Obligated Sufficient
                                             Requested by      October 2002      Amount From HQ RA     Date of       Special  Date of     State SF     Date of      (sum of prior 3 Funding
Region State            Site Name              Region         Funding Decision         AOA*           Obligation    Accounts Obligation   Contracts   Obligation       columns)      (Y/N)       Notes

  5     MN Arrowhead Refinery (LR001)              80,000              80,000                                                                                                           Y         1


  5     WI     Better Brite Plating Chrome        175,000             175,000                                                                                                           Y         2

  5     IN     Douglass Road/Uniroyal             200,000             200,000              200,000       06/19/03                                                                       Y         3
                                                                                            75,000       08/20/03
                                                                                            85,000       09/26/03
                                                                                           360,000                                                                         360,000


           MacGillis & Gibbs
  5     MN Co.(LR006)                            1,300,000          1,300,000               245,635      12/26/02                                                                       Y         4
                                                                                            283,365      01/22/03
                                                                                            721,000      08/07/03
                                                                                            300,000      08/20/03
                                                                                            179,000      09/26/03
                                                                                          1,729,000                                                                      1,729,000


  5     WI     Oconomowoc Electroplating          675,000             675,000               71,844       03/24/03                                                                       Y
                                                                                           575,000       09/26/03
                                                                                           646,844                                                                         646,844


  5     WI     Onalaska Municipal Landfill        200,000             200,000                                                                                                           Y         5

               Ott/Story/Cordova Chemical
  5     MI     (LR001)                           3,000,000          3,000,000            2,500,000       07/30/03                                                        2,500,000      Y         6

  5     MI     Peerless Plating (LR001)           375,000             375,000              375,000       12/13/02                                                                       Y
                                                                                           200,000       07/31/03                                                                                 7
                                                                                           575,000                                                                         575,000

  5     WI     Penta Wood Products                500,000             500,000               150,000      04/04/03                                                                       Y         8
                                                                                          1,075,000      08/20/03
                                                                                          1,225,000                                                                      1,225,000
                                                                      Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                        Enclosure 4
                                                                                                                                                                                                 Page 7 of 12


                                                                             FY03 Initial
                                                         FY03 Amount        Funding Plan                                                                                          Total FY03
                                                            Initially     Amount from HQ       FY03 Obligated                                                                  Amount Obligated Sufficient
                                                         Requested by      October 2002      Amount From HQ RA     Date of       Special  Date of     State SF     Date of      (sum of prior 3 Funding
Region State        Site Name                              Region         Funding Decision         AOA*           Obligation    Accounts Obligation   Contracts   Obligation       columns)      (Y/N)       Notes
  5     MI U.S. Aviex (LR001)                                   300,000           300,000                                                                                                           Y          9

   5        MI       Wash King Laundry                         130,000            130,000              130,000       05/27/03                                                          130,000      Y

       11            Totals                                  6,935,000          6,935,000             7,165,844                                                                      7,165,844      Y

* - includes prior year fund appropriation obligations


                     Notes:
                 1   $80,000 was the estimated need to address a site drainage problem. Due to local government involvement in the site, FY03 funding was not needed.
                 2   The requested amount was an estimated need to continue the action, however there was sufficient money in the contract to operate the plant through 2003.
                 3   Actual costs for FY03 activities were greater than estimated.
                 4   Actual costs for FY03 activities were greater than estimated.
                 5   Site was turned over to the state during FY2003 and estimated funding was not needed.
                 6   The contractor at this site is the Corps of Engineers (COE). The difference between the request and the obligation occurred because COE had excess funding from the previous year.
                 7   Actual costs for FY03 activities were greater than estimated.
                 8   Difference between original request and obligated amount is due to increased cost of construction at the site.
                 9   The requested amount was an early estimate for upgrades to the ground water treatment plant, however the upgrades were not necessary this year.

Additional:
There is one site that was funded in FY02 and not in FY03: Long Prairie Ground Water Contamination. It received multi-year funding in FY 02 that was sufficeint for FY03.
                                                               Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                                Enclosure 4
                                                                                                                                                                                                  Page 8 of 12
                                                                        FY03 Initial Funding
                                                     FY03 Amount         Plan Amount from       FY03 Obligated                                                                   Total FY03 Amount    Sufficient
                                                  Initially Requested    HQ October 2002       Amount From HQ     Date of       Special     Date of     State SF     Date of      Obligated (sum of   Funding
 Region   State              Site Name                 by Region         Funding Decision         RA AOA*        Obligation    Accounts    Obligation   Contracts   Obligation    prior 3 columns)     (Y/N)       Notes
   6       LA       American Creosote                      715,000                715,000               41,691      04/22/03                                                                              Y         1
                                                                                                       422,240      08/25/03
                                                                                                       463,931                                                                            463,931

   6       NM Cimarron Mining                              150,000                150,000              100,000      09/23/03                                                              100,000         Y         2

   6       OK       Double Eagle                             62,500                                                               62,500     08/21/03                                      62,500         Y

   6       OK       Fourth Street                          137,500                137,500               62,500      08/21/03                                                               62,500         Y         3

   6       TX       Odessa Chromium                        485,000                                                                                                                                        Y         4

   5                Totals                               1,550,000              1,002,500              626,431                    62,500                                                  688,931         Y

* - includes prior year fund appropriation obligations

                    Notes:
                1   Due to changes in the current contract, funds required for FY03 were reduced.
                2   There is a dispute with the State over the remedy. Actual costs for FY03 activities were less than estimated.
                3   The estimate for this site for FY03 was higher than actual costs for FY03 activities.
                4   Prior to the start of FY03, the Region determined that FY03 activities could be funded through a previous Cooperative Agreement.

Additional:
All sites funded in FY02 appear in the above schedule.
                                                                      Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                                                    Enclosure 4
                                                                                                                                                                                                                             Page 9 of 12
                                                                        FY03 Initial Funding
                                                                         Plan Amount from                                                                                                               Total FY03 Amount     Sufficient
                                                  FY03 Amount Initially HQ October 2002      FY03 Obligated Amount From                         Special                        State SF     Date of      Obligated (sum of    Funding
    Region    State             Site Name         Requested by Region Funding Decision             HQ RA AOA*             Date of Obligation   Accounts   Date of Obligation   Contracts   Obligation    prior 3 columns)      (Y/N)       Notes
      7       NE      10th Street                           650,000              650,000                                                                                                                                          Y         1

      7       KS      57th & N. Broadway                    100,000                                                                                                                                                               Y         2

      7       KS      Ace Services                        1,500,000              927,200                      200,000              02/25/03                                                                                       Y         3
                                                                                                              727,175              03/28/03
                                                                                                              927,175                                                                                            927,175

          3           TOTALS                              2,250,000            1,577,200                      927,175                                                                                            927,175          Y

*    includes prior year fund appropriation obligations

                     Notes:
                   1 FY03 activities for this site were funded through Remedial Action funding.
                   2 Funds from savings on previous contracts were sufficient to cover FY03 site activities.
                   3 Balance of requested amount used and obligated for remedial action. Total FY03 funding for this site was $1,500,000.

Additional:
No sites were funded in FY02.
                                                                Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                                       Enclosure 4
                                                                                                                                                                                                          Page 10 of 12
                                                     FY03 Amount       FY03 Initial Funding
                                                        Initially       Plan Amount from       FY03 Obligated                                                                          Total FY03 Amount Sufficient
                                                     Requested by       HQ October 2002       Amount From HQ     Date of                          Date of     State SF     Date of      Obligated (sum of Funding
    Region    State              Site Name             Region           Funding Decision         RA AOA*        Obligation    Special Accounts   Obligation   Contracts   Obligation    prior 3 columns)   (Y/N)      Notes


      8        CO      Central City, Clear Creek           1,100,000           1,100,000              600,000      03/24/03                                                                     600,000       Y        1


      8       CO       Chemical Sales Co.                          x                                                                 250,000      12/09/02                                     250,000        Y        2


      8        SD      Gilt Edge Mine                      2,450,000           2,450,000             250,000       12/20/02                                                                                   Y        3
                                                                                                     400,000       02/26/03
                                                                                                     300,000       06/03/03
                                                                                                     950,000                                                                                   950,000


      8        CO      Summitville Mine                            x                                                                 384,860      04/14/03                                                    Y        4
                                                                                                                                     315,000      06/05/03
                                                                                                                                     200,000      09/10/03
                                                                                                                                     899,860                                                   899,860

      4                TOTAL                               3,550,000           3,550,000           1,550,000                       1,149,860                                                 2,699,860        Y

*     includes prior year fund appropriation obligations

          x OSRTI records do not indicate a Regional request for these sites.

              Notes:
          1   $500,000 was diverted to Gilt Edge Mine with approval from OSTRI. This action was due to an over estimate of what Central City really required in FY 03.
          2   No funds were requested because this site was funded with Special Accounts.
          3   Region 8 does not appear to distinguish between LTRA and RA funding. This site is sufficiently funded as combined funding for the site matches the combined requested amount.
          4   No funds were requested because this site was funded with Special Accounts.

Additional:
All sites funded in FY02 appear in the above schedule.
                                                       Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                                   Enclosure 4
                                                                                                                                                                                            Page 11 of 12
                                                    FY03 Amount      FY03 Initial Funding
                                                       Initially      Plan Amount from FY03 Obligated                                                                  Total FY03 Amount Sufficient
                                                    Requested by      HQ October 2002     Amount From    Date of       Special    Date of     State SF     Date of      Obligated (sum of Funding
    Region   State            Site Name               Region          Funding Decision    HQ RA AOA*    Obligation    Accounts   Obligation   Contracts   Obligation    prior 3 columns)   (Y/N)      Notes
                     San Gabriel Valley Area 1 -
      9      CA      W.Narrows                         1,200,000            1,200,000                                                                                                         Y        1

                     Newmark Ground Water
      9      CA      Contamination                         500,000           500,000        200,000        03/19/03                                                                           Y        2
                                                                                            249,750        07/09/03
                                                                                            449,750                                                                             449,750

      9      CA      Selma Treating Co.                    500,000           500,000                                                                                                          Y        3

      3              Total                             2,200,000            2,200,000       449,750                                                                             449,750       Y

*     includes prior year fund appropriation obligations

                    Notes:
                  1 RPM had carry over money from prior year, funding was not needed in FY03.
                  2 Additional $50,000 requested was funded through RAC bulk-funded contract in FY 2003.
                  3 Recovered response and oversight costs were sufficient to fund FY03 activities.
                     The sampling and modelling needed for decisionmaking did not progress to the point where
                     R9 was able to make decisions on placement of new extraction wells planned for FY03.
                     The new monitoring wells are now planned for later in FY 2004.

Additional:
One site was funded in 2002 but not in 2003: Fairchild Semiconductor Corp. (CAD95989778). In FY 2003, EPA received $178,183.60 in recovered response and oversight costs.
This money was used in a special account "09M6" to fund site-related costs (i.e., oversight)
instead of relying on Trust Fund money. In FY 2004, EPA anticipates receipt of approximately
$335,000 of recovered response and oversight costs, which will be placed in the special account "09M6".
                                                               Non-Federal Facility Fund-Financed Long-Term Response Actions - FY03                                                                 Enclosure 4
                                                                                                                                                                                                  Page 12 of 12

                                                         FY03 Amount     FY03 Initial Funding
                                                            Initially     Plan Amount from      FY03 Obligated                                                                Total FY03 Amount Sufficient
                                                         Requested by     HQ October 2002        Amount From      Date of       Special     Date of     State SF     Date of   Obligated (sum of Funding
Region State              Site Name                        Region         Funding Decision       HQ RA AOA*      Obligation    Accounts    Obligation   Contracts   Obligation prior 3 columns)   (Y/N)      Notes
                Commencement Bay, South Tacoma
   10    WA     Channel                                      2,000,000             2,000,000               759      03/06/03                                                                759      Y        1


   10    OR     McCormick & Baxter Creosoting Co.             289,383                289,383                                                                                                         Y        2

   10    OR     Northwest Pipe & Casing                       150,000                150,000                                                                                                         Y        2

   3            Totals                                       2,439,383             2,439,383               759                                                                              759      Y

* - includes prior year fund appropriation obligations

                NOTES
              1 Funding not needed in FY 2003 because funding was carried over from FY 2002, $759 was a small award fee.
              2 These two sites were behind schedule and not ready for Long Term Response funding. They both received funding for ongoing remedial actions.

Additional:
All sites funded in FY02 appear in the above schedule.
                                                                                      Enclosure 5
                                                                                      Page 1 of 6


    Summary of Sites Selected for Focused Review by OIG


                                   New Bedford Harbor

Location/Region               New Bedford, Fairhaven, Acushnet, and Dartmouth,
                              Massachusetts/ Region 1

Description of Site           This site, which was added to the NPL in 1983, encompasses two
                              major projects. The first is the construction of a 4.5-acre sediment
                              dewatering and transfer facility. The second project involves the
                              cleanup of the Acushnet River area north of Wood Street due to
                              high levels of PCBs.

FY 2003 Funding Information   Region 1 requested $13.5 million in remedial action funds in
                              FY 2003 and obligated a total of $12.9 million.

OIG Comments on               The RPM characterized FY 2003 funding as sufficient but cautioned
Adequacy of FY 2003 Funding   that site progress will be adversely impacted if the Region’s FY
                              2004 estimate of $15 million for dredging is not provided. FY 2003
                              funding was sufficient.



                                    Vineland Chemical

Location/Region               Vineland, New Jersey / Region 2

Description of Site           Added to the NPL in 1984. This facility manufactured arsenic-based
                              herbicides. Arsenic contaminated the soils, groundwater, and
                              nearby river and lake.

FY 2003 Funding Information   Region 2 requested $10 million in remedial action funds for FY 2003
                              and obligated a total of $8 million.

OIG Comments on               According to the RPM, actual costs were less than anticipated and
Adequacy of FY 2003 Funding   funds were deobligated from this site for use at the Federal
                              Creosote site. Funding was sufficient for FY 2003.
                                                                                     Enclosure 5
                                                                                     Page 2 of 6


                              Welsbach & General Gas Mantle

Location/Region               Camden and Gloucester City, New Jersey / Region 2

Description of Site           Added to the NPL in 1996. Facilities at this site manufactured gas
                              mantles using thorin, a radionuclide that emits gamma radiation
                              during decay.

FY 2003 Funding Information   Region 2 requested $15.7 million in remedial action funds for
                              FY 2003 and obligated $20.5 million.

OIG Comments on               Despite obligating more funds than estimated, the RPM stated that
Adequacy of FY 2003 Funding   funding for this site was not sufficient. The extent of contamination
                              was greater than expected. As a result, work was slowed down
                              during FY 2003 at the primary work site and postponed at other
                              areas. The RPM estimated an additional $7 million was needed for
                              FY 2003. Funding was not sufficient for this site.



                                    American Creosote

Location/Region               Pensacola, Florida / Region 4

Description of Site           This wood treating facility was added to the NPL in 1983. Major
                              contaminants in the soil, sediment, and groundwater included
                              Volatile Organic Compounds and dioxin.

FY 2003 Funding Information   Region 4 initially requested $3 million in remedial action funds for
                              FY 2003 and obligated $300,000.

OIG Comments on               Community disagreement concerning the site’s future use
Adequacy of FY 2003 Funding   prevented planned remedial actions from occurring. Region 4
                              expects to implement remedial action activities in 2004/2005
                              consistent with the future use of the property. The site was not
                              impacted by funding concerns in FY 2003. According to the RPM,
                              the site does not present an immediate danger to human health.
                              FY 2003 funding was sufficient.
                                                                                        Enclosure 5
                                                                                        Page 3 of 6

                                      Coleman-Evans

Location/Region               Whitehouse, Florida / Region 4

Description of Site           This wood preserving facility was added to the NPL in 1983. Soil,
                              sediment, and shallow groundwater in the residential area adjacent
                              to the site was found to be contaminated with dioxin.

FY 2003 Funding Information   Region 4 requested $4.9 million in remedial action funds for
                              FY 2003 and obligated a total of $21 million.

OIG Comments on               The RPM indicated that more funds were needed than originally
Adequacy of FY 2003 Funding   estimated to address a three-fold increase in the volume of
                              contaminated soil and for the settlement of a contract dispute
                              involving $13 million. FY 2003 funding was sufficient for this site.



                                      Tower Chemical

Location/Region               Lake County, Florida / Region 4

Description of Site           This abandoned pesticide manufacturing facility was added to the
                              NPL in 1983. The site is located in a mixed agricultural, industrial,
                              and residential area. High levels of DDT and other contaminants
                              were found at the main facility. Groundwater plumes of pesticides
                              and other organic contaminants exist on site.

FY 2003 Funding Information   Region 4 requested and received $400,000 in remedial funds but
                              the site was not ready for remedial action. Instead, Region 4
                              obligated $500,800 of pipeline funds during FY 2003.

OIG Comments on               The RPM indicated that funding was not a concern at this site for
Adequacy of FY 2003 Funding   FY 2003. Technical problems and characterization of the
                              contaminants must be done before the remedial action can
                              proceed. Work will be funded from State Superfund contract funds.
                              FY 2003 funding was sufficient.



                                    Woolfolk Chemical

Location/Region               Fort Valley, Georgia / Region 4

Description of Site           This facility, which manufactured pesticides, herbicides, and
                              insecticides, was added to the NPL in 1990.

FY 2003 Funding Information   Region 4 requested and obligated $1.3 million in FY 2003.

OIG Comments on               According to the RPM, funds were sufficient to resolve problems
Adequacy of FY 2003 Funding   with the groundwater treatment facility and for determining the
                              extent of the plume to be treated. Delays were due to negotiation
                              and litigation with PRPs and not to lack of funding. FY 2003 funding
                              was sufficient.
                                                                                      Enclosure 5
                                                                                      Page 4 of 6


                                          Velsicol

Location/Region               St. Louis, Michigan / Region 5

Description of Site           From 1936 until 1978, the Velsicol Chemical Corporation produced
                              various chemical compounds. Groundwater, soil, and sediments of
                              the Pine River are contaminated with various chemicals.

FY 2003 Funding Information   Region 5 requested $11 million and obligated $19 million in
                              FY 2003.

OIG Comments on               FY 2003 funding was sufficient for this site.
Adequacy of FY 2003 Funding



                                       Sprague Road

Location/Region               Ector County, Texas / Region 6

Description of Site           Site was added to the NPL in 1997. Past chrome plating operations
                              are potential sources of a groundwater contaminant plume
                              containing chromium. The groundwater serves as a source of
                              drinking water.

FY 2003 Funding Information   Region 6 requested $4 million of remedial action funds for FY 2003
                              and obligated $4.1 million.

OIG Comments on               FY 2003 funding was sufficient.
Adequacy of FY 2003 Funding



                                         Tar Creek

Location/Region               Ottowa County, Oklahoma / Region 6

Description of Site           This site, which represents multiple mining facilities, was added to
                              the NPL in 1983. The primary pollutants are lead, cadmium, and
                              zinc.

FY 2003 Funding Information   For FY 2003, Region 6 requested $5 million and obligated
                              $7.7 million.

OIG Comments on               FY 2003 funding was sufficient.
Adequacy of FY 2003 Funding
                                                                                      Enclosure 5
                                                                                      Page 5 of 6


                                  Upper Ten Mile Creek

Location/Region               Helena, Montana / Region 8

Description of Site           A mining area affected by lead and arsenic contamination. The
                              primary focus of remedial action is the cleanup of waste in close
                              proximity to the water source.

FY 2003 Funding Information   Region 8 requested $ 5million and obligated $3.7 million in FY
                              2003.

OIG Comments on               The RPM indicated additional funds were needed. The additional
Adequacy of FY 2003 Funding   funds could have cleaned up two additional areas, and began the
                              installation of an alternate water supply and treatment system.
                              FY 2003 funding was not sufficient. The RPM further indicated that
                              the Record of Decision, which contains a 10-year time frame for
                              cleanup, was impacted by limited funding. The RPM stated the
                              work could be completed sooner if additional funds were available.



                                           Libby

Location/Region               Libby, Montana / Region 8

Description of Site           This is a large removal action being funded with remedial funds.
                              Primary concern at this site is the cancer risk from exposure to
                              asbestos.

FY 2003 Funding Information   Region 8 obligated $19.4 million during FY 2003.

OIG Comments on               According to the RPM, funding is not sufficient to address all
Adequacy of FY 2003 Funding   operable units and completely characterize site conditions. Work
                              was “scaled back” at this site. Instead of analyzing all the samples
                              collected, EPA analyzed the minimum number to gain an
                              understanding of site conditions. FY 2003 funding was not
                              sufficient at this site.



                                        Indian Bend

Location/Region               Maricopa County, Arizona / Region 9

Description of Site           Site was added to the NPL in 1983. Numerous industrial facilities
                              disposed of industrial solvents directly onto the ground or in dry
                              wells contaminating the soil and groundwater

FY 2003 Funding Information   Region 9 requested and obligated $135,000 in FY 2003.

OIG Comments on               Majority of costs will be borne by the PRP. The PRP has signed a
Adequacy of FY 2003 Funding   Consent Decree to pay $129 million of the $140 million estimated
                              costs. FY 2003 funding was sufficient.
                                                                                   Enclosure 5
                                                                                   Page 6 of 6


                                    Iron Mountain Mine

Location/Region               Shasta County, California / Region 9

Description of Site           Site was added to the NPL in 1983. Mine runoff has contaminated
                              nearby water bodies with heavy metals.

FY 2003 Funding Information   Region 9 requested and obligated $5 million in FY 2003.

OIG Comments on               PRP has signed Consent Decree to pay $862 million of the total
Adequacy of FY 2003 Funding   estimated costs of $880 million. Remedial action work is almost
                              complete. FY 2003 funding was sufficient.



                                        Bunker Hill

Location/Region               Northern Idaho / Region 10

Description of Site           This abandoned lead zinc mine and smelter in Kellogg, Idaho was
                              added to the NPL in 1983. Major contaminants in the soil,
                              sediment, and water include lead, mercury, zinc, antimony, and
                              arsenic cadmium. The site includes a 21-square-mile area called
                              “The Box” and the downstream area called “The Basin.”

FY 2003 Funding Information   Requested $42,250,000 in remedial action funds and obligated
                              $15,081,219.

OIG Comments on               According to the RPM, funding at a reduced level ($15 million)
Adequacy of FY 2003 Funding   delays the cleanup significantly. Compared to full funding, the lower
                              funding level adds one additional year for cleanup of Box properties,
                              four additional years for cleanup of Basin properties, seven
                              additional years for cleanup of recreation areas, and a
                              postponement of ecological projects until 2007. FY 2003 funding
                              was not sufficient.
                                                                                       Enclosure 6
                                                                                       Page 1 of 3


                 OIG Response to Attachment Question 1

Question 1 - According to reports in the trade press, the Superfund program director, Mike
Cook, informed the NACEPT Committee that the shortfall in Superfund funding would exceed
$200 million in FY 2002 and continue to grow in future years. Your October 25, 2002, report
identified seven NPL sites where funding shortfalls totaling $91.8 million prevented cleanups
from beginning and an additional shortfall of $17 million for long-term response actions. The
report also identified four sites that received partial funding but had a shortfall from the needed
amount.

Can you reconcile the difference between Mr. Cook’s projection and your findings in the
October 25, 2002, report? Does the fact that some sites received only partial funding for
remedial actions or the fact that your report did not cover funding for remedial design or remedial
investigation and feasibility studies account for some or all of the differential?

OIG Response - According to Mike Cook, Director of the Office of Site Remediation and
Technology Innovation (OSRTI), the difference was due to the universe of projects being
discussed. He described his reference to a “$200 million shortfall” as a “planning estimate”
which included (1) FY 2002 funding needs for the seven sites cited in the OIG’s October 25,
2002, letter; (2) FY 2003 and FY 2004 funding needs for those projects where the FY 2002 need
represented only the initial increment of funding; and (3) construction projects at other NPL sites
that were initially considered for funding during FY 2002 but experienced schedule delays and
subsequently were not ready to proceed by the end of FY 2002. Neither Mr. Cook’s estimate of
the funding shortfall nor the OIG’s October 2002 letter discussed funding shortfalls for remedial
design or remedial investigations and feasibility studies.

An OSRTI official indicated that OSRTI did not prepare detailed support for Mr. Cook’s
estimate at the time. In response to our questions, the OSRTI official provided the following
information as a “rough frame of reference” for the estimate. We added information on the
amount obligated during FY 2003 to provide understanding on the extent to which site needs
were addressed in FY 2003.
                                                                            Enclosure 6
                                                                            Page 2 of 3

                                                            OSRTI Cost    Amount Obligated
                              Site Name                      Estimate       in FY 2003
                            (Region/State)                   (millions)      (millions)

 Sites Reported by OIG That Did Not Receive Any FY 2002 Funding
     Atlas Tack - Phase 1 (Region 1- Massachusetts)               $13           $0.0
     Elizabeth Mine (Region 1 - Vermont)                           15            0.0
     Jennison Wright (Region 5 - Illinois)                         10            0.0
     Continental Steel (Region 5 - Indiana)                        28            0.0
     Central Wood (Region 6 - Louisiana)                            9            7.2
     Hart Creosoting (Region 6 - Texas)                            10            0.0
     Jasper Creosoting (Region 6 - Texas)                           6            0.0

 Sites Needing Additional Funding in FY 2003/2004
     Chemical Insecticide (Region 2 - New Jersey)                 $20           $7.3

     American Creosote (Region 4 - Florida)                         3            0.3
     Alaric (Region 4 - Florida)                                    2            1.7
     Solitron (Region 4 - Florida)                                  2            0.5
     Trans Circuits (Region 4 - Florida)                            1            1.0
     Aircraft Components (Region 5 - Michigan)                      4            4.3
     Hudson Oil (Region 6 - Oklahoma)                               5            4.8
     Sprague Road (Region 6 - Texas)                                4            4.2
     10th Street (Region 7 - Nebraska)                              1            1.2
     Upper Ten Mile Creek (Region 8 - Montana)                      4            3.8
     Basin Mining (Region 8 - Montana)                              3            2.6
     Frontier Hard Chrome (Region 10 - Washington)                  4            6.5
 FY 2002 Sites Not Ready for Construction
     Vasquez Boulevard/VB I-70 (Region 8 - Colorado)              $16          $0.0*
     Davenport & Flagstaff (Region 8 - Utah)                        9           0.0*
     Roebling Steel (Region 2 - New Jersey)                        12            4.3
     Eureka Mills (Region 8 - Utah)                                28            7.2
     Atlas Tack - Phase 2 (Region 1 - Massachusetts)                5            0.0

 Total Estimated Needs                                            $214         $56.9

* These sites received pipeline funding in FY 2003
                                                                                    Enclosure 6
                                                                                    Page 3 of 3


According to an OSRTI official, the second group of sites above – Sites Needing Additional
Funding in FY 2003/2004 – represent remedial construction projects started in FY 2002 that
required additional funding in subsequent years. The cost estimates reflect the regions’ estimate
of need for these projects as reflected in OSRTI’s initial FY 2003 funding decision of
October 30, 2002. According to OSRTI, additional funding for the Chemical Insecticide Site is
planned for FY 2004.

Concerning the sites listed in the FY 2002 Sites Not Ready for Construction category, the OSRTI
official indicated that these five sites were reviewed by the National Risk Based Priority Panel.
The regions subsequently determined that these sites were not ready for remedial funds in
FY 2002. For example, our October 25, 2002, letter indicated that a delay in signing the Record
of Decision for the Vasquez Boulevard site delayed construction.
                                                                                     Enclosure 7



                OIG Response to Attachment Question 2
Question 2 - Please identify each site in FY 2002 where funds were obligated, the date and the
amount of obligation, and each site where funds were actually expended in FY 2002 and the date
and amount of expenditures. Also indicate for each site the amount of obligated funds which
were not expended in FY 2003. Please indicate if each site is on target with the timeline set forth
in the Record of Decision.

OIG Response - The charts on the following pages show the date and amount of obligations for
non-Federal Remedial Action and Long-term Response Action sites considered for funding in
FY 2002. The charts show the amount obligated and the date for FY 2002 obligations as well as
the total expenditures for FY 2002 and the corresponding year of obligation. The information
provided is only for those sites identified in our October 25, 2002, letter. OSRTI records show
expenditures for other remedial action and LTRA sites that did not have obligations during
FY 2002.

The OIG has not independently verified the FY 2002 obligation and expenditure information
supplied by OSRTI officials. Information on obligated funds not expended at the end of
FY 2003 for certain sites are in enclosures 1 through 4. The remaining data is included on the
enclosed disk. Information on the sufficiency of FY 2003 site-specific funding is presented on
pages 4 through 10 of this letter.
ENCLOSURE 7 - OBLIGATION AND EXPENDITURE
INFORMATION FOR REMEDIAL ACTION AND LTRA
SITES INCLUDED IN OIG'S OCTOBER 25, 2002 LETTER
                                                                                                                                              Enclosure 7
                                                                                                                                              Page 2 of 21

                         Region 1 - Non-Federal NPL Remedial Action Site Funding



                                                                                                                                                 Total FY02
                                                          FY02 Obligated                                                                      Amount Obligated            Total FY02
                                                           Amount from                     Special                   State SF                   (sum of prior          Expenditures ****
RG ST       EPA ID      Site Name                          HQ RA AOA**         Date       Accounts        Date       Contracts     Date          3 columns)        Amount     Year of Obligation

1   MA MAD980731335 New Bedford Site                            $6,441,026 09/27/2002       $396,900    02/12/2002    $200,000   03/25/2002            7,037,926
                                                                   100,000 09/27/2002       9,796,493   03/25/2002                                     9,896,493
                                                                                            2,563,133   07/03/2002                                     2,563,133
                                                                                              310,659   07/25/2002                                       310,659
                                                                                            1,100,000   09/19/2002                                     1,100,000
                                                                                            1,100,000   09/27/2002                                     1,100,000
1   ME MED980915474 Eastland Woolen Mill                         5,000,000   03/12/2002             0                        0                         5,000,000
1   NH NHD990717647 Ottati & Goss/Kingston Steel Drum            1,000,000   01/03/2002       554,005   04/09/2002           0                         1,554,005     $9,925,032           2000
                                                                 2,700,000   02/12/2002                                                                2,700,000      5,440,089           2002
                                                                 4,600,000   04/09/2002                                                                4,600,000
1   ME MED981073711 Eastern Surplus                                      0                   900,000    05/15/2002           0                           900,000
                                                                                             900,000    09/17/2002                                       900,000

                                               TOTALS          $19,841,026                $17,621,190                 $200,000                      $37,662,216    $15,365,121

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                          Enclosure 7
                                                                                                                                          Page 3 of 21

                          Region 2 - Non-Federal NPL Remedial Action Site Funding



                                                                                                                                             Total FY02
                                                                 FY02 Obligated                                                           Amount Obligated           Total FY02
                                                                  Amount from                     Special    State SF                       (sum of prior         Expenditures ****
RG ST        EPA ID      Site Name                                HQ RA AOA**         Date       Accounts    Contracts         Date          3 columns)        Amount        Year of Obligation

2   NJ   NJD980504997    Burnt Fly Bog                                $20,111,271   09/30/2002          $0           $0                         $20,111,271           $2,869            1990
2   NJ   NJD980484653    Chemical Insecticide Corp.                    19,092,897   09/30/2002           0            0                          19,092,897            7,442            1991
2   NJ   NJD094966611    Combe Fill South Landfill                      1,150,000   09/30/2002           0            0                           1,150,000        3,621,111            1990
2   NJ   NJ0001900281    Federal Creosote                               7,600,000   02/12/2002           0    2,000,000      02/12/2002           9,600,000        $526,069             1999
                                                                       13,400,000   04/25/2002                  774,000      09/25/2002          14,174,000       12,700,662            2000
                                                                        9,970,000   09/25/2002                3,096,000      09/30/2002          13,066,000       21,564,107            2001
                                                                           30,000   09/27/2002                                                       30,000        2,690,074            2002
                                                                        5,548,872   09/30/2002                                                    5,548,872
2   NJ   NJD980785646     Glen Ridge Radium Site                        8,250,000   09/25/2002           0    1,750,000      09/25/2002          10,000,000        3,720,735            2000
2   NJ   NJD980654164     Montgomery Township Housing Dev.              2,000,000   09/30/2002           0            0                           2,000,000
2   NJ   NJD980654156     Rocky Hill Municipal Well                     2,000,000   09/30/2002           0            0                           2,000,000
2   NJ   NJD073732257     Roebling Steel Co.                            2,400,000   04/01/2002           0            0                           2,400,000        2,253,101            2000
                                                                        1,300,000   09/30/2002                                                    1,300,000        2,486,301            2001
                                                                                                                                                                   1,376,642            2002
2   NJ   NJD980654172 U.S. Radium Corp.                                 3,000,000 07/23/2002             0    1,840,000      09/30/2002            4,840,000         111,944            1997
                                                                        3,160,000 09/30/2002                                                       3,160,000         756,195            1998
                                                                                                                                                                   1,589,706            2000
                                                                                                                                                                   7,506,080            2001
2   NJ   NJD002385664 Vineland Chemical Co., Inc.                       9,200,000 04/10/2002            0       800,000      04/10/2002           10,000,000       2,192,190            1999
                                                                                                                                                                     446,761            2000
                                                                                                                                                                     268,182            2001
2   NJ   NJD986620995 Welsbach & Gen. Gas Mantle (Camden)               7,000,000 07/15/2002             0               0                         7,000,000          16,624            2000
                                                                                                                                                                   3,848,683            2001
2   NY NYD981566417 GCL Tie & Treating Inc.                             2,520,000 09/03/2002             0      480,000      09/03/2002            3,000,000          14,661            2000
2   NY NYD986882660 Li Tungsten Corp.                                   1,000,000 05/06/2002             0            0                            1,000,000           9,616            2000
                                                                        1,500,000 05/20/2002                                                       1,500,000         539,777            2002
2   NY NY0001233634 Little Valley                                               0                       0       114,000      07/16/2002              114,000          18,735            2000
                                                                                                                                                                      16,705            2001
2   NY NYD986950012 Mohonk Road Industrial Plant                          250,000 09/30/2002             0               0                          250,000          181,002            2000
                                                                                                                                                                     173,006            2001
2   NY NYD980528657 Olean Well Field                                    1,400,000 09/30/2002             0               0                         1,400,000           3,916            1998
2   NY NYD047650197 Stanton Cleaners Area Ground Water                    330,000 09/30/2002             0               0                           330,000          48,533            2000
                                                                                                                                                                     228,680            2001
2   NY NYD980763767 Vestal Water Supply Well 1-1                        1,286,800 09/06/2002             0               0                         1,286,800             467            1990
                                                                                                                                                                         490            1991
2   VI   VID982272569 Tutu Wellfield                                    5,600,000 09/23/2002             0               0                         5,600,000

                                                       TOTALS       $129,099,840                        $0 $10,854,000                         $139,953,840      $68,921,066

         **includes prior year fund appropriation obligations

         ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                            Enclosure 7
                                                                                                            Page 4 of 21

                         Region 3 - Non-Federal NPL Remedial Action Site Funding

                                                                                                             Total FY02
                                                  FY02 Obligated                                          Amount Obligated               Total FY02
                                                   Amount from                        Special   State SF    (sum of prior             Expenditures ****
RG ST       EPA ID      Site Name                  HQ RA AOA**            Date       Accounts   Contracts    3 columns)             Amount      Year of Obligation

3   PA PAD980538649 Berkley Products                      $257,187      03/22/2002         $0          $0            $257,187         $912,106            2001
                                                            $4,741      05/03/2002          0           0              $4,741
3   PA PAD980691794 Berks Sand Pit                          23,000      08/12/2002          0           0              23,000          219,798            2000
                                                            43,169      09/16/2002          0           0              43,169
3   PA PAD002338010 Havertown                              300,000      02/15/2002          0           0             300,000          132,028            1999
                                                            80,038      09/13/2002          0           0                ERR           237,690            2000
                                                                                                                                     1,337,320            2001
3   PA PAD980829527 Walsh LF                                   35,000   03/29/2002          0          0                   35,000       19,565            1995
                                                                                                                                        15,805            2000
                                                                                                                                         6,075            2002
3   VA VAD003117389 Saunders Supply                        114,550      09/20/2002          0          0              114,550          318,704            1996
                                                                                                                                        40,359            1999
                                                                                                                                           100            2000

                                        TOTALS            $857,685                         $0          $0            $857,685       $3,239,550

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                                 Enclosure 7
                                                                                                                                                 Page 5 of 21

                          Region 4 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                                    Total FY02
                                                                FY02 Obligated                                                                   Amount Obligated              Total FY02
                                                                 Amount from                     Special               State SF                    (sum of prior            Expenditures ****
RG ST        EPA ID      Site Name                               HQ RA AOA**         Date       Accounts     Date      Contracts      Date          3 columns)           Amount     Year of Obligation

4   FL   FLD012978862 Alaric Area Groundwater                         $200,000 09/27/2002               $0                    $0                          $200,000
4   FL   FLD008161994 American Creosote Works (Pensacola)             2,471,708 09/30/2002               0               228,292    09/30/2002            2,700,000            7,500             1997
                                                                                                                                                                             371,852             1999
4   FL   FLD991279894 Coleman-Evans Wood Preserving Co.               4,500,000 03/19/2002              0               2,246,302   09/27/2002            6,746,302        3,745,448             1999
                                                                        253,698 09/27/2002                                                                  253,698        7,903,395             2000
                                                                                                                                                                           3,604,888             2001
4   FL   FLD004119681 Hollingsworth Solderless Terminal                  50,000 02/21/2002              0                      0                                50,000       173,009             2001
                                                                                                                                                                              40,169             2002
4   FL   FLD045459526     Solitron Microwave                            268,227    09/30/2002           0                      0                           268,227
4   FL   FL0001209840     Southern Solvents, Inc.                       532,542    09/25/2002           0                      0                           532,542
4   FL   FLD004065546     Tower Chemical Co.                            100,000    09/27/2002           0                      0                           100,000
4   FL   FLD091471904     Trans Circuits, Inc.                          442,846    09/27/2002           0                      0                           442,846
4   GA   GAD003269578     Woolfolk Chemical Works                       300,000    09/28/2002           0                      0                           300,000
4   NC   NCD024644494     ABC One Hour Cleaners                         300,000    09/06/2002           0                      0                           300,000           569,086             1996
                                                                                                                                                                              20,789             1998
                                                                                                                                                                             238,678             1999
4   NC NCD003188828 Cape Fear Wood Preserving                            10,000 08/27/2002               0               250,000    09/24/2002             260,000            98,498             1994
                                                                                                                                                                           1,030,512             2001
                                                                                                                                                                               6,330             2002
4   NC NCD003188844 Carolina Transformer Co.                            500,000    02/08/2002           0                266,559    09/30/2002              766,559        1,897,669             1997
                                                                      1,500,000    02/08/2002                                                             1,500,000        1,309,145             1999
                                                                      2,276,287    09/30/2002                                                             2,276,287        1,889,550             2001
                                                                        300,000    08/16/2002                                                               300,000
                                                                        200,000    08/16/2002                                                               200,000
                                                                         57,154    09/30/2002                                                                57,154
4   SC SCD980839542 Elmore Waste Disposal                                 1,351    04/09/2002           0                      0                              1,351         273,589              2000
                                                                                                                                                                             33,441              2001
4   TN TND096070396 Ross Metals Inc                                      50,000 05/06/2002               0                     0                             50,000           2,605              1999
                                                                        175,000 09/04/2002                                                                  175,000             243              2000
                                                                      2,825,000 08/05/2002                                                                2,825,000         494,404              2001
                                                                                                                                                                              8,077              2002
4   TN TND980844781 Wrigley Charcoal Plant                                     0                   12,801 09/30/2002           0                                12,801

                                                     TOTALS         $17,313,813                   $12,801              $2,991,153                      $20,317,767       $23,718,877

         **includes prior year fund appropriation obligations

         ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                      Enclosure 7
                                                                                                                                      Page 6 of 21

                          Region 5 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                        Total FY02
                                                                    FY02 Obligated                                                   Amount Obligated                     Total FY02
                                                                     Amount from                     Special               State SF    (sum of prior                  Expenditures ****
RG ST        EPA ID      Site Name                                   HQ RA AOA**         Date       Accounts     Date      Contracts    3 columns)         Notes   Amount       Year of Obligation

5   MI   INDOO1213503 Continental Steel Corporation                               $0                      $0                     $0                   $0     (1)
5   MI   MID980476907 Parsons Chemical                                       390,921   09/17/2002          0                      0              390,921
5   MI   MI0001119106 Aircraft Components (D & L Sales)                    1,500,000   09/25/2002          0                      0            1,500,000
5   MI   MID000722439 Velsicol Chemical Corp (Michigan)                      928,000   12/04/2001          0                      0              928,000              4,511,539              1999
                                                                           3,458,446   01/02/2002                                              3,458,446                810,536              2000
                                                                           3,200,000   01/02/2002                                              3,200,000              2,573,082              2001
                                                                           5,613,554   05/03/2002                                              5,613,554              4,307,294              2002
                                                                             338,812   09/27/2002                                                338,812
                                                                             796,326   09/27/2002                                                796,326
                                                                           2,299,305   09/27/2002                                              2,299,305
                                                                              10,000   09/27/2002                                                 10,000
                                                                             147,250   09/27/2002                                                147,250
5   MI   MID006030373 BOFORS NOBEL, INC.                                           0                  643,096 05/09/2002          0              643,096
                                                                                                      170,622 07/01/2002                         170,622
5   MI   MID985574227 Lower Ecorse Creek Dump                                 24,526   08/23/2002           0                     0               24,526
                                                                              25,000   08/23/2002                                                 25,000
5   MI   MID006031348 Peerless Plating                                        41,350   02/04/2002          0                      0               41,350                91,944               1996
                                                                              20,000   09/19/2002                                                 20,000               449,005               2001
5   MI   MID980794556 U.S. Aviex                                              20,850   09/17/2002          0                      0               20,850               124,395               1999
                                                                             350,000   09/17/2002                                                350,000
5 MN MND006192694 MacGillis & Gibbs/Bell Lumber & Pole Co                     50,200   06/17/2002          0                      0               50,200                 10,000              1994
                                                                             198,050   07/17/2002                                                198,050              1,566,574              1995
                                                                              70,000   09/25/2002                                                 70,000                105,425              2000
                                                                                                                                                                         91,938              2001

                                                         TOTALS          $19,482,590                 $813,718                    $0         $20,296,308            $14,641,732

         **includes prior year fund appropriation obligations

         ****The amounts in this column do not relate to the obligation information on the same line.

         Notes Provided by Regional Officials:

               (1)        Region 5 obligated $50,000 for site security on 01/07/02.
                                                                                                                                     Enclosure 7
                                                                                                                                     Page 7 of 21

                          Region 6 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                        Total FY02
                                                                FY02 Obligated                                                       Amount Obligated                         Total FY02
                                                                 Amount from                    Special      State SF                  (sum of prior                       Expenditures ****
RG ST        EPA ID      Site Name                               HQ RA AOA**         Date      Accounts      Contracts     Date         3 columns)    Notes              Amount Year of Obligation

6   AR   ARD980745665     Midland Products                             $300,000   09/09/2002            $0          $0                         $300,000                   $159,104            2001
6   LA   LAD052510344     Delatte Metals                             14,000,000   09/27/2002             0           0                       14,000,000
6   LA   LAD000239814     American Creosote Works, Inc.                 155,708   09/18/2002             0           0                          155,708     (1)
6   OK   OKD082471988     Hudson Refinery                             3,000,000   09/19/2002             0           0                        3,000,000
6   OK   OKD980629844     Tar Creek (Ottawa County)                   5,000,000   09/23/2002             0   1,660,042 09/23/2002             6,660,042                      58,487           1997
                                                                                                                                                                              3,652           1998
                                                                                                                                                                            393,847           1999
                                                                                                                                                                          5,641,085           2000
                                                                                                                                                                          4,688,079           2001
                                                                                                                                                                                210           2002
6   TX   TX0001399435 City of Perryton Well No. 2                     2,000,000 09/24/2002               0           0                        2,000,000                     384,582           2000
                                                                                                                                                                            212,879           2001
6   TX TXD980514996 Highlands Acid Pit                                   12,769 06/24/2002               0           0                           12,769                      10,358           1999
                                                                         62,231 09/24/2002                                                       62,231                      24,994           2001
6   TX   TX0001407444 Sprague Road Ground Water Plume                 4,000,000 08/27/2002               0           0                        4,000,000

                                                    TOTALS          $28,530,708                         $0 $1,660,042                       $30,190,750                 $11,577,277

         **includes prior year fund appropriation obligations

         ****The amounts in this column do not relate to the obligation information on the same line.

         Notes Provided by Regional Officials:

               (1)        The new amount reflects updated information received from Region 6. Region 6 made a typographical error on an earlier remedial action table
                          provided to the OIG. The OIG previously reported in its 10/25/02 letter to the Senate Committee on Environment and Public Works
                          that Region 6 obligated $115,708 for the American Creosote site. The correct figure is $155,708.
                                                                                                                                             Enclosure 7
                                                                                                                                             Page 8 of 21

                         Region 7 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                                Total FY02
                                                               FY02 Obligated                                                                Amount Obligated                 Total FY02
                                                                Amount from                    Special                State SF                 (sum of prior               Expenditures ****
RG ST       EPA ID      Site Name                               HQ RA AOA**         Date      Accounts        Date    Contracts    Date         3 columns)    Notes     Amount     Year of Obligation

7   KS KSD981710247 57th and North Broadway St. Site                         $0                          $0            $140,000 06/06/2002            $140,000            $388,775              2000
                                                                                                                                                                           308,845              2001
7   KS KSD046746731 Ace Services                                     1,000,000 01/10/2002                                                             1,000,000          1,147,344              2001
                                                                     2,000,000 04/18/2002                 0             482,769 04/18/2002            2,482,769
                                                                     2,200,000 09/18/2002                                                             2,200,000   (1)
7   KS KSD980741862 Cherokee County                                          0                     1,299 02/05/2002           0                           1,299            352,977              1998
7   MO MOD980686281 Oronogo Mining Belt                                      0                   245,807 09/27/2002           0                         245,807            145,199              1997
                                                                                                                                                                           152,629              1998
                                                                                                                                                                         1,117,259              1999
7   NE NED981713837 10th Street Site                                 1,700,000 09/25/2002                0                    0                       1,700,000   (2)

                                                   TOTALS           $6,900,000                 $247,106                $622,769                      $7,769,875         $3,613,028

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.

        Notes Provided by Regional Officials:

              (1)        Includes $750,000 obligated under the TC code (recertified funds) in CERCLIS.

              (2)        Includes $12,500 obligated under the TC code (recertified funds) in CERCLIS.
                                                                                                                                     Enclosure 7
                                                                                                                                     Page 9 of 21

                         Region 8 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                         Total FY02
                                                            FY02 Obligated                                                            Amount Obligated                      Total FY02
                                                             Amount from                        Special     State SF                    (sum of prior                    Expenditures ****
RG ST       EPA ID      Site Name                            HQ RA AOA**           Date        Accounts     Contracts       Date         3 columns)    Notes          Amount       Year of Obligation

8   CO COD980716955 Denver Radium Site                            $5,000,000     02/01/2002            $0    $490,000 09/30/2002              $5,490,000                $1,121,605             2001
                                                                  $3,000,000     09/20/2002                                                   $3,000,000
8   CO COD983778432 Summitville Mine                                       0                            0     100,000 01/28/2002                 100,000                 1,640,450             1998
                                                                                                                                                                         2,509,021             1999
                                                                                                                                                                           543,717             2001
8   MT MTD982572562 Basin Mining Area                              1,238,984     07/26/2002             0            0                         1,238,984                    22,741             2002
                                                                      30,000     06/26/2002                                                       30,000
                                                                      30,000     07/08/2002                                                       30,000
8   MT MTSFN7578012 Upper Tenmile Creek Mining Area                  850,000     08/23/2002             0            0                           850,000
                                                                      50,000     08/14/2002                                                       50,000
                                                                     100,000     09/26/2002                                                      100,000
8   SD SDD987673985 Gilt Edge Mine                                 1,000,000     04/22/2002             0    3,000,000 04/03/2002              4,000,000     (1)         4,362,094             2001
                                                                     300,000     07/16/2002                                                      300,000                    29,407             2002
                                                                     200,000     08/12/2002                                                      200,000
                                                                   1,375,000     08/22/2002                                                    1,375,000
                                                                   5,400,000     04/03/2002                                                    5,400,000
                                                                     500,000     09/25/2002                                                      500,000
                                                                   1,094,802     09/27/2002                                                    1,094,802
                                                                       9,040     09/27/2002                                                        9,040

                                                 TOTALS          $20,177,826                           $0 $3,590,000                         $23,767,826              $10,229,035

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.

        Notes Provided by Regional Officials:

              (1)        The total for remedial action activities at the Gilt Edge site above is $9,878,842, which is $10,689 less than the amount EPA OIG reported
                         in its 10/25/02 letter to the Senate Committee on Environment and Public Works. In the 10/25/02 letter, EPA OIG reported a total of
                          $9,889,531 for the Gilt Edge site. Region 8 informed us that they double-counted a transaction. Because of this difference,
                         the FY02 Obligated Amount from HQ RA AOA is smaller here than previously reported in EPA OIG's 10/25/02 letter to the Senate
                         Environment and Public Works Committee.
                                                                                                                                  Enclosure 7
                                                                                                                                  Page 10 of 21

                           Region 9 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                    Total FY02
                                                                 FY02 Obligated                                                  Amount Obligated            Total FY02
                                                                  Amount from                    Special               State SF    (sum of prior          Expenditures ****
RG   ST       EPA ID       Site Name                              HQ RA AOA**        Date       Accounts      Date     Contracts    3 columns)          Amount Year of Obligation

9    AZ   AZD980695969 Indian Bend Wash Area                           $100,000 01/17/2002               $0                  $0             $100,000     $117,124          2000
9    CA   CAD980498612 Iron Mountain Mine                              1,500,000 01/17/2002               0                   0            1,500,000            48         1996
                                                                                                                                                         6,985,489         2000
                                                                       9,854,049   09/30/2002                                              9,854,049     1,256,892         2001
9    CA   CAD029295706 Lorentz Barrel & Drum CO.                               0                  258,539 02/20/2002          0              258,539
9    CA   CAD009106527 McCormick & Baxter Creosoting Co.               1,100,000   03/27/2002           0                     0            1,100,000
                                                                         305,000   09/17/2002                                                305,000
9    CA   CAD981997752 Modesto Ground Water Contamination                368,000   07/16/2002            0                    0              368,000        49,843         1999
                                                                                                                                                           194,158         2000
                                                                                                                                                           382,921         2001
9    CA   CAD980677355 San Gabriel Valley (Area 1)                       600,000 01/17/2002               0                   0              600,000     6,685,070         2000
                                                                         600,000 07/09/2002                                                  600,000           580         2001
                                                                       1,200,000 09/30/2002                                                1,200,000

                                                        Totals       $14,027,049                 $258,539                    $0         $14,285,588    $15,672,125



          ** - includes prior year fund obligations

          ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                               Enclosure 7
                                                                                                                               Page 11 of 21

                            Region 10 - Non-Federal NPL Remedial Action Site Funding

                                                                                                                                 Total FY02
                                                                          FY02 Obligated                                      Amount Obligated          Total FY02
                                                                           Amount from                    Special   State SF    (sum of prior        Expenditures ****
RG ST          EPA ID       Site Name                                      HQ RA AOA**        Date       Accounts   Contracts    3 columns)        Amount     Year of Obligation

10   ID    IDD048340921     Bunker Hill Mining & Metallurgical                     $2,532   02/27/2002         $0         $0              $2,532    $2,993,234            1998
                                                                               $1,150,000   05/13/2002                                $1,150,000     1,758,803            1999
                                                                                  $39,425   04/10/2002                                   $39,425     1,061,290            2000
                                                                               $3,000,000   06/21/2002                                $3,000,000       958,471            2001
                                                                               $4,700,000   09/25/2002                                $4,700,000         2,350            2002
                                                                               $4,350,000   09/25/2002                                $4,350,000
                                                                                 $450,000   09/27/2002                                  $450,000
10 OR ORD009020603 McCormick & Baxter Creos. Co. (Portland)                     4,000,000   08/09/2002          0          0           4,000,000      277,133             1998
10 WA WAD053614988 Frontier Hard Chrome, Inc.                                     250,000   09/30/2002          0          0             250,000
                                                                                  280,000   09/30/2002                                   280,000
10 WA WAD009248295 Wyckoff Co./Eagle Harbor                                       800,000   02/01/2002          0          0             800,000        10,787            1999
                                                                                3,800,000   05/13/2002                                 3,800,000       149,784            2000
                                                                                                                                                     4,773,785            2001
                                                                                                                                                       627,801            2002
10 WA WAD0000026534 Palermo Well Field Ground Water Contamin                         826    02/01/2002          0          0                 826        25,478            2000
                                                                                  22,099    04/10/2002                                    22,099        87,896            2001
                                                                                   1,819    08/20/2002                                     1,819         2,205            2002
                                                                                     822    08/20/2002                                       822
                                                                                  96,446    09/27/2002                                    96,446

                                                                 TOTALS       $22,943,969                      $0         $0         $22,943,969   $12,729,017

          **includes prior year fund appropriation obligations

          ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                                      Enclosure 7
                                                                                                                                                      Page 12 of 21

                        Region 1 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                                         Total FY02            Total FY02
                                                                        FY02 Obligated                                                                Amount Obligated       Expenditures ****
                                                                         Amount from                    Special               State SF                  (sum of prior                 (Year of
RG ST       EPA ID      Site Name                                        HQ RA AOA**         Date      Accounts     Date      Contracts    Date          3 columns)         Amount Obligation)

1   MA MAD003809266 Charles-George Reclamation Trust Landfill                        $0                      $0                 $47,939 08/06/2002              $47,939       46,476    1999
                                                                                                                                                                              26,106    2000

1   MA MAD0001041987 Baird & McGuire                                            200,170 09/27/2002            0                3,500,000 08/19/2002            3,700,170      103,584   1999
                                                                                                                                                                            1,937,000   2000

1   MA MAD980732317 Groveland Wells                                                      0                    0                 400,000 07/01/2002              400,000      454,382    2001

1   MA MAD000192393 Silresim Chemical Corp.                                              0               600,000 03/25/2002           0                         600,000
                                                                                                         150,000 07/03/2002                                     150,000

1   NH NHD062002001 Kearsarge Metallurgical Corporation                         340,349 07/26/2002            0                 137,423 07/26/2002              477,772      147,497    2000
                                                                                                                                                                              90,619    2001

1   NH NHD980503361 Mottolo Pig Farm                                                     0                    0                  21,537 09/26/2002               21,537       15,973    1997
                                                                                                                                                                             102,352    2001

                                                               TOTALS          $540,519                 $750,000              $4,106,899                     $5,397,418    $2,923,989

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                     Enclosure 7
                                                                                                                                     Page 13 of 21

                        Region 2 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                                    Total FY02          Total FY02
                                                                  FY02 Obligated                                                                 Amount Obligated     Expenditures ****
                                                                   Amount from                     Special               State SF                  (sum of prior               (Year of
RG ST       EPA ID      Site Name                                  HQ RA AOA**          Date      Accounts    Date       Contracts      Date        3 columns)       Amount Obligation)

2   NJ NJD063157150 Bog Creek Farm                                        $500,000 09/27/2002           $0                $200,000 09/27/2002            $700,000     147,654    1998

2   NJ NJD980529085 Ellis Property                                        2,699,790 09/30/2002           0                       0                      2,699,790     133,757    1997

2   NJ NJD053280160 Garden State Cleaners                                  450,000 09/26/2002            0                  50,000 09/26/2002             500,000       4,664    2001

2   NJ NJD981490261 Higgins Farm                                           900,000 03/26/2002            0                       0                        900,000     385,251    2001

2   NJ NJD980505416 Lipari Landfill                                                0              4,500,000 01/09/2002           0                      4,500,000
                                                                                                    200,000 01/11/2002                                    200,000
                                                                                                    750,000 06/12/2002                                    750,000

2   NJ NJD980766828 South Jersey Clothing Co.                              450,000 09/26/2002            0                  50,000 09/26/2002             500,000

2   NJ NJD002385664 Vineland Chemical Co., Inc.                           4,000,000 04/08/2002           0                       0                      4,000,000    3,512,885   2001

2   NY NYD002066330 American Thermostat Co.                               1,500,000 09/24/2002           0                       0                      1,500,000     604,357    2000

2   NY NYD980652275 Brewster Wellfield                                     676,000 02/27/2002            0                  24,000 02/27/2002             700,000     429,842    2000
                                                                           174,000 09/30/2002                                                             174,000       3,832    2002

2   NY NYD981184229 Circuitron Corp.                                       390,000 09/27/2002            0                 160,000 09/27/2002             550,000     207,055    2001

2   NY NYD002044584 Claremont Polychemical                                 580,000 05/13/2002            0                       0                        580,000     439,812    2001
                                                                           420,000 09/30/2002                                                             420,000     301,196    2002



2   NY NYD986950012 Mohonk Road Industrial Plant                           350,000 09/30/2002            0                       0                        350,000     353,355    2001

2   NY NYD001533165 SMS Instruments, Inc.                                  200,000 01/24/2002            0                       0                        200,000       5,161    1997
                                                                           100,000 09/20/2002                                                             100,000      15,053    2000
                                                                                                                                                                      200,000    2001
                                                                                                                                                                       37,967    2002

2   NY NYD047650197 Stanton Cleaners Area GW Contamination                 150,000 09/30/2002            0                       0                        150,000

2   NY NYD980763767 Vestal Water Supply Well 1-1                           213,200 03/04/2002            0                 186,800 03/04/2002             400,000     236,003    1999
                                                                           100,000 04/03/2002                                                             100,000

                                                       TOTALS          $13,852,990               $5,450,000               $670,800                    $19,973,790   $7,017,844

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.

        Notes Provided by Regional Officials:
                                                                                                                      Enclosure 7
                                                                                                                      Page 14 of 21

                        Region 3 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                        Total FY02            Total FY02
                                                               FY02 Obligated                                        Amount Obligated       Expenditures ****
                                                                Amount from                  Special       State SF    (sum of prior                 (Year of
RG ST       EPA ID      Site Name                               HQ RA AOA**       Date      Accounts       Contracts    3 columns)         Amount Obligation)

3   PA PAD980691794 Berks Sand Pit                                    $133,903 09/30/2002          $0            $0            $133,903

3   PA PAD981034705 Butz LF                                            200,000 08/12/2002              0          0             200,000      17,892    1999
                                                                                                                                            175,473    2001

3   PA PAD002360444 Cryochem, Inc.                                     200,000 04/12/2002              0          0             200,000      90,900    2000
                                                                        50,000 09/25/2002                                        50,000      80,135    2001

3   PA PAD002338010 Havertown PCP                                      220,000 08/13/2002              0          0             220,000        4,804   2002

3   PA PAD002390748 Hellertown Manufacturing Co.                        60,000 02/26/2002              0          0              60,000     190,166    2000
                                                                        75,000 04/17/2002                                        75,000      21,772    2002
                                                                        75,000 09/24/2002                                        75,000

3   PA PAD039017694 Raymark                                            150,000 09/24/2002              0          0             150,000      65,029    2000

3   VA VAD003125374 Greenwood Chemical Co.                             350,000 01/14/2002              0          0             350,000     613,080    2000
                                                                                                                                             25,000    2001
                                                                                                                                            104,210    2002

3   VA VAD003117389 Saunders Supply                                    200,000 09/20/2002              0          0             200,000
                                                                                                                                            237,488    2001

                                                 TOTALS             $1,713,903                     $0            $0          $1,713,903   $1,625,949

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                          Enclosure 7
                                                                                                                          Page 15 of 21

                           Region 4 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                            Total FY02           Total FY02
                                                        FY02 Obligated                                                   Amount Obligated      Expenditures ****
                                                         Amount from                    Special                State SF    (sum of prior                (Year of
RG ST         EPA ID       Site Name                     HQ RA AOA**        Date       Accounts         Date   Contracts    3 columns)        Amount Obligation)

4   KY    KYD980602155     Distler Brickyard                         $0                  $200,000 09/17/2002         $0            $200,000

4   NC   NCD981026479      Benfield Industries, Inc.             100,000 05/07/2002               0                   0             100,000     3,402    2002

4   SC    SCD980839542     Elmore Waste Disposal                 150,000 04/27/2002               0                   0             150,000
                                                                  36,938 09/17/2002                                                  36,938

4   SC    SCD003362217     Palmetto Wood Preserving              150,000 05/14/2002               0                   0             150,000

                                               TOTALS           $436,938                 $200,000                    $0            $636,938    $3,402

         **includes prior year fund appropriation obligations

         ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                        Enclosure 7
                                                                                                                                        Page 16 of 21

                            Region 5 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                           Total FY02             Total FY02
                                                                      FY02 Obligated                                                    Amount Obligated        Expenditures ****
                                                                       Amount from                     Special   State SF                 (sum of prior                  (Year of
RG   ST        EPA ID       Site Name                                  HQ RA AOA**         Date       Accounts   Contracts   Date          3 columns)          Amount Obligation)

5    MI    MID060174240     Ott/Story/Cordova Chemical Co.                     925,711 09/25/2002            0   1,574,289 09/25/2002             2,500,000    1,678,578   2000
                                                                                                                                                                 770,115   2001

5    MI    MID006031348     Peerless Plating Co.                               258,650 02/04/2002            0           0                          258,650      23,080    2001

5    MI    MID980701247     Wash King Laundry                                  520,000 03/26/2002            0           0                          520,000

5    MN   MND980904072 Long Prairie Groundwater Contamination                  450,000 06/20/2002            0           0                          450,000     354,000    1999

5    MN   MND006192694 MacGillis & Gibbs/Bell Lumber & Pole Co.                500,000 12/04/2001            0           0                          500,000     542,000    2001
                                                                               250,000 03/29/2002                                                   250,000     282,393    2002

5    WI    WID006100275     Oconomowoc Electroplating Co., Inc.                 89,972   02/07/2002          0           0                           89,972     319,797    2000
                                                                                18,990   05/24/2002                                                  18,990     236,317    2001
                                                                               556,000   09/27/2002                                                 556,000
                                                                                44,000   09/27/2002                                                  44,000

5    WI    WID980821656     Onalaska Municipal Landfill                        103,281 05/24/2002            0           0                          103,281     132,010    1997
                                                                                                                                                                 60,166    1998

5    WI   WID0006176945 Penta Wood Products                                    400,000 01/02/2002            0           0                          400,000     473,654    2001
                                                                               900,000 01/02/2002                                                   900,000     331,052    2002
                                                                               852,519 09/25/2002                                                   852,519

                                                             TOTALS         $5,869,123                      $0 $1,574,289                        $7,443,412   $5,203,162

          **includes prior year fund appropriation obligations

          ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                        Enclosure 7
                                                                                                                        Page 17 of 21

                           Region 6 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                          Total FY02           Total FY02
                                                                FY02 Obligated                                         Amount Obligated      Expenditures ****
                                                                 Amount from                   Special       State SF    (sum of prior                (Year of
RG ST         EPA ID       Site Name                             HQ RA AOA**        Date      Accounts       Contracts    3 columns)        Amount Obligation)

6   LA    LAD000239814     American Creosote                           $625,000 07/22/2002              $0         $0            $625,000    114,834     2001
                                                                       $135,649 09/30/2002                                       $135,649

6   NM   NMD980749378      Cimarron Mining Corp.                        150,000 09/23/2002               0          0             150,000

6   OK   OKD007188717      Double Eagle Refinery Co.                     62,500 09/25/2002               0          0              62,500

6   OK   OKD980696470      Fourth Street Abandoned Refinery              62,500 09/25/2002               0          0              62,500

                                                   TOTALS            $1,035,649                         $0         $0          $1,035,649   $114,834

         **includes prior year fund appropriation obligations

         ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                         Enclosure 7
                                                                                                                                        Page 18 of 21

                                Region 7 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                        Total FY02           Total FY02
                                                                       FY02 Obligated                                Amount Obligated      Expenditures ****
                                                                        Amount from       Special        State SF      (sum of prior                   (Year of
RG   ST         EPA ID          Site Name                               HQ RA AOA**      Accounts        Contracts      3 columns)        Amount       Obligation)




          Note: Neither Region 7nor OSRTI listed any LTRA sites with FY 02 obligations




          **includes prior year fund appropriation obligations

          ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                           Enclosure 7
                                                                                                                           Page 19 of 21

                        Region 8 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                              Total FY02           Total FY02
                                                 FY02 Obligated                                                            Amount Obligated      Expenditures ****
                                                  Amount from                       Special                State SF          (sum of prior                (Year of
RG ST       EPA ID      Site Name                 HQ RA AOA**            Date      Accounts     Date       Contracts          3 columns)        Amount Obligation)

8   CO COD980717557 Central City/Clear Creek            $1,100,000 04/23/2002             $0                      $0              $1,100,000     142,991   2000
                                                                                                                                                   3,000   2002

8   CO COD007431620 Chemical Sales                                 0                 800,000 05/06/2002                0             800,000      22,646   1999

8   CO COD983778432 Summitville Mine                               0                2,100,000 03/08/2002               0            2,100,000    335,672   2001
                                                                                        5,000 05/17/2002                                5,000
                                                                                      252,300 08/15/2002                              252,300

8   SD SDD987673985 Gilt Edge Mine                             19,982 11/28/2001           0                           0              19,982     192,520   2001
                                                                                                                                                  29,651   2002

                                      TOTALS            $1,119,982                 $3,157,300                     $0              $4,277,282    $726,480

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                                             Enclosure 7
                                                                                                                                             Page 20 of 21

                          Region 9 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                                                Total FY02           Total FY02
                                                                 FY02 Obligated                                                              Amount Obligated      Expenditures ****
                                                                  Amount from                   Special               State SF                 (sum of prior                (Year of
RG   ST       EPA ID      Site Name                               HQ RA AOA**        Date      Accounts      Date     Contracts    Date         3 columns)        Amount Obligation)

9    CA   CAD095989778 Fairchild Semiconductor Corp.                          $0                 $36,975 09/26/2002          $0                        $36,975

9    CA   CAD981434517 Newmark Ground Water Contamination                750,000 06/27/2002              0                    0                        750,000     883,607   2000

9    CA   CAD029452141 Selma Treating Co.                                603,095 07/22/2002              0              500,000 09/25/2002            1,103,095

9    CA    CAD0902527     Modesto Ground Water Contamination                                                                                                         1,099   1999

                                                      TOTALS          $1,353,095                 $36,975               $500,000                     $1,890,070    $884,706

          **includes prior year fund appropriation obligations

          ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                                                             Enclosure 7
                                                                                                                             Page 21 of 21

                          Region 10 - Non-Federal NPL Sites with Long-Term Response Actions

                                                                                                                               Total FY02           Total FY02
                                                                        FY02 Obligated                                      Amount Obligated      Expenditures ****
                                                                         Amount from                    Special   State SF    (sum of prior                (Year of
RG ST        EPA ID       Site Name                                      HQ RA AOA**        Date       Accounts   Contracts    3 columns)        Amount Obligation)

10 WA WAD980726301 Commencement Bay, South Tacoma Channe                       $400,000 08/14/2002           $0         $0            $400,000        499   1999
                                                                               $444,031 09/27/2002                                    $444,031      8,806   2000
                                                                                $59,300 09/27/2002                                     $59,300     16,475   2001

                                                               TOTALS          $903,331                      $0         $0            $903,331    $25,780

        **includes prior year fund appropriation obligations

        ****The amounts in this column do not relate to the obligation information on the same line.
                                                                                     Enclosure 8

                OIG Response to Attachment Question 3
Question 3 - In your October 25, 2002, report you reported that the final need was the same as or
equal to the total amount obligated for FY 2002 at many sites where it was significantly less than
the initial requested amount. Please provide any documentation that substantiates the EPA
claims and identify where there were discrepancies between the information you received from
the remedial project managers and Headquarters.

OIG Response - Our October 25, 2002, letter stated that Office of Emergency and Remedial
Response officials (now OSTRI) indicated to us that managing uncontrolled hazardous waste
sites is inherently uncertain in nature, and site funding needs change frequently based on dynamic
site conditions (see page 2 of our letter). In analyzing the financial information obtained in
preparation for our October 2002 letter, we noted that EPA had obligated funds for certain sites
well above the amount requested at the start of FY 2002. In contrast, some sites, for which funds
were originally requested, received no funding at all. For example, Region 1 originally requested
$10,000,000 for the New Bedford site for FY 2002, but by the end of the fiscal year had
obligated $22,008,211, the majority of which came from available funds supplied by PRPs in
accordance with Consent Decrees. Also, Region 6 initially requested $9,880,000 for the Hart
Creosoting site but did not receive any funding for this site. OSRTI officials told us that amounts
the regions request for sites at the beginning of a fiscal year are “planning estimates.” Thus, the
question arose for the OIG as to what EPA’s “real funding need” was for each of the remedial
and LTRA sites during FY 2002.

To provide some perspective on this issue, at the end of our field work we asked regional
Superfund officials to provide the final FY 2002 need for each site. We asked regional officials
to indicate an amount for “Final Site Need for FY 2002” on our spreadsheets which became part
of our working papers. Given time constraints, we did not request any other supporting
documentation. The information provided by regional officials is reflected in the column
“Final Site Need for FY02" in enclosures 1 and 2 of our October 25, 2002, letter.

During our review, an OSRTI official indicated that he disagreed with Region 5 on the amount
needed for the Continental Steel Corporation site. Region 5 indicated that its final FY 2002 need
was $28.5 million. According to a Region 5 official, this estimate reflected the operating
“ground rules” for the Superfund program that a region receives the full Federal share for new
construction starts. The OSRTI official maintained that the Region did not need all $28.5 million
in FY 2002 given the multi-year nature of this project. That official maintained that the site
could be addressed by allocating approximately $10 million per year over a 3-year period. The
Region 5 official agreed that all $28.5 million would not have been spent in the first year of
construction but did not believe that the “ground rules” had been changed to support an
incremental funding approach. The Region 5 official added that the danger with incremental
funding is that future funding may not be available when needed to complete the project.
                                                                                    Enclosure 9
                                                                                    Page 1 of 5




                OIG Response to Attachment Question 4

Question 4 - Please describe the budget formulation and funding process for FY 2003 for
Superfund activities, focusing on remedial investigation, remedial design, remedial construction,
and long-term response actions. Please describe the budget formulation and funding process for
FY 2002 for these same activities. Please describe any changes to the budget and funding
process from FY 2002 to FY 2003. Please provide any background documentation and memos.

OIG Response - OSRTI provided the following information:

EPA manages the allocation of Superfund resources using an AOA structure. For the remedial
program, response resources (exclusive of payroll, travel and working capital fund) from the
Superfund appropriation are placed in two AOAs. The Remedial Action AOA provides
resources for remedial action construction, non-time critical removal construction, LTRAs
(e.g., ground water restoration), and five-year reviews scheduled to be performed during the year.
These actions are taken at sites on the Superfund NPL. The Pipeline Operations AOA provides
resources for a wide variety of program activities including site assessment, remedial
investigation/feasibility study, remedial design, oversight of responsible party cleanups,
community involvement (including technical advisor grants), State involvement, and contracts
management. The budget and funding process varies significantly for each AOA.

FY 2003 Budget and Funding Process

Remedial Action AOA

The resources planning and management process for Superfund cleanup construction projects is
an ongoing effort throughout the fiscal year. Resources for construction projects are provided
from the Remedial Action AOA and from the deobligation of unexpended funds from prior
years. The highest priority for funding is given to “ongoing” projects with resource needs,
including ongoing construction projects with resource needs to maintain progress or achieve
completion, LTRA, and five-year reviews scheduled to be performed during the year. After
ongoing construction needs are met, any remaining resources from the Remedial Action AOA
and deobligations are allocated to sites where new cleanup construction projects are ready to
proceed.

EPA began the Remedial Action funding process for FY 2003 during July/August 2002. A work
planning memorandum was issued to the EPA Regional Offices on June 28, 2002. The
memorandum asked the Regions to identify funding needs for ongoing remedial actions and
LTRAs and for five-year reviews. The memorandum also requested that the regions
                                                                                   Enclosure 9
                                                                                   Page 2 of 5


complete project evaluation forms for each ongoing remedial action project and each LTRA
project (with an estimated annual cost exceeding $600,000) requiring funding during FY 2003.
These forms were intended to provide a brief description of the project and the projected resource
need for the year. Using the project evaluation forms as well as reports pulled from the
Superfund information management system, CERCLIS, initial resource requests for ongoing
construction projects were identified, as well as candidates for new start construction expected to
be ready to begin work during the fiscal year that the Region planned to present to the National
Risk Based Priority Panel (see description below). A conference call was subsequently
scheduled with each Region to review their funding request for each site/project. These
discussions confirmed the resource estimates, the timing (fiscal quarter) when resources were
needed, and whether other sources of funding were potentially available for the site/project (e.g.,
reimbursable resources from State cost share payments or responsible party settlement
resources). A preliminary estimate of potential deobligations also was obtained from each
Region. Most ongoing projects require a relatively small amount of funding and are readily
approved at the amount requested by the Regional Office, while the larger, higher cost projects
undergo a more detailed review. Factors considered in this review include the specific scope,
status, and resource needs of the project, the total resource needs for all cleanup projects, the
available budget for cleanup construction work from the Superfund appropriation, and other
potential sources of funding. The goal of the program is to provide the resources required to
maintain cleanup progress during the year. This allocation may be less than the amount initially
requested by the Regional Office.

Concurrent with the work planning process, senior managers in EPA Headquarters, in
consultation with the Superfund Directors in the Regions, considered options for increasing the
available funding for cleanup construction. After extensive deliberations, a decision was made to
transfer $10 million from the Pipeline Operations AOA to the Remedial Action AOA. In
addition, the Superfund deobligation policy was revised to direct a larger portion of deobligation
resources to the National Deobligation Pool for construction funding. These adjustments were
required to meet the growing need for resources for cleanup construction.

The FY 2003 Remedial Action AOA funding level, the Superfund deobligation policy, and the
initial funding plan for ongoing remedial action needs were issued in a memorandum to the
Regions on October 30, 2002. The Remedial Action AOA was tentatively set at $230 million
(subsequently reduced to $227.8 million based on the final appropriation received from Congress
and the proposed Agency Operating Plan). The deobligation policy was set with 25 percent of
the resources retained by the Regions for regional priorities and 75 percent returned to
Headquarters for national priorities, including funding for remedial action needs. Deobligation
resources returned to Headquarters are placed in a reserve account called the National
Deobligation Pool and remain available through the year until reprogrammed back to a Region
for a specific project. The initial funding plan designated over $220 million from the Remedial
Action AOA for more than 180 projects with ongoing funding needs (including cleanup
construction projects, LTRA’s and five-year reviews).
                                                                                      Enclosure 9
                                                                                      Page 3 of 5


Resources were provided to the Regional Offices as funding became available during the
continuing resolution periods and after enactment of the appropriation, largely in accordance
with the funding plan. During the course of the year, the Regional Offices refined their project
needs as cleanup work progressed in the field, and EPA Headquarters adjusted the initial
allocations as needed. A comprehensive review was conducted at mid-year and a revised plan
reflecting the updated regional needs was issued on June 5, 2003. Resources were issued in
accordance with the plan over the remainder of the fiscal year.

Concurrent with the work planning process for ongoing projects, EPA Headquarters asked the
Regional Offices to submit new start construction project candidates for consideration by the
National Risk Based Priorities Panel. EPA established this Panel to review and evaluate
Superfund cleanup construction projects that are expected to be ready to proceed during a fiscal
year. The Panel is comprised of national program experts from each EPA Regional Office and
Headquarters. The panel uses the following factors to evaluate each project:

       •   Risk of human exposure;
       •   Stability of the contaminant;
       •   Characteristics of the contaminant, including concentration and volume;
       •   Ecological risk; and
       •   Program Management considerations, such as whether (1) innovative technologies
           can be employed, (2) design is complete, (3) the State’s share of cleanup costs is
           available; (4) environmental justice concerns are present, and (5) economic
           redevelopment may occur.

Each factor receives a score of from 1 to 5 and the project’s overall score is arrived at by adding
the raw scores multiplied by the weight of each factor. For FY 2003, 35 projects were reviewed
by the Panel.

New start construction projects are funded depending on the availability of resources. Priorities
are set based on the relative risk posed by the site as determined by the Panel, and the potential
for achieving construction completion. Based on a projection of available resources, largely from
the deobligation of unexpended prior year resources, EPA designated 11 projects to receive
construction funding during FY 2003. (OIG Note: one of the projects received removal funds
and another project received pipeline funds.)

Pipeline Operations AOA

EPA Headquarters and the Regional Offices engage in a work planning process for
Pipeline AOA resources, but the critical difference is that Pipeline resources are not
allocated to the Regions on a site/project-specific basis. For FY 2003, the Pipeline Operations
AOA funding level was initially set at $190 million (after $10 million was shifted to the
Remedial Action AOA to augment the construction budget). Similar to the Remedial Action
                                                                                   Enclosure 9
                                                                                   Page 4 of 5


AOA, Pipeline funding was subsequently reduced to $187 million following enactment of the
Superfund appropriation.

The Pipeline Operations AOA resources are distributed among the Regions based on the Pipeline
Allocation Model. A portion of the allocation is based on historical allocations and the
remaining portion is based on a work-based scoring system. The work-based scoring system
contains such factors as the number of completed actions, ongoing actions, and planned actions.
Weights are assigned to the categories and differ depending on whether (1) the action will be
funded with Federal funds or by the responsible parties, (2) the site is considered a mega site, or
sites with estimated costs of $50 million or more, and (3) the site is on the NPL. The various
weights are used to calculate a work-based amount for each region. For FY 2003, the work
planning memorandum issued to the Regions on August 12, 2002, provided general guidance
regarding OSRTI’s projections of the funding that would be available to the Regions through the
Pipeline Operations AOA. Using this information, each Region planned for the use of its budget,
entering its planned obligations and accomplishments for certain actions (e.g., remedial
investigations/feasibility studies, remedial design, and oversight) into CERCLIS/WasteLAN.
Pursuant to work planning discussions conducted during October/November 2002, EPA
Headquarters refined resource allocation projections based on the Pipeline Allocation Model and
Regions finalized their planned accomplishments in CERCLIS/WasteLAN. As a result of
uncertainties due to the appropriation continuing resolutions, delays in obtaining an Agency
Operating Plan, and concerns regarding the availability of funds for construction, Headquarters
finalized its decision for distributing the Pipeline Operation AOA in April 2003.

FY 2002 Budget and Funding Process

The Remedial Action AOA planning and resource allocation process for FY 2002 was largely the
same as described above. The methodology for allocating Pipeline AOA resources in FY 2002
was also substantially similar to that of FY 2003.

Process Changes from FY 2002 to FY 2003

Process changes from FY 2002 to FY 2003 include the following:

•   The Remedial Action AOA was increased by $10 million for FY 2003 and the Pipeline
    Operations AOA reduced by $10 million to address the increased need for cleanup
    construction funding. This decision, as well as the decision on the deobligation policy, was
    reached after extensive consultation with the regional Superfund Division Directors.

•   The Superfund deobligation policy was revised for FY 2003 to allocate a higher percentage
    of regional deobligations for cleanup construction to the national deobligations pool. This
    allocation was increased from 50 percent for FY 2002 to 75 percent for FY 2003.
                                                                                     Enclosure 9
                                                                                     Page 5 of 5


•   For FY 2003, work planning discussions between OSRTI and the regions for cleanup
    construction were done separately from the work planning discussions on all other program
    activities. In prior years, construction resource discussions between OSRTI and the regions
    took place during the first quarter of the fiscal year as part of the work planning sessions.
    Because the construction resource discussions for FY 2003 began in the summer of 2002,
    OSRTI and the regions were able to conduct a more thorough review of regional needs.
    Because these discussions took place sooner than in prior years, OSRTI was able to issue its
    initial funding plan early in the fiscal year – on October 30, 2002.

•   Although not a change in policy, OSRTI issued a memorandum to the Regions on
    September 20, 2002, reinforcing the need to explore all enforcement options prior to
    proceeding with a fund-financed cleanup construction project. The memorandum was
    released during FY 2002, but had its most practical affect during FY 2003.

•   The Pipeline Allocation Model was adjusted for FY 2003, including giving greater weight to
    the number of pipeline actions completed in the prior year and giving more money to those
    regions that met or exceeded 80 percent of their planned starts for the previous fiscal year.

•   The extended Continuing Resolution periods during FY 2003 resulted in increased control
    over the allocation of funds to the Regions from both the Pipeline operations and Remedial
    Action AOAs to ensure critical needs could be met within the limited cash flow of
    Continuing Resolution funding. Because each Continuing Resolution lasted for a specified
    period of time and only allowed a limited amount of funding to be used, OSRTI and the
    regions held discussions during each Continuing Resolution to discuss funding needs and
    craft a funding plan for that Continuing Resolution.

•   The FY 2002 Superfund appropriation included a provision that $100 million of the
    appropriated amount was not available until September 1, 2002 (referred to as the
    $100 million hold-back). The hold-back was allocated $60 million to the Remedial Action
    AOA and $40 million to the Pipeline Operations AOA. As a result, these resources were not
    provided to the regional offices until after September 1, 2002. Congress did not include this
    provision in the FY 2003 appropriation, allowing the Agency more flexibility in allocating
    resources and funding projects.

Copies of memoranda relating to FY 2002 and FY 2003 processes are attached.
                                                                                   Enclosure 10
                                                                                    Page 1 of 3

                OIG Response to Attachment Question 5

Question 5 - In your October 25, 2002, report you stated that Headquarters staff emphasized that
one of the additional practices that helps conserve Superfund resources was “tightening the
criteria for NPL listing.” Please specify these new criteria and indicate which sites may, have
been, or will be affected or had their listing affected by the new criteria.

OIG Response - OSRTI provided the following information:

In considering sites for inclusion in the April 2003 proposed National Priorities List Rule, OSRTI
used a tiering system as an additional component of the internal deliberative process. The tiering
system used risk to human health/environment and urgency for cleanup as the two main factors.
The sites were tiered by OSRTI staff and representatives from EPA’s ten Regions.

Generally, the Tiers used were as follows:

    Tier A:     Current actual human exposure (measurable with appropriate
                sampling/analytical data) to resident population, or students at schools/daycare,
                and Superfund remedial action is needed near term (e.g., within 10 years).

    Tier B:     Current actual human exposure to any population residents/students/workers/
                trespassers) and Superfund remedial action is needed in the long term (e.g.,
                more than 10 years).

    Tier C:     Human exposure has occurred in the past, but current risk management practices
                are adequate for the interim, or potential human exposure above
                screening/cleanup levels is a reasonable scenario in the future.

    Tier D:     No current/past human exposure. Possible future human exposure or
                contaminated sensitive environments, or there are known State endangered
                species habitats within the target distance limit (TDL).

    Tier E:     Contaminated ground water, surface water, soils, or air; no projected potential
                human exposure or projected exposures below screening/cleanup levels; no
                direct threat to sensitive environments.
                                                                                                            Enclosure 10
                                                                                                             Page 2 of 3


Once the sites potentially eligible for the April 2003 NPL update were identified by EPA regions,
the sites were selected for further evaluation by taking the Tiers into account. In selecting sites
for this rule, EPA considered, in addition to the Tiers:

         •    the need for a strong enforcement program through cleanups conducted or
              financed by PRPs;
         •    the level of State, tribal, community, and congressional delegation support;
         •    estimated cleanup costs;
         •    the timing of the costs and cleanup;
         •    environmental justice issues;
         •    prospects for commercial redevelopment; and
         •    geographic balance.

An OSRTI official indicated that cleanup costs and timing were considered in the aggregate (e.g.,
the costs for all Tier A and B sites were presented as an option to management) and were not the
cause for a final decision on any site. The official indicated that while the regions had considered
the factors above for past rulemakings, this was the first time factors other than legal defensibility
had been considered by Headquarters. These considerations resulted in proposing 14 sites (out of
30 sites identified by the regions) to the NPL on April 30, 2003 (68 FR 23094).

The 14 sites proposed were as follows:

Proposed Rule No. 39, General Superfund Section
-------------------------------------------------------------------------------------------------------------
State Site name                                                                City/county
----------------------------------------------------------------------------------------------------------------
CA       AMCO Chemical                                                        Oakland
CO       Captain Jack Mill                                                    Ward
MD       68th Street Dump                                                     Baltimore
MO       Madison County Mines                                                 Fredericktown
MO       Newton County Mine Tailings                                          Newton County
NC       Ram Leather Care                                                     Charlotte
NH       Troy Mills Landfill                                                  Troy
NJ       Rolling Knolls Landfill                                              Chatham Township
NJ       Standard Chlorine Chemical Company, Inc.                             Kearny
NJ       White Swan/Sun Cleaners GW Contamination                             Wall Township
OH       Armco Inc., Hamilton Plant                                           Hamilton
OH       Peters Cartridge Factory                                             Kings Mills
TX       Conroe Creosoting Company                                            Conroe
TX       Jones Road Ground Water Plume                                        Harris County

(EPA considers the 16 sites not proposed to be deliberative and enforcement-sensitive
information. Seven sites were added to the NPL in April 2003, but these sites related to prior
                                                                                    Enclosure 10
                                                                                     Page 3 of 3


rulemakings and thus were not evaluated using the tiering process described above. Final listing
decisions concerning the 14 sites will occur after the public comment period closes and all
relevant comments are considered and addressed.)

The tiering process only aided in identifying sites that should be a priority for further
evaluation. Sites initially identified as candidates for proposed listing may not ultimately be
proposed for listing for several reasons. Further technical, legal and policy review may indicate
that certain sites are not ready for proposed listing. For example, EPA postponed decisions on
some sites because States requested additional time to negotiate cleanup agreements or,
alternately, EPA plans to negotiate cleanup agreements under the Superfund Alternative Sites
approach. (Under the Superfund Alternative Sites policy, the listing process is suspended while
responsible parties are given an opportunity to enter into an agreement to clean up the site in the
same manner as if the site were listed.) Other EPA policies that may affect the decision to
propose listing a site on the NPL include EPA’s Resource Conservation and Recovery Act
deferral and State deferral policies. According to OSRTI officials, the Agency will consider all
sites identified by the regions as eligible for listing for future NPL proposed rules. While OSRTI
will obtain information on the factors indicated above for the next proposed rulemaking, it has
not decided how this information will be used.

(OIG note: The U.S. General Accounting Office discussed the tiering process on page 29 of its
July 2003 report, “Superfund Program: Current Status and Future Fiscal Challenges,” GAO-03-
850.)
                                                                                    Enclosure 11
                                                                                     Page 1 of 6

                  OIG Response to Attachment Question 6
Question 6 - The October 25th report indicates that $95 million was de-obligated from prior year
funding and used in FY 2002. Please identify the sites where the funding came from, identify the
work the funding was reserved for, and indicate whether it was replaced or needs to be replaced
in future years. Also, please indicate to what extent the EPA will be able to find significant
amounts of additional prior year funding to de-obligate and use in FY 2003.

OIG Response - OSRTI reported that a total of $85 million of FY 2003 obligations were from
prior-year funds. The enclosed disk contains information each region provided for all
deobligations during FY 2002. The information indicates where the funds were taken from and
the region’s comments on whether these activities would require funds to address any remaining
needs. As a general rule, regional officials indicated that they did not have a need to replenish
the funds deobligated from the activities indicated. Since the regions reported all deobligations,
the total for the deobligations will exceed the $95 million obligated to remedial actions in FY
2002. The OIG did not confirm the accuracy of the information provided by the regions. As an
example, we are providing the information submitted by Region 6, the Region with the greatest
total deobligations for FY 2002.

     Amount
   De-obligated              Site from Which                   Activity from Which
    in FY 2002           Funds Were De-obligated             Funds Were De-obligated        Note
  $21,430,712.00    Popile                                Remedial Action                     1
       47,550.00    Brio                                  Technical Assistance Grant          1
      150,805.00    Southern Shipbuilding                 Remedial Action                     1
        1,018.00    Small Purchase Order for GP                                               1
        8,233.13    North Railroad Plume                  Management Assistance               2
       47,593.00    Training                              Non Site Specific                   2
      103,763.07    General Support                       Removal                             2
       61,495.92    General Support                       Remedial                            2
      181,023.00    PA/SI                                 Non Site Specific                   2
       30,602.87    Core Program                          Non Site Specific                   2
    1,991,250.68    Madisonville                          Remedial Action                     3
      330,000.00    All Indian Pueblo Council Coop Ag     PA/SI                               4
      301,492.00    All Indian Pueblo Council Coop Ag     Core                                4
       50,000.00    North Railroad Ave Plume              Management Assistance               4
       75,000.00    North Railroad Ave Plume              HRS Pilot                           4
       21,884.00    Lockheed Martin ESAT Contract         Data Validation                     4
      500,000.00    DOT Interagency Agreement             Emergency Response Support          4
       27,353.00    RSR                                   Management Assistance               4
       26,726.08    Ecology &Environment (START)          Removal Support Assessment          4
       92,994.54    Ecology &Environment (START)          Removal Support Assessment          4
       83,477.39    Quinton Smelter                       Removal                             4
      491,862.00    Odesa Chromium I                      Remedial Action                     4
      450,000.00    Ice House Drums                       Removal                             4
           13.45    Edmond Strees (S Valley)              RI/FS oversight                     4
           13.93    Dixie Oil Processors                  RI/FS oversight                     4
                                                                      Enclosure 11
                                                                       Page 2 of 6


  Amount
De-obligated            Site from Which           Activity from Which
 in FY 2002         Funds Were De-obligated     Funds Were De-obligated     Note
         1.20   Sheridan (cashout)            RI/FS oversight                 4
     2,911.29   PA/SI                         Non-site                        4
       722.43   Brio                          Oversight                       4
       376.19   RAB Valley                    RI/FS                           4
       142.40   Arkwood                       Oversight                       4
        21.47   Ag Street                     Community Involvement           4
    31,677.51   ARCS Contract Management      Non-site                        4
        23.26   Integrated Assessment         Non-site                        4
    15,000.00   Site Assessment                                               4
    15,000.00   Tinker AFB                    RD oversight                    4
    19,991.03   South 8th Street              Oversight                       4
     7,506.22   ATSF-Alburquerque             Remedial Analysis               4
     8,174.48   Rinchem                       Remedial Analysis               4
    10,594.14   Tinker AFB                    RA oversight                    4
       370.04   Remedial Support                                              4
    36,561.26   4th Street                    Remedial Action                 4
    12,437.80   Bailey Waste                  PRP RA                          4
    26,701.28   ARCS Contract                 Non-site                        4
       301.54   Sol Lynn                      Oversight                       4
    39,707.46   South Calvacade               Oversight                       4
    19,873.57   Hardage                       Oversight                       4
    13,664.59   Alcoa/Lavaca Bay              Oversight                       4
    19,597.92   Koppers                       Oversight                       4
    18,517.12   Mosley Road                   Oversight                       4
    10,286.65   Petrochem                     Oversight                       4
    38,494.07   ATSF-Clovis                   Oversight                       4
    50,040.68   PA/SI                         Non-site                        4
     3,563.92   Alcoa/Lavaca Bay              Remedial Analysis               4
   235,465.89   06009 Contract                Bulk Funding                    4
    17,661.68   4th Street                    RD                              4
     3,203.77   South 8th Street              RI/FS                           4
    15,000.00   South 8th Street              RD                              4
    23,715.35   Integrated Assessment         Non-site                        4
    19,690.49   PetroChem                     RD                              4
    23,970.47   Double Eagle                  RA                              4
    25,514.13   Double Eagle                  RD                              4
     4,155.21   Ag Street                     FS                              4
     4,470.81   Bayou D'Inde                  RI/FS                           4
   280,716.62   06009 Contract                Program Management              4
    63,236.94   4th Street                    RI/FS                           4
     1,000.00   Sol Lynn                      RD                              4
    39,792.36   Double Eagle                  RI/FS                           4
     3,817.58   North Calvacade               RD                              4
     8,107.28   Texarkana Wood                RD                              4
    10,908.67   Texarkana Wood                RI/FS                           4
                                                                         Enclosure 11
                                                                          Page 3 of 6


  Amount
De-obligated            Site from Which            Activity from Which
 in FY 2002         Funds Were De-obligated      Funds Were De-obligated       Note
    10,325.10   United Creosoting              RD                                4
    10,196.28   Bio Ecology                    RA                                4
    42,252.72   Morrison Knudson               Program Management                4
 1,770,000.00   Tar Creek                      RI/FS                             4
 2,200,000.00   Agriculture Street Landfill    Non-time Critical Removal         4
    52,846.00   Brio Refining                  Remedial design                   4
    20,035.00   Koppers                        Remedial Analysis                 4
    24,039.00   MOTCO                          PRP Oversight                     4
    14,533.00   Petro Chemical                 Management Assistance             4
     4,708.00   South Cavalcade                PRP Oversight                     4
    26,409.00   Sprague Road                   Management Assistance             4
   200,000.00   Texarkana Wood                 Remedial Action                   4
   491,347.00   Texarkana Wood                 Remedial Design                   4
    83,000.00   Thermo Labsystems              Laboratory Support                4
    30,548.99   Metcalf & Eddy TES Contract    Non-site Specific Tech. Supp.     4
     4,103.00   Non-site Specific              CORE Program                      4
     3,040.00   Non-site Specific              PA/SI                             4
    51,165.00   ATSF-Alburquerque              RI/FS Oversight                   4
     6,755.00   Cal West                       Remedial Action                   4
    13,745.00   Cimarron Mining                Management Assistance             4
    12,144.00   Cleveland Mill                 Management Assistance             4
     6,627.00   ATSF - Clovis                  Management Assistance             4
    12,096.00   Homestake Mining               Management Assistance             4
    43,309.00   Molycorp                       Management Assistance             4
    13,764.00   South Valley                   Management Assistance             4
     7,273.00   United Nuclear                 Management Assistance             4
    12,075.00   Lee Acres                      Management Assistance             4
   181,538.52   A & B Border Contract          Non-site Technical Support        4
     6,822.70   LaCostex Refining              Technical Assistance              4
    11,164.56   R&H Oil                        Technical Assistance              4
    15,000.00   Tropicana Refinery             Technical Assistance              4
     3,096.93   J.C. Elliott                   Technical Assistance              4
     3,368.20   Brownsville Drums              Technical Assistance              4
     2,616.74   Los Ebanos                     Removal Support                   4
     9,678.59   Gulf Coast Paint               Technical Assistance              4
       775.96   Hazardous Materials Workshop   Training                          4
   579,275.00   Many Diversified Interests     RI/FS                             4
    15,939.00   Sikes Pits                     Remedial Action                   4
   494,928.00   Odessa Chromium II             Remedial Action                   4
     6,743.00   Tex-Tin                        Management Assistance             4
   395,808.00   Jasper Creosoting              RI/FS                             4
 9,610,864.00   Sikes Pits                     Remedial Action                   4
   871,798.00   North Calvacade                Remedial Action                   4
    21,100.00   Angie Wood                     Removal                           4
    48,500.00   Jasper Creosoting              Removal                           4
                                                                       Enclosure 11
                                                                        Page 4 of 6


  Amount
De-obligated             Site from Which             Activity from Which
 in FY 2002          Funds Were De-obligated       Funds Were De-obligated   Note
       129.83   Southern Shipbuilding            Removal                       4
    19,546.25   Texas Gulf Refining              Removal                       4
    20,000.05   Sprague Rd GW Plume              Removal                       4
       485.65   Mallard Bay                      Removal                       4
       436.10   Delatte Metals                   Removal                       4
    80,122.26   New Orleans Parathion            Removal                       4
    57,280.11   Stephenson Bennett               Removal                       4
       316.70   Mylar Fire                       Removal                       4
        29.40   BPS, Inc.                        Removal                       4
    68,115.46   Hudson Refinery                  Removal                       4
    37,421.59   Rogers Enterprises               Removal                       4
       112.03   Hot Springs Mercury              Removal                       4
    20,729.38   Dallas Plating                   Removal                       4
     9,415.56   Texarkana Mercury & Neon         Removal                       4
    39,687.88   Renner Creosoting                Removal                       4
     3,144.03   Doughty's Treating Plant         Removal                       4
       787.14   Pleasant Hill Pole Plant         Removal                       4
   122,707.21   Union Creosoting                 Removal                       4
       224.18   Plano Mercury                    Removal                       4
   154,154.10   R&H Oil                          Removal                       4
    56,708.55   Tropicana Energy Co              Removal                       4
       350.49   Eri Tire Fire                    Removal                       4
        88.05   Limestone Landfill Fire          Removal                       4
     7,030.03   Malone Service Co                Removal                       4
       772.70   R&P Electroplating               Removal                       4
       448.36   Rockwall Mercury                 Removal                       4
       448.36   Arabi Mercury Spill              Removal                       4
    80,050.52   Gibson Recyling Tire Fire        Removal                       4
    25,434.87   Little Bit Rad Site              Removal                       4
     3,342.66   Old Storm Plastics Facility      Removal                       4
    10,410.07   Southwest Tire Processors        Removal                       4
     5,031.38   Woods Tank Farm                  Removal                       4
    24,000.00   Red River Aluminum               Removal                       4
     6,110.29   Coastal Radiation Services       Removal                       4
    72,750.02   Gulf States Paint                Removal                       4
     2,950.40   North Louisiana Chemical         Removal                       4
     2,095.80   Tar Creek E-P Lab Chemicals      Removal                       4
    46,207.09   Urban Machine                    Removal                       4
    10,516.31   Brownsville Furfural Spill       Removal                       4
    36,504.64   Dewey Mercury                    Removal                       4
    15,613.36   Sol Lynn Well Plug Removal       Removal                       4
    17,284.90   Alvin Mercury                    Removal                       4
    64,604.64   ETP                              Removal                       4
    21,944.25   Nonsite Funding for Site Walks   Removal                       4
       602.00   Gulf Coast Vacuum                Removal                       4
                                                                        Enclosure 11
                                                                         Page 5 of 6


  Amount
De-obligated            Site from Which               Activity from Which
 in FY 2002         Funds Were De-obligated         Funds Were De-obligated   Note
       119.00   Vertac                            Removal                       4
     1,789.00   Kem Week Control                  Removal                       4
       334.00   Ella Warehouse Drums              Removal                       4
     1,110.00   Service Circuits                  Removal                       4
     2,228.00   Poly Cycle                        Removal                       4
     1,610.00   Malter Internation                Removal                       4
       567.00   Dempco Paint & MFG                Removal                       4
       588.67   Shore Refining                    Removal                       4
     1,175.00   Patterson-Edmonson Construction   Removal                       4
     2,891.00   Okay Trailer Park                 Removal                       4
    11,613.32   Glenmora Creosoting               Removal                       4
     1,376.00   Card/Blanc/Carter                 Removal                       4
     3,169.00   Hillsdale Drums                   Removal                       4
     2,137.00   Marco of Iota                     Removal                       4
     6,300.55   Hi-Chem. Inc.                     Removal                       4
       859.00   Macmillan Ring Free               Removal                       4
     1,033.00   Lithium of Lubbock                Removal                       4
     1,023.00   Russell Fare Site                 Removal                       4
       542.00   Ann T. King Property              Removal                       4
     8,132.93   Smith Smelter                     Removal                       4
       944.00   Oklahoma Furniture                Removal                       4
     1,023.00   Hardco of Arkansas                Removal                       4
       252.00   Boeck Drums                       Removal                       4
     1,980.00   Rab Valley                        Removal                       4
    75,461.88   RSR OU1-Phase II RV Area          Removal                       4
     1,605.00   Johnson Lumber                    Removal                       4
     5,296.52   Hart Creosoting                   Removal                       4
    13,490.96   Central Wood                      Removal                       4
    13,501.21   Tri Container Inc.                Removal                       4
     1,621.00   Good Latimer                      Removal                       4
     1,450.00   Willie Heard Drum                 Removal                       4
     3,216.00   Hearst Mill                       Removal                       4
     1,333.00   Matagorda Round Up                Removal                       4
       967.18   Waco Drum                         Removal                       4
     2,670.00   Terrell Plating                   Removal                       4
       826.00   Reliable Coatings                 Removal                       4
       714.00   Clearwater Fluids Recycling       Removal                       4
    13,366.16   Robin Boulevard                   Removal                       4
       185.98   G.P. Drums                        Removal                       4
     3,573.11   Ray Quinn Drum                    Removal                       4
       364.17   Voda Petroleum                    Removal                       4
     1,063.00   Cimarron Refining                 Removal                       4
       915.00   Jacksonville Landfill             Removal                       4
    12,907.59   JC Pennco Waste Oil               Removal                       4
     1,310.93   Archem Company                    Removal                       4
      Amount
    De-obligated                 Site from Which                         Activity from Which
     in FY 2002              Funds Were De-obligated                   Funds Were De-obligated             Note
         27,079.20     Tar Creek OU2                                Removal                                  4
          3,219.46     Safe Tire Fire                               Removal                                  4
          1,199.00     Rogers Road Landfill                         Removal                                  4
          3,041.91     Agricultural Street Landfill                 Removal                                  4
            480.00     Oklahoma Refining Company                    Removal                                  4
            499.00     Oklahoma Refining                            Removal                                  4
          1,381.00     Tomlinson Drums                              Removal                                  4
          1,639.00     King Sales Company                           Removal                                  4
            274.00     Baldwin Waste Oil                            Removal                                  4
            664.00     T/B Gail                                     Removal                                  4
         17,111.27     CG Empire Tank Barge                         Removal                                  4
          1,041.00     Hart Creosoting                              Removal                                  4
          1,811.00     Red River Treating                           Removal                                  4
    $46,547,122.77     Total


Notes
1   The funds deobligated from these projects, especially the Popile Remedial Action, were no longer needed as
    the action was complete. The funds were part of the Pipeline Operations AOA to assist the Region with the
    shortfall in that AOA and were not obligated for these same sites for these same activities.

2   The Cooperative Agreement with the All Indian Pueblo Consortium (AIPC) was closed out. Funds in the amount
    of $216,355 were obligated to American Creosote for ongoing Remedial Action and Five-Year Review in FY
    2002.

3   The funds deobligated from this project were no longer needed as the action was complete. The funds were
    part of the Removal Advice of Allowance and obligated on some removal actions and in the START contract for
    removal support.

4   Of the total funds recertified to the Region, $6,151,860 was reobligated in FY2002 for the same sites and the
    same activities from which the funds were deobligated. These funds were transferred from one funding vehicle
    to another type. The remaining $8,170,608 was deobligated from projects that were complete and the funds
    were no longer needed. These monies were obligated in FY 2002 for the Tar Creek Remedial Action ($5
    million) and three removal actions.
